APPENDIX

ia
TABLE OF CONTENTS
Page
APPENDIX
A
–
Judgment
with
Unpublished Disposition (D.C. Cir. Dec. 7,
2020) ..........................................................................1a
APPENDIX B – Memorandum Opinion
Granting
Pension
Benefit
Guaranty
Corporation’s
Motion
for
Summary
Judgment and Denying Plaintiffs’ Motion for
Summary Judgment (D.D.C. June 11, 2018) ...........7a
APPENDIX C – Order Granting Pension
Benefit Guaranty Corporation’s Motion for
Summary Judgment on Counts II through V
and Dismissing Count VI of the First
Amended Complaint (D.D.C. June 11, 2018) .........92a
APPENDIX D – Order Entering Final
Judgment and Dismissing Count I of the
First Amended Complaint (D.D.C. Aug. 29,
2019) ........................................................................94a
APPENDIX E – Order Denying Petition for
Rehearing En Banc (D.C. Cir. Feb. 4, 2021) ..........96a
APPENDIX F – Relevant Statutory and
Regulatory Provisions .............................................98a
APPENDIX G – List of Parties to the
Proceedings............................................................120a

1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
No. 19-5261

September Term, 2020
FILED ON: DECEMBER 7,
2020

K. WENDELL LEWIS, ET AL.,
APPELLANTS
v.
PENSION BENEFIT GUARANTY CORPORATION,
APPELLEE
_______
Appeal from the United States District Court
for the District of Columbia
(No. 1:15-cv-01328)
_______
Before: HENDERSON and WALKER, Circuit Judges,
and GINSBURG, Senior Circuit Judge.
JUDGMENT
We heard this appeal on the record from the
United States District Court for the District of
Columbia and the parties’ briefs and arguments. We
fully considered the issues and determined that a
published opinion is unnecessary. See D.C. Cir. R.
36(d).
We AFFIRM the district court’s judgment.

2a
*

*

*

After Delta Air Lines went bankrupt in 2005, it
entered into an agreement to end its pension plan,
which terminated on September 2, 2006. At that
point, the Pension Benefit Guaranty Corporation
(PBGC) became the plan’s trustee under the
Employee Retirement Income Security Act. The
Pilots in this case, who retired from Delta, later
challenged several decisions PBGC made.
The district court dismissed one count of the
Pilots’ Amended Complaint (Count VI), and it
granted summary judgment to PBGC on the
remaining counts (Counts II-V). Lewis v. PBGC, 314
F. Supp. 3d 135 (D.D.C. 2018). Because we agree
with that decision’s well-reasoned approach to the
merits of the Pilots’ claims, we affirm.1
*

*

*

As an initial matter, we disagree with the Pilots’
argument against deferring to how PBGC
interprets ERISA’s ambiguous provisions.
In Davis v. PBGC, “[w]e [saw] no reason to
depart from the usual deference we give to an
agency interpreting its organic statute.” 571 F.3d
1288, 1293 (D.C. Cir. 2009) (Davis I). We thus
deferred in Davis I “to the PBGC’s authoritative
and reasonable interpretations of ambiguous
provisions of ERISA.” Id.
Four years later, in a later stage of the same
litigation, we declined to say “whether the PBGC is
entitled to [Chevron] deference . . . when it acts as
We have jurisdiction, 28 U.S.C. § 1291, and our review of the
district court is de novo. Western Surety Co. v. U.S. Engineering
Construction, LLC, 955 F.3d 100, 104 (D.C. Cir. 2020).
1

3a
the trustee in an involuntary retirement plan
termination.” Davis v. PBGC, 734 F.3d 1161, 1167
(D.C. Cir. 2013) (Davis II).
The Pilots argue that Davis I isn’t binding
because Davis II called it into question. But Davis
II meant only what it said: “Regardless of the
standard of deference, the Pilots’ claims relating to
the PBGC’s interpretation of the statute and
regulations must fail.” Id. In other words, even if
this Court hadn’t deferred to PBGC in Davis II, the
outcome of Davis II would have been the same. See
id. And, although we decided Davis I in reviewing a
preliminary-injunction decision, Davis I remains
binding precedent. See Mahoney v. Babbitt, 113
F.3d 219, 222 (D.C. Cir. 1997).
*

*

*

Count II: According to the Pilots, when PBGC
allocated the pension plan’s assets, PBGC should
have considered the nearly $2 billion that other
pilots received when the pension plan terminated.
See JA 125-27. But that money never became a
pension plan asset. See id. at 883, 126 ¶ 77; see also
id. at 960. In other words, no one was entitled to
that money “under the plan terms.” PBGC v. LTV
Corp., 496 U.S. 633, 638 (1990) (citing 29 U.S.C. §§
1301(a)(8), 1322(a) & (b)). And ERISA requires
PBGC to calculate benefits based only on what
beneficiaries are entitled to “under the plan terms.”
Id.; see also 29 U.S.C. § 1344(a) (“the plan
administrator shall allocate the assets of the plan”).
Count III: The Pilots say that PBGC
misinterpreted the phrase “in effect” as “payable”
when it decided what benefits were “in effect” at
least five years before the pension plan’s

4a
termination. But Davis I expressly held that
PBGC’s interpretation of “in effect” as “payable”
was a reasonable interpretation of ambiguous text.
571 F.3d at 1293.
That matters here because the Pilots point to an
increased compensation limit on benefits that did
not become payable to them until July 1, 2002. 2
Because that date was not five years before the
pension plan terminated on September 2, 2006,
PBGC was correct when it did not consider the
increased compensation limit.
The Pilots argue in their reply brief that Delta
did not properly promulgate the amendment
cementing this July 1, 2002 date. But because the
Pilots did not raise that argument in their opening
brief to this Court, they forfeited it. World Wide
Minerals, Ltd. v. Republic of Kazakhstan, 296 F.3d
1154, 1160 (D.C. Cir. 2002).
Count IV: The Pilots claim PBGC illegally
excluded certain benefits “in effect” at least 5 years
before the plan terminated. JA 138-44; see 29
U.S.C. § 1344(a)(3)(A).3 But those benefits did not
increase the Pilots’ pension checks until July 1,
2002. 4 To be sure, those benefits increased the
See JA 399 (“The Earnings taken into account in determining
benefit accruals of an Employee in any Plan Year beginning
after June 30, 2002 shall not exceed $200,000, as adjusted for
cost-of-living increases in accordance with Section 401(a)(17)(B)
of the [Internal Revenue] Code.”).
3 PBGC argues that the Pilots waived their Count IV and
Count V(B) arguments by not raising them at the
administrative level. Appellee Br. at 45-46, 53. We assume
without deciding that the Pilots did not waive these arguments
by failing to raise them before the PBGC Appeals Board.
4 JA 402 (“With respect to Participants whose Annuity Starting
Date was before July 1, 2001, the increased 415 limit described
2

5a
pension checks of other pilots — i.e., pilots who
were not eligible to retire by July 1, 2001. 5 But
those (active) pilots are not these (retired or
eligible-to-retire) Pilots.
Count V: After the pension plan terminated,
PBGC recovered money from Delta. PBGC defined
the value of that money based on what it was worth
on the date the plan terminated. JA 144-50. That’s
less than what it was worth a month later when
PBGC recovered it (because a dollar today is more
valuable today than it is tomorrow).
The Pilots argue PBGC should not have
calculated the value of the recovery based on the
termination date. And they are right that ERISA
doesn’t require PBGC’s approach. 29 U.S.C. §
1322(c)(3)(C)(i). But ERISA also does not prohibit
it. Id. And the Pilots have not shown that using the
termination date for the recovery’s value was
“unreasonable.”

in Section 12.11(a)(i) shall be effective for annuity payments
made on or after July 1, 2002.”); see also id. (“provided,
however, that such increase shall only be applied to the
annuity payments made from this Plan to former participants
on or after July 1, 2002.”).
5 5 See JA 402 (“This amendment shall be effective beginning
with the limitation year starting on July 1, 2001 for those
Employees whose Annuity Starting Date is on or after July 1,
2001.”); see also id. (“Benefit increases resulting from the
increase in the limit of Section 415(b) of the [Internal Revenue
Code under the Economic Growth and Tax Relief Reconciliation
Act of 2001] shall be provided to all current and former
participants (with benefits limited by Section 415(b)) who have
an accrued benefit under the Plan immediately prior to July 1,
2001 (other than an accrued benefit resulting from a benefit
increase solely as a result of the increases in limitations under
Section 415))”).

6a
Count VI: The Pilots say PBGC violated the
Administrative Procedure Act. JA 150-51. But that
claim is duplicative of the Pilots’ ERISA claims. See
JA 97. In this case, ERISA “provides an adequate
alternative remedy, barring APA review.” Gulf
Coast Maritime Supply, Inc. v. United States, 867
F.3d 123, 131 (D.C. Cir. 2017) (cleaned up).
*

*

*

This disposition is unpublished. See D.C. Cir. R.
36(d). We direct the Clerk to withhold this mandate
until seven days after resolution of a timely
petition for rehearing or for rehearing en banc. See
Fed. R. App. P. 41(b); D.C. Cir. R. 41(a)(1).
FOR THE COURT:
Mark J. Langer, Clerk
BY:

/s/
Michael C. McGrail
Deputy Clerk

7a
APPENDIX B
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
K. WENDELL LEWIS,
et al.,
Plaintiffs,
v.
PENSION BENEFIT
GUARANTY
CORPORATION
Defendant.

)
)
)
)
)
)
)
)
)
)
)

Civil Action No. 15-1328
(RBW)
[FILED June 11, 2018]

MEMORANDUM OPINION
The plaintiffs, approximately 1,700 former Delta
Air Lines, Inc. (“Delta”) pilots, initiated this action
against the defendant, the Pension Benefit Guaranty
Corporation (the “Corporation” or the “PBGC”),
challenging
the
Corporation’s
benefits
determinations
regarding
the
Delta
Pilots
Retirement Plan (the “Pilots Plan” or “Plan”) under
the Employment Retirement Income Security Act
(the “ERISA”), 29 U.S.C. § 1303(f) (2012). See First
Amended Complaint (“Am. Compl.”) ¶¶ 1–14, 73–
150. 1 Currently pending before the Court are the
The plaintiffs also assert a claim for breach of fiduciary duty,
see Am. Compl. ¶¶ 63–72, and a claim under the Administrative
Procedure Act (“APA”), 5 U.S.C. §§ 701–06 (2012), see id. ¶¶
151–56. The Court earlier denied the Corporation’s motion to
dismiss the plaintiffs’ claim for breach of fiduciary duty, but
granted the Corporation’s motion to certify the issue for
interlocutory appeal. See Lewis v. PBGC, No. 15-1328 (RBW),
2017 WL 7047932, at *1–4 (D.D.C. Jan. 23, 2017) (Walton, J.).
1

8a
Plaintiffs’ Motion for Summary Judgment (“Pls.’
Mot.”) and the Pension Benefit Guaranty
Corporation’s Cross-Motion for Summary Judgment
and Opposition to the Plaintiffs’ Motion for
Summary Judgment (“Def.’s Mot.”). Upon careful
consideration of the parties’ submissions,2 the Court
concludes for the reasons that follow that it must

Resolution of that issue is currently pending before the District
of Columbia Circuit. See Lewis v. PBGC, No. 17-5068 (D.C. Cir.
filed Apr. 12, 2017). As for the plaintiffs’ APA claim, the
plaintiffs explain in their briefing that they only brought this
claim “in the alternative, in case the Corporation was to
argue . . . that the . . . APA . . . should govern their claims.”
Plaintiffs’ Reply in Support of Their Motion for Summary
Judgment and in Opposition to Defendant’s Cross-Motion for
Summary Judgment (“Pls.’ Reply”) at 42. Both parties agree,
however, “that [the p]laintiffs’ claims should be governed by
[the] ERISA.” Id.; see also Pension Benefit Guaranty
Corporation’s Memorandum in Support of Its Cross-Motion for
Summary Judgment and in Opposition to the Plaintiffs’ Motion
for Summary Judgment (“Def.’s Mem.”) at 45 (claiming that the
plaintiffs’ APA claim “is simply a restatement of their ERISA
claims”). The Court therefore dismisses the plaintiffs’ APA
claim as duplicative. See 5 U.S.C. § 704 (limiting judicial review
of agency action pursuant to the APA to “final agency action for
which there is no other adequate remedy in a court”); see also
Davis v. PBGC, 864 F. Supp. 2d 148, 167 (D.D.C. 2012)
(dismissing the plaintiffs’ APA claim at the summary judgment
stage because the plaintiffs “concede[d] that . . . [the APA claim]
was brought solely as a protective claim, in case the PBGC
sought to argue that this case was not cognizable under [the]
ERISA”), aff’d, 734 F.3d 1161 (D.C. Cir. 2013).
2 In addition to the filings already identified and the
Administrative Record (“AR”), the Court considered the
following submissions in rendering its decision: (1) the
Plaintiffs’ Memorandum in Support of Motion for Summary
Judgment (“Pls.’ Mem.”); and (2) the Pension Benefit Guaranty
Corporation’s Reply Memorandum in Support of Its CrossMotion for Summary Judgment (“Def.’s Reply”).

9a
deny the plaintiffs’
Corporation’s motion.

motion

and

grant

the

I. BACKGROUND
A.

Statutory Background

The ERISA, a “comprehensive and reticulated
statute,” Nachman Corp. v. PBGC, 446 U.S. 359, 361
(1980), was enacted in part to “ensure that
employees and their beneficiaries would not be
deprived of anticipated retirement benefits by the
termination of pension plans before sufficient funds
[had] been accumulated in the plans,” PBGC v. R.A.
Gray & Co., 467 U.S. 717, 720 (1984). “The PBGC
administers and enforces Title IV of [the] ERISA,”
PBGC v. LTV Corp., 496 U.S. 633, 637 (1990), which
“created the [PBGC] and a termination insurance
program to protect employees against the loss of
‘nonforfeitable’ benefits upon termination of pension
plans that lack sufficient funds to pay such benefits
in full,” Nachman, 446 U.S. at 361 n.1; see also 29
U.S.C. § 1302(a)(2) (providing that the Corporation’s
purpose is to, inter alia, “provide for the timely and
uninterrupted payment of pension benefits to
participants and beneficiaries under plans to which
[Title IV] applies”). As the Supreme Court has
explained:
When a plan covered under Title IV
terminates with insufficient assets to
satisfy its pension obligations to the
employees, the PBGC becomes trustee of
the plan, taking over the plan’s assets and
liabilities. The PBGC then uses the plan’s
assets to cover what it can of the benefit
obligations. The PBGC then must add its
own funds to ensure payment of most of

10a
the remaining “nonforfeitable” benefits,
i.e., those benefits to which participants
have earned entitlement under the plan
terms as of the date of termination. [The]
ERISA does place limits on the benefits
[the] PBGC may guarantee upon plan
termination, however, even if an employee
is entitled to greater benefits under the
terms of the plan. In addition, benefit
increases resulting from plan amendments
adopted within five years of the
termination are not paid in full.
LTV Corp., 496 U.S. at 637–38 (internal citations
omitted). When the Corporation becomes a plan
trustee, it becomes a fiduciary of the plan, see 29
U.S.C. § 1342(d)(3), and must “discharge [its]
duties . . . solely in the interest of the participants
and beneficiaries and . . . for the exclusive purpose
of: (i) providing benefits to participants and their
beneficiaries; and (ii) defraying reasonable expenses
of administering the plan,” id. § 1104(a)(1)(A).
1. Compensation
Limits

and

Qualified

Benefit

A provision of the tax code limits the “annual
compensation of each employee” that an ERISAqualified pension plan may “take into account” in
calculating that employee’s benefits under the plan
(the “compensation limit”). See I.R.C. § 401(a)(17)
(2012); see also AR 15 (“The IRC § 401(a)(17)
limit . . . caps the amount of earnings a plan may use
to calculate benefits under a tax-qualified plan . . . ”).
On June 7, 2001, Congress increased the
compensation limit to $200,000 in the Economic
Growth and Tax Relief Reconciliation Act of 2001
(the “EGTRRA”). See Pub. L. No. 107-16, § 611(c)(1),

11a
115 Stat. 38, 97 (2001); see also I.R.C. § 401(a)(17).
Congress provided that the increased compensation
limit applied to plan years beginning after December
31, 2001. See Pub. L. No. 107-16, § 611(i)(l), 115
Stat. at 100. An IRS notice setting effective dates for
the increased compensation limit, issued September
17, 2001, further provided:
In the case of a plan that uses annual
compensation for periods prior to the first
plan year beginning on or after January 1,
2002, to determine accruals or allocations for
a plan year beginning on or after January 1,
2002, the plan is permitted to provide that
the $200,000 compensation limit applies to
annual compensation for such prior periods
in determining such accruals or allocations.
I.R.S. Notice 2001-56, 2001-2 C.B. 277.
Another provision of the tax code limits the
annual benefit payments that a plan can make to a
participant or beneficiary (the “qualified benefit
limit”). See I.R.C. § 415(b). The EGTRRA increased
the qualified benefit limit to $160,000. See Pub. L.
No. 107-16, § 611(a)(l), 115 Stat. at 96; see also
I.R.C. § 415(b).3 Congress provided that the increase
The EGTRRA also provided cost-of-living adjustments to the
qualified benefit limit that would occur in subsequent years.
See Pub. L. No. 107-16, § 611(a)(4), 115 Stat. at 96; see also
I.R.C. § 415(d). Although the plaintiffs initially challenged the
Corporation’s determination of these cost-of-living adjustments
in Claim Four of their First Amended Complaint, see Am.
Compl. ¶ 115 (“The PBGC also erred in excluding the
Congressional cost-of-living adjustments to the [q]ualified
[b]enefit [l]imit.”), they appear to have abandoned that
challenge, as they do not raise the issue at all in their motion
for summary judgment, see generally Pls.’ Mot.; see also Pls.’
Reply. As a result, the Court need not address the issue.
3

12a
to the qualified benefit limit applied to plan years
ending after December 31, 2001. See Pub. L. No.
107-16, § 611(i)(l), 115 Stat. at 100.
2. Priority Categories
The ERISA establishes six categories, in
descending order of priority, to which the
Corporation must allocate a terminated plan’s assets
upon its termination. See 29 U.S.C. § 1344(a)(1)–(6).
The first two priority categories (“PCs”), which
concern benefits “derived from the participant[s’]
mandatory contributions,” id. § 1344(a)(2), are not
relevant in this case because the Plan “never
required mandatory employee contributions,” AR
877. Therefore, the highest priority category relevant
in this case is PC3, which includes benefits for pilots
who were retired or eligible to retire “as of the
beginning of the [three]-year period ending on the
termination date of the plan, . . . based on the
provisions of the plan (as in effect during the [five]year period ending on such date) under which such
benefit would be the least.” 29 U.S.C. § 1344(a)(3)(A),
(B).
PC3 benefits are comprised of the following two
categories:
(A) in the case of the benefit of a participant
or beneficiary which was in pay status
as of the beginning of the [three]-year
period ending on the termination date of
the plan, to each such benefit, based on
the provisions of the plan (as in effect
during the [five]-year period ending on
such date) under which such benefit
would be the least, [and]

13a
(B) in the case of a participant’s or
beneficiary’s benefit (other than a
benefit described in subparagraph (A))
which would have been in pay status as
of the beginning of such [three]-year
period if the participant had retired
prior to the beginning of the [three]-year
period and if his benefits had
commenced (in the normal form of
annuity under the plan) as of the
beginning of such period, to each such
benefit based on the provisions of the
plan (as in effect during the [five]-year
period ending on such date) under
which such benefit would be the least.
For purposes of subparagraph (A), the
lowest benefit in pay status during a
[three]-year period shall be considered the
benefit in pay status for such period.
Id. § 1344(a)(3)(A)–(B). “These provisions exclude
certain benefits from [PC3] based on whether (1)
they were in pay status (i.e., actually being paid) or
could have been in pay status (if an individual had
retired) within three years of the date of the plan
termination and (2) the provisions of the plan
creating them were ‘in effect’ within the five-year
period prior to plan termination.” Davis v. PBGC,
734 F.3d 1161, 1165 (D.C. Cir. 2013) (“Davis II”).
The other PC relevant to this case is PC5, which
includes “all other nonforfeitable benefits under the
plan,” 29 U.S.C. § 1344(a)(5), that are not
guaranteed by the Corporation, see id. §
1344(a)(4)(A), and has two sub-categories. The first
subcategory, PC5(a), constitutes vested benefits as
of five years prior to the plan’s termination. See id. §

14a
1344(b)(4)(A) (defining PC5(a) benefits as those
“under the plan as in effect at the beginning of the
[five]-year period ending on the date of plan
termination”). The second subcategory, PC5(b),
constitutes all other vested benefits that went into
effect on a later date, which cannot be funded unless
all benefits in PC5(a) are funded, see id. §
1344(b)(4)(B) (stating that PC5(b) benefits “shall be
determined” only “[i]f the assets available for
allocation under [PC5(a)] are sufficient to satisfy in
full th[ose] benefits”).
3. Recovery Benefits
Benefits that are neither funded by the
terminated plan’s assets nor guaranteed by the
Corporation may be funded, to the extent possible,
by funds recovered by the Corporation from a plan’s
contributing sponsor. See id. §§ 1322(c); 1362(a)–(b);
see also Allied Pilots Ass’n v. PBGC, 334 F.3d 93,
95–96 (D.C. Cir. 2003) (“If the terminated plan lacks
sufficient funds to satisfy existing obligations to
employees, thus requiring the PBGC to use its own
funds to pay benefits, the PBGC has authority to
recover ‘the total amount of the unfunded benefit
liabilities’ from the plan’s sponsor and members of
the sponsor’s ‘controlled group,’ i.e., entities that
belong to the same corporate family as the
sponsor . . . .” (citation omitted)). When the
Corporation recovers unfunded benefit liabilities, see
29 U.S.C. § 1362(b)(1)(A), it is required to share a
portion of those recoveries under the priority
allocation scheme set forth in § 1344(a), see id. §
1322(c). The statute designates how the Corporation
should calculate the portion of the recovery funds
available for payment to participants and
beneficiaries:
it
must
“multiply[]—(A)
the

15a
outstanding amount of benefit liabilities under the
plan (including interest calculated from the
termination date), by (B) the applicable recovery
ratio.” Id. § 1322(c)(2). For plans where “the
outstanding amount of benefit liabilities exceeds
$20,000,000,” like the Plan in this case, the statute
defines “recovery ratio” as the ratio of
(i) the value of the recoveries of the
[C]orporation [for a single-employer
plan terminated under a distress
termination] to
(ii) the amount of unfunded benefit liabilities
under such plan as of the termination
date.
Id. § 1322(c)(3)(C).
4. Benefit Determinations and Appeals
The District of Columbia Circuit has summarized
how the Corporation handles benefit determinations
and appeals of those determinations as follows:
The PBGC makes initial determinations
“with respect to allocation of assets under [29
U.S.C. § 1344].” 29 C.F.R. § 4003.1(b)(4).
They are issued in writing and must “state
the reason for the determination.” Id. §
4003.21. “Any person aggrieved by an initial
determination . . . may file an appeal,” id. §
4003.51, to be considered by the PBGC
Appeals Board, which is composed of three
PBGC officials, id. § 4003.2. In a written
appeal, appellants can request to appear
before the Board and present witnesses to
testify before the Board. Id. § 4003.54. The
Board has discretion to reject such requests.
Id. § 4003.55(b). A decision issued by the

16a
Appeals Board “constitutes the final agency
action by the PBGC with respect to the
determination which was the subject of the
appeal.” Id. § 4003.59(b).
Davis II, 734 F.3d at 1166 (alterations in original).
B.

Factual Background

The plaintiffs in this case, former Delta pilots (or
their beneficiaries), are participants or beneficiaries
under the Plan, which is a single-employer, taxqualified deferred benefit plan. Lewis v. PBGC, 197
F. Supp. 3d 16, 19 (D.D.C. 2016) (Walton, J.). The
relevant facts regarding the Plan and the
Corporation’s actions taken with respect to the Plan
are set forth below.
1. The Plan’s Compensation Limit
On June 21, 2001, two weeks after the EGTRRA
was passed, see Pub. L. No. 107-16, § 611(c)(1), 115
Stat. at 38, Delta and the “pilots in the service of
Delta[,] . . . as represented by the Air Line Pilots
Association, International” (the “ALPA”), signed the
Pilots Working Agreement (the “PWA”), a collective
bargaining agreement that updated the Plan, see AR
3411– 12. The PWA provides that any statutory
increase to the compensation limit “will be effective
for the . . . [Plan] as of the earliest date that the
increased [q]ualified [p]lan [l]imits could have
become legally effective for that Plan, had that Plan
not been collectively bargained,” AR 3697, and that
the provision “will be effective on September 1,
2001,” AR 3695.
On June 27, 2003, Delta signed the Fourth
Amendment to the Delta Pilots Retirement Plan As
Amended and Restated Effective July 1, 1996 (the
“Fourth Amendment”). See AR 244, 251. The Fourth

17a
Amendment, which states that it is “[e]ffective July
1, 2002, or such other effective date as may be
provided in a provision below,” explains that its
purpose is “to reflect certain provisions of . . . [the]
EGTRRA,” and that it “is intended as good faith
compliance with the requirements of [the] EGTRRA
and is to be construed in accordance with [the]
EGTRRA and guidance issued thereunder.” AR 244.
To that end, the Fourth Amendment adds the
following paragraph to the Plan:
The Earnings taken into account in
determining benefit accruals of an Employee
in any Plan Year beginning after June 30,
2002 shall not exceed $200,000 . . . In
determining benefit accruals of [retired
e]mployees . . . in Plan Years beginning after
June 30, 2002, the annual compensation
limit provided in this paragraph for Plan
Years beginning before July 1, 2002 shall be
$200,000, or, if greater, the annual
compensation limit in effect under Section
401(a)(17) of the Code for that Plan
Year . . . .
AR 245.
2. The Plan’s Qualified Benefit Limit
The PWA provision governing the qualified
benefit limit also governs the compensation limit,
and states that any statutory increase to the
qualified benefit limit “will be effective for the . . .
[Plan] as of the earliest date that the increased
[q]ualified [p]lan [l]imits could have become legally
effective for that Plan, had that Plan not been
collectively bargained,” AR 3697, and that the

18a
provision “will be effective on September 1, 2001,”
AR 3695.
The Fourth Amendment amended the Plan to
incorporate the EGTRRA’s increase in the qualified
benefit limit as follows:
Benefit increases resulting from the increase
in the limit of Section 415(b) of the [Tax]
Code under [the] EGTRRA shall be provided
to all current and former participants (with
benefits limited by Section 415(b)) who have
an accrued benefit under the Plan
immediately prior to July 1, 2001 (other than
an accrued benefit resulting from a benefit
increase solely as a result of the increases in
limitations under Section 415)); provided,
however, that such increase shall only be
applied to the annuity payments made from
this Plan to former participants on or after
July 1, 2002.
AR 248. The Fourth Amendment also provided
that it
shall be effective with the [Plan] year
starting on July 1, 2001 for those Employees
whose Annuity Starting Date is on or after
July 1, 2001. With respect to [p]articipants
whose Annuity Starting Date was before
July 1, 2001, the increased 415 limit . . .
shall be effective for annuity payments made
on or after July 1, 2002.
AR 248.

19a
3. Bankruptcy Proceedings and Letter of
Agreement #51
In September 2005, Delta filed for Chapter 11
bankruptcy in the United States Bankruptcy Court
for the Southern District of New York (the
“Bankruptcy Court”). AR 6. Thereafter, the
Corporation determined that the Plan had
insufficient assets to cover its guaranteed benefit
liabilities as of the proposed date of the Plan’s
termination. AR 7. In the course of the bankruptcy
proceedings, Delta negotiated with the ALPA
regarding the Plan’s termination and the benefits
that non-retired Delta pilots (the “Active Pilots” )
would receive, which resulted in the execution of
Letter of Agreement #51. See AR 932. Upon approval
by the Bankruptcy Court, Letter of Agreement #51
would modify the PWA by requiring Delta to issue
$650 million in senior unsecured notes to the ALPA
(the “ALPA Notes”), “[i]n the event the . . . Plan is
terminated,” AR 968, for the ALPA’s distribution
among its members, see AR 971 (noting that
“[d]istribution mechanics, eligibility and allocation
[of the ALPA Notes] among such pilots or pilot
accounts [would] be determined by [the] ALPA”).
Letter of Agreement #51 also provided the ALPA
with a “general non-priority unsecured claim . . . in
the amount of $2.1 billion (the ‘ALPA Claim’),” AR
967, to be allocated among the Active Pilots by the
ALPA’s Delta Master Executive Council, see AR
966–67.
The Corporation objected to Delta’s motion for
the Bankruptcy Court to authorize the execution of
Letter of Agreement #51 on the grounds that the
agreement would violate the ERISA. See AR 1050.
The Corporation’s objections were based on its

20a
position that the ALPA Notes and the ALPA Claim
(collectively, the “ALPA Payments”) were intended
“to replace unfunded benefits under the Pilots Plan
by using the proceeds to fund follow-on retirement
plans and other payments or distributions to pilots.”
AR 1049. The Corporation argued that the ALPA
Notes were intended to serve as replacement
payments for Plan benefits because Letter of
Agreement #51 “provides to the [A]ctive [P]ilots $650
million in notes if and only if the Pilots Plan
terminates,” AR 1064, and “the ALPA claim is
clearly intended to make up for some portion of the
[A]ctive [P]ilots’ pension benefits lost as a result of
the Pilots Plan termination” because Letter of
Agreement #51 permits the proceeds of the ALPA
Claim (as well as the ALPA Notes) to be received “as
retirement benefits—i.e., on a pre-tax and taxdeferred basis,” AR 1068.
The Corporation objected to the execution of
Letter of Agreement #51 because the ALPA
Payments would violate the “ERISA’s explicit
statutory provision assigning the claim for a pension
plan’s total underfunding exclusively to [the] PBGC,
and . . . [would] establish[] a follow-on arrangement
to replace benefits under the Pilots Plan that may be
abusive of the pension insurance system.” AR 1049–
50. The Corporation explained in its objections that
the total amount of unfunded guaranteed benefits
that it can pay to beneficiaries “depends on the
amount [it] recovers for unfunded benefit liabilities
from the plan sponsor and its controlled group.” AR
1053. And, if Letter of Agreement #51 were executed,
the Active Pilots “would recover [u]nfunded
[n]onguaranteed [b]enefits from both the employer,”
in the form of the ALPA Payments, and from the
Corporation once it became Plan trustee upon the

21a
Plan’s termination, which would constitute an
improper double recovery that “would be distributed
contrary to the [ERISA] statutory scheme.” AR 1064.
The
Bankruptcy
Court
overruled
the
Corporation’s objections to Letter of Agreement #51,
finding no “sufficient basis . . . to reach the
conclusion that [Letter of Agreement #51] infringes
any provision of law or any legal ruling by a Court,”
AR 453, and authorized Delta and the ALPA to
execute Letter of Agreement #51, see AR 1091,
1093. The Corporation initially noted an appeal of
the Bankruptcy Court’s ruling, see AR 1099–1102,
but subsequently dismissed that appeal, AR 1153,
after entering into a settlement agreement with
Delta, AR 1105. In that settlement agreement, the
Corporation received a “prepetition, general, nonpriority unsecured claim against Delta . . . in the
amount of $2.2 billion.” AR 1105; see also AR 1126,
1130.
4. The
Corporation’s
Allocations
Benefit Determinations

and

In December 2006, Delta and the Corporation
executed an agreement appointing the Corporation
as the Plan trustee and terminating the Plan as of
September 2, 2006. See AR 5436– 38. The
Corporation
valued
the
Plan’s
assets
at
approximately $1.984 billion and its liabilities at
approximately $4.552 billion. See AR 848, 877. The
Corporation also allocated the “plan liabilities by
priority category” pursuant to the ERISA’s statutory
scheme. See AR 877; see also 29 U.S.C. § 1344(a).
The
Corporation’s
allocations
and
benefit
determinations that are the subject of the plaintiffs’
claims in this case are explained in further detail
below.

22a
a. The Increased Compensation Limit
The Corporation determined that the increased
compensation limit established by the EGTRRA in
2001, which was incorporated into the Plan through
the PWA in 2001 and the Fourth Amendment in
2003, see AR 15, did not apply to its calculations of
the plaintiffs’ PC3 benefits because the increased
compensation limit did not go into effect until the
plan year beginning on July 1, 2002, see AR 13–14
(“Since the plan year for the Pilots Plan began on
July 1 and ended on June 30, [the] $200,000 limit
went into effect on July 1, 2002 (i.e., the first day of
the plan year beginning after December 31, 2001).”),
and the Plan terminated less than five years later,
on September 2, 2006, see AR 2. Accordingly,
because the ERISA requires a benefit to be in effect
for five years prior to the date of the plan’s
termination in order to qualify as a PC3 benefit, see
29 U.S.C. § 1344(a)(3), the Corporation determined
that the increased compensation limit did not apply
to its calculations of the plaintiffs’ PC3 benefits, see
AR 16 (“[T]he benefit amount in PC3 is based on the
plan provisions ‘in effect’ during the five years
before the plan’s termination date ‘under which such
benefit would be the least.’” (quoting 29 U.S.C. §
1344(a)(3))).
b. The Increased Qualified Benefit Limit
The Corporation also determined that although
the PWA incorporated the EGTRRA’s increased
qualified benefit limit into the Plan on July 1, 2001,
more than five years prior to the Plan’s termination,
the PWA did so only for pilots who were active at
that time, i.e., pilots “who had not retired or
separated from service prior to . . . July 1, 2001.” AR
22. However, for participants who retired before

23a
July 1, 2001, the Plan was not amended to
incorporate the qualified benefit limit increase until
the adoption of the Fourth Amendment in June
2003, which was less than five years prior to the
Plan’s termination. See AR 29–30. As a result, the
Corporation applied the increased qualified benefit
limit only for its calculations of the Active Pilots’
PC3 benefits, and not for the plaintiffs’ PC3
benefits. See AR 30.
c. The Recovery Benefits
The “PBGC determined that the total value of its
recoveries [from Delta] under the settlement was
$1,279,506,423 as of May 3, 2007 (approximately
[eight] months after [the Plan’s termination]).” AR
42. But, “[t]o reflect interest, [the] PBGC discounted
th[at] value . . . by $50,501,683, resulting in a§ . . .
recovery value of $1,229,004,740.” AR 43. The
Corporation allocated $240,263,310 to the Plan’s
assets, which “significantly increased the funded
PC3 benefits that [the] PBGC pa[id] to PC3-eligible
participants and beneficiaries . . . , which include[d]
the [plaintiffs],” and allocated $988,741,430 to its
unfunded benefit liabilities funds. AR 46.
For the unfunded benefit liabilities funds, the
Corporation calculated the recovery ratio, i.e., “the
percentage of the [P]lan’s otherwise unfunded
benefits that bec[a]me funded due to [the]
[unfunded benefit liabilities] recovery,” which was
38.51%. AR 47. The Corporation then multiplied the
value of the Plan’s unfunded benefit liabilities, as of
the date of the Plan’s termination, by the recovery
ratio to arrive at a total figure of $681,259,882,
which was used “to pay otherwise unfunded
nonguaranteed benefits.” See AR 47. That amount
funded the remainder of the Plan’s PC3 benefit

24a
liabilities, see AR 49 n.137, and almost 52% of the
PC5(a) benefit liabilities, see AR 50. “[T]here were
no remaining funds to allocate to [ ] PC5(b).” AR 50.
The Corporation determined that the increased
compensation and qualified benefit limits, which it
had already determined could not be applied to the
plaintiffs’ PC3 benefits, belonged in the PC5(b)
category because those increases were not “in effect”
for the full five-year period prior to the Plan’s
termination, as required for inclusion in PC5(a). See
AR 48. Consequently, because there were no
remaining funds to allocate to PC5(b), the
Corporation was unable to pay these increases. See
AR 48.
5. The Appeals Board’s Decision
After the Corporation issued final benefit
determinations for the Plan’s participants and
beneficiaries, see AR 2, the plaintiffs filed a
consolidated appeal with the PBGC Appeals Board
raising thirteen issues, see AR 1, 3. On September
27, 2013, the Appeals Board issued its final agency
decision. See AR 1. The Appeals Board’s conclusions
that are relevant to the plaintiffs’ claims in this case
are set forth below.
a. The ALPA Payments
The plaintiffs argued before the Appeals Board
that the Corporation should have taken into account
the ALPA Payments that the Active Pilots received
pursuant to Letter of Agreement #51 by construing
those payments as received pension benefits under
the Plan. See AR 35–36, 40–41. The Appeals Board
disagreed, reasoning that “[t]he ALPA Payments
were not made from Plan assets and, thus, they were
never funds that ‘[left] the Plan just before [the]

25a
PBGC assumed its role as statutory trustee.’” AR 36
(second alteration in original) (citation omitted).
Therefore, the Appeals Board concluded that the
“PBGC [wa]s not required to take the ALPA
Payments into account in allocating the Plan’s assets
and [the] PBGC’s recoveries.” AR 36. As justification
for its position, the Appeals Board explained:
[The] ERISA does not require [the] PBGC to
account for the ALPA Payments for purposes
of allocating the Pilots Plan’s assets and
[the] PBGC’s recoveries to the Plan’s benefit
liabilities. [29 U.S.C. § 1344(a)] provides that
[the] PBGC, upon plan termination, “shall
allocate the assets of the plan (available to
provide benefits) among the participants and
beneficiaries of the plan.” [29 U.S.C. §
1322(c)] provides for [the] PBGC to allocate a
portion of its recoveries under [29 U.S.C. §
1362] to benefit liabilities that are neither
funded by plan assets nor guaranteed by
[the] PBGC. The ALPA Payments were never
Plan assets, nor were they funds that [the]
PBGC recovered under Title IV of [the]
ERISA.
. . . Rather, the ALPA Payments are funds
that were transferred directly from Delta to
[the] ALPA pursuant to a court-approved
collective
bargaining
agreement.
Furthermore, the ALPA Payments did not
change the pension liabilities owed by the
Pilots Plan to its participants and
beneficiaries as of the Pilots Plan’s
termination date.
AR 41 (footnotes omitted); see also AR 41 n.116
(“The mere fact that a participant received a

26a
payment from a source outside of a PBGC-trusteed
plan does not establish that a pension liability under
the terminated plan has been reduced or
extinguished.”).
b. The Increased Compensation Limit
The plaintiffs argued before the Appeals Board
that the Corporation should have applied the
increased compensation limit in its calculations of
their PC3 benefits because it “was incorporated into
the Pilots Plan’s provisions more than [five] years
before the Pilots Plan terminated (i.e., before
September 2, 2001).” AR 12–13. The Appeals Board
disagreed, stating that the Corporation’s regulation
provides that a plan provision is “in effect” under 29
U.S.C. § 1344(a)(3)(A) “on the later of the date on
which it is adopted or the date it becomes effective,”
29 C.F.R. § 4044.13(b)(6) (2017), and it “becomes
effective” on the date that it becomes “payable,” see
id. § 4044.13(b)(3)(i); see also AR 16. And, “[b]enefit
increases that were [in] effect[] throughout the
[five]-year period” are included in PC3. See AR 17
(quoting 29 C.F.R. § 4044.13(a)). Therefore, the
Appeals Board explained, “a benefit increase cannot
be ‘in effect’ for purposes of PC3 before the date on
which the increase becomes operative[,] . . . even if
the plan provision that provided for the increase has
an earlier ‘stated’ effective date.” AR 16. “Thus, if a
benefit increase does not go into effect (i.e., is not
payable) until after [five years before the plan’s
termination] and if a participant’s payable PC3
benefit amount would be lower based on the plan
provisions that were in effect before the increase,
then the increase is not included in the participant’s
PC3 benefit.” AR 17.

27a
The Appeals Board concluded that the
Corporation correctly applied its regulation to the
Plan as follows: (1) the adoption date of the Plan
provision incorporating the increased compensation
limit was June 21, 2001, the date the PWA was
signed, see AR 245; see also AR 3412, 3697; (2) the
PWA’s stated effective date for the increased
compensation limit was September 1, 2001, see AR
3695, 3697; and (3) the increased compensation limit
became payable on July 1, 2002, because the Plan
incorporated the $200,000 limit “for purposes of
‘determining benefit accruals of an [e]mployee in any
[p]lan [y]ear beginning after June 30, 2002,’” AR 17
(quoting AR 245). Therefore, the Appeals Board
affirmed that the increased compensation limit was
“in effect” on July 1, 2002, because that was the date
when any increase in benefits would become
payable. See AR 17. And, because that date occurred
after five years before the Plan’s termination, those
increased benefits could not be included in PC3. See
AR 17. The Appeals Board noted that another
member of this Court had “upheld [the] PBGC’s
interpretation of [the] ERISA’s PC3 provisions as a
‘permissible construction of the statute,’” AR 18
(citing Davis v. PBGC, 864 F. Supp. 2d 148, 157
(D.D.C. 2012)), which the Circuit subsequently
affirmed after the Appeals Board’s decision was
issued, see Davis II, 734 F.3d at 1168 (“The
statutory phrase ‘in effect’ . . . is ambiguous, and the
PBGC has interpreted it . . . to mean ‘payable.’”).
Thus, the Appeals Board affirmed the Corporation’s
conclusion that the increased compensation limit
should not be applied to the calculations of the
plaintiffs’ PC3 benefits. See AR 18.

28a
c. The Increased Qualified Benefit Limit
The plaintiffs further argued before the
Appeals Board that, although the Corporation
“correctly determined” that the PWA constituted a
Plan amendment that was adopted and effective
five years prior to the Plan’s termination, the
Corporation erred in concluding “that the increased
[qualified benefit] limit under the PWA applied ‘only
for those pilots who were active at the time the [ ]
PWA was signed.’” AR 28 (citation omitted). The
Appeals Board disagreed, stating that “based on
[the] ERISA, [the] PBGC regulations, and the Pilots
Plan’s provisions, [ ] [the] PBGC applied the
appropriate [qualified benefit] limits when it
determined PC3 benefits for the [plaintiffs] and for
the [A]ctive [P]ilots.” AR 23.
The Appeals Board reasoned that the PWA did
not amend the Plan for retired pilots because the
PWA: (1) is defined as “the basic collective
bargaining agreement between Delta Air Lines, Inc.
and the air line pilots in the service of Delta Air
Lines, Inc.[,] as represented by the Air Lines Pilots
Association International,” AR 28; (2) “states that it
‘cover[s] the pilots in the employ of the Company,’”
AR 28 (alteration in original); and (3) “defines ‘Pilot’
as ‘an employee of Delta Air Lines, Inc. whose name
appears on the Delta Air Lines Pilots’ System
Seniority List,’” AR 28. The Appeals Board noted
that “the law does not presume that a collective
bargaining agreement covers retired employees,” AR
29 (“To the contrary, the Supreme Court has found
that, ‘[s]ince retirees are not members of the
bargaining unit, the bargaining agent is under no
statutory duty to represent them in negotiations
with the employer.” (quoting Allied Chem. & Alkali

29a
Workers of Am. v. Pittsburgh Plate Glass Co., 404
U.S. 157, 181 n.20 (1971))), and “found insufficient
evidence to establish that [the] ALPA was
representing the interests of retired pilots when it
negotiated [the] PWA,” AR 29.
The Appeals Board pointed to the Fourth
Amendment as further support for its conclusion
that the PWA did not apply to retired pilots. See AR
29. It concluded that, under the Fourth Amendment,
the qualified benefit limit increases were effective
for Active Pilots as of July 1, 2001, but were not
effective for retired pilots until July 1, 2002, see AR
25, because “the Fourth Amendment provides that
benefit increases resulting from [the] EGTRRA’s
amendment of the [qualified benefit] limit are
effective on different dates depending on the
employee’s Annuity Starting Date (‘ASD’),” AR 25
n.69. The Plan defines an employee’s ASD as “the
first day of the first period for which a retirement
benefit is paid as an annuity,” and therefore,
according to the Appeals Board, “a pilot’s ASD is on
or after his or her retirement date.” AR 25 n.69.
Because the Fourth Amendment provides that the
qualified benefit limit increases “were effective July
1, 2001 for employees with ASDs ‘on or after July 1,
2001,’” i.e., for Active Pilots, “and were effective on
July 1, 2002 for employees with ASDs ‘before July 1,
2001,’” i.e., for retired pilots, AR 25 n.69, the
Appeals Board found that “the Fourth Amendment’s
establishment of different effective dates for the two
groups of participants is significant with respect to
the Board’s resolution of [PC3 benefits],” AR 25–26.
As the Appeals Board recognized, “[t]he Fourth
Amendment explicitly provides for different effective
dates for the [qualified benefit] limit increase
depending upon the ASD,” and therefore, “is wholly

30a
consistent with the PWA only if . . . the PWA does
not amend the [qualified] benefit limit for retired
pilots,” because “[o]therwise, there would be a clear
conflict between the ‘earliest effective date’ language
in the PWA and the delayed effective date for the
retired pilots in the Fourth Amendment.” AR 29.
Based on these reasons, the Appeals Board
concluded that the “PBGC correctly determined that
the retired pilots are not entitled to have their PC3
benefits computed based on the [increased qualified
benefit] limit under [the] EGTRRA” because the
“Fourth Amendment, which provided the [qualified
benefit] limit increase to the retired pilots, was
adopted on June 27, 2003,” and provided that “the
retired pilots could not receive payments based on
the increased [qualified benefit] limit . . . until July
1, 2002.” AR 30. Due to the fact that both of these
dates were less than five years before the Plan’s
termination, AR 30, the Appeals Board found that,
“[f]or the retired pilots, the plan provision that
provides the lowest annuity benefit payable during
the five-year period before [the Plan’s termination],”
as required by Corporation regulation, “is the
benefit provision in effect between September 1,
2001[,] and June 30, 2002.” AR 30.
d. The Recovery Funds
The plaintiffs argued before the Appeals Board
that the “PBGC made an error of ‘simple arithmetic’
when it allocated the funds it recovered from Delta
and related entities after Plan termination.” AR 42.
The Appeals Board found no error, explaining that
the Corporation properly discounted the value of its
recovery as of May 3, 2007, which was
$1,279,506,423, by $50,501,683, to reflect the value

31a
of its recovery as of the date of the Plan’s
termination. See AR 43.
The plaintiffs also argued that the Corporation
incorrectly allocated the compensation and qualified
benefit limit increases to PC5(a) instead of to PC5(b).
See AR 42; see also AR 48 (“The [plaintiffs’ a]ppeal
contends that [the] PBGC’s [§ 1322(c)] allocation was
improper because it did not accord priority within
PC5 to [the compensation] and [qualified benefit]
limit increases.”). The Appeals Board disagreed,
concluding “that the same rules governing when a
plan provision or amendment is ‘in effect’ for
purposes of determining the PC3 benefit and
applying the phase-in limit should be applied in
assigning benefits to the PC5 subcategories.” AR 51.
II. ANALYSIS
A. The Applicable Standard of Review
As an initial matter, the parties disagree as to
what standard the Court should apply in reviewing
the Corporation’s determinations of the plaintiffs’
benefits under the Plan. The plaintiffs argue that
the standard of review should be de novo because
“[a] court reviews an ERISA fiduciary’s ‘statutory
and legal conclusions de novo,’” Pls.’ Mem. at 12
(quoting Brown v. Cont’l Airlines, Inc., 647 F.3d 221,
226 (5th Cir. 2011)), and that the Court should not
apply the two-step process the Supreme Court
adopted in Chevron U.S.A., Inc. v. Natural
Resources Defense Council, Inc., 467 U.S. 837 (1984),
or any other “form of administrative-law type of
deference,” see id. The Corporation argues in
response that “[b]oth the Supreme Court and the
[District of Columbia] Circuit have made clear” that
the Chevron framework applies to its interpretations

32a
of the ERISA. Def.’s Mem. at 12–13 (first citing
Mead Corp. v. Tilley, 490 U.S. 714, 722, 726 (1989);
then citing LTV Corp., 496 U.S. at 650–51; then
citing Beck v. Pace Int’l Union, 551 U.S. 96, 104
(2007); and then citing Davis v. PBGC, 571 F.3d
1288, 1293 (D.C. Cir. 2009) (“Davis I”)).
1. Whether
Applies

the

Chevron

Framework

The law in this Circuit is clear that the Chevron
framework
applies
to
the
Corporation’s
interpretations of the ERISA. At least eight different
Supreme Court and District of Columbia Circuit
opinions support this conclusion.4 See Beck, 551 U.S.
In addition, several decisions authored by members of this
Court have held that the Chevron framework applies to the
Corporation’s interpretations of the ERISA. See, e.g., PBGC v.
Asahi Tec Corp., 979 F. Supp. 2d 46, 70 (D.D.C. 2013) (“Under
Chevron step two, the Court finds [the] PBGC’s interpretation
to be reasonable.”); Quality Auto. Servs., LLC v. PBGC, 960 F.
Supp. 2d 211, 217 (D.D.C. 2013) (“Thus, far from being
‘manifestly contrary to the statute,’ [the] PBGC’s interpretation
represents a reasonable reading of the statute.” (quoting
Chevron, 467 U.S. at 844)); Vanderkam v. PBGC, 943 F. Supp.
2d 130, 145 (D.D.C. 2013) (“[The] PBGC’s interpretation is a
permissible construction of the statute and should be accorded
deference under Chevron [s]tep [t]wo.”); Davis v. PBGC, 864 F.
Supp. 2d at 155 (“[T]he Court will apply Chevron deference to
those claims in which [the p]laintiffs challenge [the] PBGC’s
interpretations of ambiguous ERISA provisions.”); Brown v.
PBGC, 821 F. Supp. 26, 31 (D.D.C. 1993) (“The Court has found
that the [d]efendant’s interpretation of [the] ERISA’s
substantial owner restrictions is consistent with the plain
language of the statute. However, assuming arguendo that an
ambiguity exists in the statute, the Court would nonetheless
have to reject the [p]laintiff’s interpretation of [the] ERISA.
When an agency interprets an ambiguous statutory provision,
the second prong of Chevron . . . mandates that the Court
uphold an agency’s decision under that provision so long as
that interpretation is a reasonable one.”); see also Rettig v.
4

33a
at 97 (“The Court has traditionally deferred to the
PBGC when interpreting [the] ERISA.”); LTV Corp.,
496 U.S. at 648 (“Here, the PBGC has interpreted
[29 U.S.C. § 1347] as giving it the power to base
restoration decisions on the existence of follow-on
plans. Our task, then, is to determine whether any
clear congressional desire to avoid restoration
decisions based on successive pension plans exists,
and, if the answer is in the negative, whether the
PBGC’s policy is based upon a permissible
construction of the statute.”); Tilley, 490 U.S. at 722
(applying Chevron deference to the Corporation’s
interpretation of the ERISA provision at issue, as
expressed in its amicus brief); Page v. PBGC, 968
F.2d 1310, 1313–14 (D.C. Cir. 1992) (“Our initial
question, as instructed by the Supreme Court’s 1984
leading decision in Chevron, is whether Congress
PBGC, 744 F.2d 133, 140–41, 150, 155 (D.C. Cir. 1984)
(employing the Chevron framework, but determining that the
Corporation’s interpretation of the statute was not reasonable
under step two because it “d[id] not represent ‘a reasonable
accommodation of conflicting policies . . . committed to the
agency’s care by the statute’” (second alteration in original)
(quoting Chevron, 467 U.S. at 845)); Fisher v. PBGC, 151 F.
Supp. 3d 159, 167–69 (D.D.C. 2016) (declining to decide
whether “the Appeals Board’s decision would ordinarily
warrant Chevron deference” because “it is clear that the
Appeals Board’s decision in this case does not. An agency’s
unreasoned adjudication of a question of law does not warrant
deference of any sort,” and in that case, “[t]he Appeals Board’s
decision suggests that the PBGC read[] the statute to permit
such a result[, b]ut the decision does not explain why” (internal
citations and quotation marks omitted)); Ass’n of Flight
Attendants–CWA, AFL–CIO v. PBGC, No. 05-1036 (ESH),
2006 WL 89829, at *7 (D.D.C. Jan. 13, 2006) (employing the
Chevron framework, but “conclud[ing] that [the] PBGC’s
reliance on the Agreement in deciding to terminate the [ ] Plan
is not a ‘permissible construction’ of § 1342(a)(4)” under step
two (quoting Chevron, 467 U.S. at 842–43)).

34a
had a specific intent regarding the matter at
hand. . . . If it appears, however, that ‘Congress did
not actually have an intent’ regarding the statutory
construction question at issue, we will uphold a
reading by [the Corporation,] the agency entrusted
with the statute’s administration[,] if the agency’s
reading ‘represents a reasonable accommodation of
conflicting policies [Congress] committed to the
agency’s care.’” (fourth alteration in original)
(quoting Chevron, 467 U.S. at 845)); Rettig v. PBGC,
744 F.2d 133, 141 (D.C. Cir. 1984) (“We are initially
confronted with the familiar task of reviewing an
agency’s construction of the statute it is charged
with implementing, a task which of course we
undertake with due deference to the agency’s
congressional mandate and expertise.” (citing
Chevron, 467 U.S. at 837)); Belland v. PBGC, 726
F.2d 839, 843 (D.C. Cir. 1984 (“[The] PBGC’s
interpretation of [the] ERISA is entitled to great
deference.”); see also Deppenbrook v. PBGC, 778
F.3d 166, 172 (D.C. Cir. 2015) (“Had the PBGC
Appeals Board offered its statutory interpretation in
its
decision-letter
to
Deppenbrook,
that
interpretation would likely be subject to the two-step
Chevron framework.”); Boivin v. U.S. Airways, Inc.,
446 F.3d 148, 156 (D.C. Cir. 2006) (“The pilots
concede that the PBGC’s interpretations of the
relevant statutory and regulatory provisions are
entitled to judicial deference, and that we must
uphold them if they are reasonable.”).
The plaintiffs argue that of the three Supreme
Court cases cited above—Beck, LTV Corp., and
Tilley—“two [LTV Corp. and Tilley] . . . are outdated,
the third [Beck] . . . is inapposite, and all . . . are
distinguishable on their facts.” Pls.’ Reply at 3; see
also id. at 3–4 (“The Corporation nowhere

35a
acknowledges the sea change that took place in the
field of administrative law when the Supreme Court
decided United States v. Mead Corp., 533 U.S. 218
(2001).”). 5 According to the plaintiffs, the Supreme
Court decided in Mead Corp. that “informal agency
decisions, such as the informal adjudication at issue
here, would no longer be presumptively entitled to
Chevron deference.” Id. at 4.
The Court disagrees with the plaintiffs’
assertion that LTV Corp. and Tilley are no longer
good law after Mead Corp., and that Beck does not
apply here. In Mead Corp., the Supreme Court held
that “a tariff classification ruling by the United
States Customs Service . . . ha[d] no claim to judicial
deference under Chevron, there being no indication
that Congress intended such a ruling to carry the
force of law.” 533 U.S. at 221. Instead, the Court
“h[e]ld that under Skidmore v. Swift & Co., 323 U.S.
134 (1944), the ruling is eligible to claim respect
according to its persuasiveness.” Id. The Court
explained that
administrative
implementation
of
a
particular statutory provision qualifies for
Chevron deference when it appears that
Congress delegated authority to the agency
generally to make rules carrying the force of
law, and that the agency interpretation
claiming deference was promulgated in the
The plaintiffs do not address the Circuit’s decisions in
Belland, Deppenbeck, or Boivin at all, see Pls.’ Mem. at iii– vi
(not listing these cases in the Table of Authorities); Pls.’ Reply
at iii–vii (same), and mention Rettig only in their discussion of
Claim 5 of the First Amended Complaint, see Pls.’ Reply at 37.
The plaintiffs’ argument regarding the Circuit’s decisions in
Page, Davis I, and Davis II are explored infra.
5

36a
exercise of that authority. Delegation of such
authority may be shown in a variety of ways,
as by an agency’s power to engage in
adjudication
or
notice-and-comment
rulemaking, or by some other indication of a
comparable congressional intent.
Id. at 226–27; see also id. at 230 (“It is fair to assume
generally that Congress contemplates administrative
action with the effect of law when it provides for a
relatively formal administrative procedure tending
to foster the fairness and deliberation that should
underlie a pronouncement of such force.”). The Court
noted that “as significant as notice-and-comment
rulemaking is in pointing to Chevron authority, the
want of that procedure [ ] does not decide the
[question], for we have sometimes found reasons for
Chevron
deference
even
when
no
such
administrative formality was required and none was
afforded.” Id. at 230–31; see also id. at 231 (“The fact
that the tariff classification here was not a product
of such formal process does not alone, therefore, bar
the application of Chevron.”). The Court in Mead
Corp. found that the statute itself “g[a]ve no
indication that Congress meant to delegate authority
to Customs to issue classification rulings with the
force of law,” id. at 231–32, and therefore concluded
that “to claim that [such] classifications have legal
force is to ignore the reality that [forty-six] different
Customs offices issue 10,000 to 15,000 of them each
year,” id. at 233. Therefore, “Mead Corp. . . . requires
that, for Chevron deference to apply, the agency
must have received congressional authority to
determine the particular matter at issue in the
particular manner adopted.” City of Arlington, Tex.
v. FCC, 569 U.S. 290, 306 (2013).

37a
The Court is not persuaded that, after Mead
Corp., the Chevron framework no longer applies to
the Corporation’s its interpretations of the ERISA
made through its benefit determinations. Notably,
the Supreme Court’s decision in Beck was issued six
years after Mead Corp., and in that case, the
Supreme Court chose, once again, to defer to the
Corporation’s interpretations of the ERISA as
articulated in an amicus brief. See Beck, 551 U.S. at
103–04. In Beck, the Court, was tasked to decide
whether merger was “a permissible form of plan
termination under [the] ERISA.” Id. at 102
(emphasis removed). The Court noted that, in order
“[t]o affirm the [decision below], [it] would have to
decide that merger is a permissible method” of plan
termination under the statute, id. at 103–04, and it
“would have to do that over the objection of the
PBGC, which . . . t[ook] the position that [the
applicable statutory provision] does not permit
merger as a method of termination because (in its
view) merger is an alternative to (rather than an
example of) plan termination,” id. at 104. The Court
noted that it has “traditionally deferred to the
PBGC when interpreting [the] ERISA, for ‘to
attempt to answer these questions without the
views of the agencies responsible for enforcing [the]
ERISA, would be to embar[k] upon a voyage without
a compass.’” Id. (first quoting Tilley, 490 U.S. at
722, 725–26; then citing LTV Corp., 496 U.S. at 648,
651).
The plaintiffs argue that in Beck, “the Court did
not grant (or even discuss) Chevron deference[,
which, according to the plaintiffs,] is unsurprising
given that Beck, unlike Tilley, was issued after the
Court’s landmark decision in . . . Mead Corp.” Pls.’
Reply at 5. Although the plaintiffs are correct that

38a
the Court did not actually use the word “Chevron” in
its discussion of the deference it afforded to the
Corporation’s interpretations of the ERISA, in the
Court’s view, the Supreme Court’s statement in Beck
that “[w]e have traditionally deferred to the PBGC
when interpreting [the] ERISA,” see 551 U.S. at 104,
is a reference to the Chevron framework, see Cuomo
v. Clearing House Ass’n, LLC, 557 U.S. 519, 525
(2009) (“Under the familiar Chevron framework, we
defer to an agency’s reasonable interpretation of a
statute it is charged with administering.”), and thus
shows that the Supreme Court continues to apply
the Chevron framework to the Corporation’s
statutory
interpretations
of
the
ERISA.
Furthermore, the Supreme Court in Beck, an opinion
decided after Mead Corp., cited approvingly Tilley
and LTV Corp. in support of its decision that it
would continue to defer to the Corporation’s
statutory interpretations of the ERISA. See id.
Consequently, the Court is convinced that the
Chevron framework continues to apply to the
Corporation’s statutory interpretations of the
ERISA, even after the Supreme Court’s decision in
Mead Corp.6
The plaintiffs argue that that “[w]hile some interpretations
offered through informal means may still warrant Chevron
deference, it is well settled that those offered through amicus
briefs (as in Tilley) do not.” Pls.’ Reply at 5. As an initial
matter, whether the Chevron framework applies to the
Corporation’s views as expressed in an amicus brief is not the
issue in this case because the Corporation’s views were
expressed through the Appeals Board’s decision. In any event,
the decisions that the plaintiffs cite in support for the
purportedly “well settled” proposition (that the Chevron
framework does not apply to an agency’s statutory
interpretation as stated in an amicus brief) are decisions from
the Second, Ninth, and Sixth Circuits, see id., none of which
6

39a
Notwithstanding the precedent discussed above,
the plaintiffs assert four additional reasons why the
Chevron framework does not apply to the
Corporation’s statutory interpretations of the ERISA
under the facts of this case. The Court will consider
each reason in turn.
i. Whether the Appeals Board’s Decision
Was a Policy Matter
First, the plaintiffs argue that because “the legal
interpretations of [the] ERISA at issue here directly
affect thousands of participants in this Plan and, as
a matter of precedent, thousands more in other
plans,” the Appeals Board’s decision constitutes a
“‘policy matter’ that stands to ‘have a significant
impact’ on Title IV’s ‘stakeholders,’” and, as a result,
“is reserved to the Corporation’s Board of Directors,
and cannot be delegated.” Pls.’ Mem. at 12–13
(citation omitted). According to the plaintiffs,
because the Appeals Board, and not the Board of
Directors, issued the decision here, under the
Circuit’s decision in Page, “the Corporation failed to
‘engage in decision-making of the character required
by the Corporation’s regulations,’ in order to make
Chevron deference appropriate.” Id. at 13 (quoting
Page, 968 F.2d at 1315).
In Page, as the Court noted above, the Circuit,
employing the two-part Chevron analysis, concluded
“that Congress did not ‘precisely address’ the issue
before [the Circuit]” under step one, and therefore
considered under step two whether “the PBGC’s
constitute binding authority on this Court. Moreover, in the
Supreme Court’s decision in Beck, which was issued six years
after Mead Corp., the Supreme Court deferred to the
Corporation’s interpretations of the ERISA as expressed in an
amicus brief. See Beck, 551 U.S. at 103–04.

40a
interpretation of the original [statutory provision]
[was] a reasonable one in view of the policies that
underlie [the] ERISA.” 968 F.2d at 1315. The Circuit
“conclude[d] that the PBGC did not engage in
decisionmaking of the character required by the
Corporation’s
regulations,”
namely,
the
Corporation’s bylaws precluding the Board of
Directors from delegating a “[f]inal decision on any
policy matter that would materially affect the rights
of a substantial number of employees or covered
participants and beneficiaries.” Id. (citing 29 C.F.R. §
2601.3(b)(5)).7 The Circuit decided that the matter at
issue in Page, “whether unlawful vesting terms
retained in a plan could eliminate the PBGC’s
obligation to guarantee benefits,” id. at 1314,
constituted a policy matter under the bylaws
because “thousands of plans, and hence a significant
number of participants covered under Title I, [we]re
potentially
affected
by
the
Corporation’s
interpretation of [the statutory provision] as
originally enacted,” id. at 1316. Therefore, because
the Corporation’s Board of Directors had not issued a
final decision on the matter, the Circuit remanded
the case to the district court “to invite the Board [of
Directors’] first-instance decision.” Id.
Upon review of Page, the Court agrees with the
Corporation, see Def.’s Mem. at 14, that Page is
distinguishable from the circumstances here. In
Page, the Circuit was assessing a Corporation
29 C.F.R. § 2601.3(b)(5) no longer exists, as the Corporation’s
bylaws are now located in 29 C.F.R. part 4002. The regulation
analogous to the earlier version, now 29 C.F.R. §
4002.1(a)(3)(v), provides that the Board of Directors “may not
delegate . . . [a]pproval of any policy matter (other than
administrative policies) that would have a significant impact on
the pension insurance program.”
7

41a
decision that would “potentially affect[]” “thousands
of plans.” See 968 F.2d at 1316; see also id. at 1311
(explaining that the plans at issue “had not been
amended prior to termination to reflect the
mandatory vesting provisions set out in [the] ERISA
Title I”). Here, on the other hand, the plaintiffs
challenge the Corporation’s conclusions with regard
to a single plan.
Furthermore, the Court is not convinced by the
plaintiffs’ argument, see Pls.’ Reply at 7, that the
large number of participants and beneficiaries that
stand to be impacted by the Corporation’s decision
here, see Am. Compl. ¶ 1, transforms the
Corporation’s benefits determinations under the
Pilots’ Plan into a policy matter under the bylaws.
The plaintiffs have not identified, see Pls.’ Mem. at
12–13; Pls.’ Reply at 6–8, nor could the Court locate,
a single case, other than Page, in which a court
determined that a decision made by the Corporation
constituted a policy decision that, under the bylaws,
could only be made by the Corporation’s Board of
Directors. Accordingly, the Court concludes that the
Corporation’s benefits determinations here do not
constitute a non-delegable policy matter under 29
C.F.R. § 4002.1(a)(3)(v), and therefore, the holding
in Page does not preclude the Court from applying
the Chevron framework in this case.8
The plaintiffs also argue that the Appeals Board’s decision
“illustrates overtly how the Corporation uses its appeals
decisions to make and extend policy.” Pls.’ Reply at 7. The
plaintiffs note that the Appeals Board cited its prior decision in
Davis, and argue that, “if affirmed here, the Corporation will
cite its legal determinations in this case as precedent for future
decisions.” Id. Therefore, according to the plaintiffs, “[w]hat the
Corporation is up to is incremental policy-making through
informal adjudication . . . and is owed no deference by the
8

42a
ii. Whether
the
Chevron
Framework Applies to the
Corporation’s Interpretations of
the ERISA as Trustee
Second, the plaintiffs argue that “the
Corporation’s interpretations concerning the asset
allocation process were undertaken by the
Corporation in its fiduciary role as statutory
trustee, not as Title IV regulator or even
guarantor, and thus they fall outside the scope of
Chevron deference,” Pls.’ Mem. at 13, because
they did not constitute an exercise of authority to
“make rules carrying the force of law” delegated to
it by Congress, see id. (quoting Fogo de Chao
(Holdings) Inc. v. DHS, 769 F.3d 1127, 1136–37
(D.C. Cir. 2014)); see also Pls.’ Reply at 4 (same).
The Corporation argues that in Davis I, the
Circuit “expressly rejected” the plaintiffs’
argument that the Corporation’s asset allocation
decisions as trustee do not merit Chevron
deference, and therefore, the Court should reject
that argument here. See Def.’s Mem. at 15.

courts (in light of its own regulations and Page), absent
approval by the Board of Directors.” Id. The Court is not
persuaded that the Appeals Board’s reliance on its prior
decisions, without the Board of Directors’ approval, makes the
Chevron framework inapplicable. To the contrary, it would be
arbitrary and capricious for the Appeals Board to not consider
its precedent. See Friedman v. Sebelius, 686 F.3d 813, 828
(D.C. Cir. 2012) (“The [agency’s] decision . . . was arbitrary and
capricious with respect to [the determination at issue] because
it failed to explain its departure from the agency’s own
precedents.”); see also Williams Gas Processing–Gulf Coast Co.
v. FERC, 373 F.3d 1335, 1341 (D.C. Cir. 2004) (“[W]e will not
countenance an agency’s departure from its precedent without
explanation . . . .”).

43a
In Davis I, the plaintiffs, retired U.S. Airways
pilots and their beneficiaries (the “U.S. Airways
pilots”), appealed the district court’s denial of their
motion for a preliminary injunction “to prohibit the
PBGC
from
implementing
its
benefits
determinations while the[ir] suit [challenging those
determinations] [wa]s pending.” 571 F.3d at 1290. In
that case, like here, “the PBGC was appointed to
serve as trustee of the [U.S. Airways pilots’]
retirement plan,” id. at 1291, and, also like here, the
U.S. Airways pilots argued that Chevron deference
“should not apply . . . when the PBGC is acting as
trustee rather than guarantor,” id. at 1293. The
Circuit rejected the U.S. Airways pilots’ argument,
concluding:
We see no reason to depart from the usual
deference we give to an agency interpreting
its organic statute. The pilots point out that
a private party serving as trustee would not
receive Chevron-deference, but this point
proves nothing. Unlike a private trustee, the
PBGC has unique experience and “practical
agency expertise” in interpreting [the]
ERISA. The PBGC is therefore “better
equipped” to interpret [the] ERISA than
courts, and it is for this reason we defer to
the PBGC’s authoritative and reasonable
interpretations of ambiguous provisions of
[the] ERISA.
Id. (quoting LTV Corp., 496 U.S. at 651).
Thereafter, the district court entered summary
judgment to the Corporation regarding the U.S.
Airways pilots’ plan, which a different Circuit
panel affirmed in Davis II. See 734 F.3d at 1164.

44a
In Davis II, the Circuit determined that it “need
not resolve the parties’ contentions regarding
whether the PBGC is entitled to deference
pursuant to Chevron . . . when it acts as the trustee
in an involuntary retirement plan termination,”
because in that case, “[r]egardless of the standard
of deference, the [U.S. Airways p]ilots’ claims
relating to the PBGC’s interpretation of the statute
and regulations must fail.” Id. at 1167. As a result,
the Circuit also declined to “decide whether the
decision in Davis [I], regarding the Pilots’ request
for a preliminary injunction, is the law of the case
on the standard of review.” Id. (citing Sherley v.
Sebelius, 689 F.3d 776, 783 (D.C. Cir. 2012)).
Regarding the Davis II decision, the Corporation
contends that “[a]lthough the D.C. Circuit held . . .
that it ‘need not’ resolve the level of deference to
apply [to the Corporation], it did not reject or modify
the earlier holding in [Davis I].” Def.’s Mem. at 13
n.7; see also Def.’s Reply at 4–5 (same). The
plaintiffs disagree, contending that the standard of
review is still an open question, despite the Circuit’s
ruling in Davis I, because “[r]ulings involving
challenges to preliminary injunctions, when not
made after the full briefing on the merits typical of
an ordinary appeal, are not stare decisis.” Pls.’ Mem.
at 13 n.7 (first citing Va. Petroleum Jobbers Ass’n v.
Ped. Power Comm’n, 259 F.2d 921, 925 (D.C. Cir.
1958); then citing Nat’l Org. for Women, Wash., D.C.
Chapter v. Social Sec. Admin., 736 F.2d 727, 744
n.154 (D.C. Cir. 1984) (Robinson, J., concurring)); see
also Pls.’ Reply at 6 (same).
The Court is required to adhere to the Circuit’s
decision in Davis I and apply the Chevron
framework to the Corporation’s asset allocation

45a
determinations for two reasons. First, the two cases
the plaintiffs cite in support of their position do not
actually state that the doctrine of stare decisis does
not apply to a decision resolving a motion for a
preliminary injunction. In Petroleum Jobbers, the
petitioner filed, among other motions, a motion for a
stay to enjoin proceedings pending before the
Federal Power Commission. See 259 F.2d at 923.
The Circuit declined to grant the petitioner’s motion,
and twice noted that its rulings were “[w]ithout
prejudice to a contrary showing at the time the court
[were to] hear[] th[e] case on the merits.” Id. at 925;
see also id. at 926 (“Again, without prejudice to a
later contrary showing by [the] respondent”). But
nowhere in its opinion did the Circuit state that the
principles of stare decisis would not apply to its
decision. See generally id. Likewise, in Nat’l Org. for
Women, the Circuit in a per curiam opinion affirmed
the district court’s issuance of a preliminary
injunction barring the release of certain documents
pursuant to a FOIA request. See 736 F.2d at 728. In
a concurring opinion, Judge Robinson stated that he
would have preferred to
remand the appealed phases of these cases to
the District Court with instructions to
remand in turn to [the agency] the question
of release of information exempt under FOIA
but unaffected by the Trade Secrets Act. [He]
would further instruct the court to afford
[the agency] an opportunity to revise its factfinding procedures in such manner as it may
desire. [He] would affirm the District Court’s
rulings in all other respects, and let the
preliminary injunction remain in force
subject to the court’s further order. This
disposition of these appeals, of course, would

46a
leave the parties at liberty to litigate the
merits fully, free of any preclusion or
limitation by the determinations leading to
that injunction.
Id. at 744 (emphasis added) (Robinson, J.,
concurring). In a footnote, Judge Robinson noted
that “[t]he decision of a trial or appellate court
whether to grant or deny a preliminary injunction
does not constitute the law of the case for the
purposes of further proceedings and does not limit or
preclude the parties from litigating the merits.” Id.
at 744 n.154 (emphasis added) (quoting Berrigan v.
Sigler, 499 F.2d 514, 518 (1974)). Therefore,
Petroleum Jobbers and Nat’l Org. for Women stand
for the proposition that the Circuit’s rulings
regarding motions for a preliminary injunction or to
stay proceedings in a case do not constitute the law
of the case, nor do they preclude the parties from
litigating the merits of the issue in future
proceedings in that case. See Nat’l Org. for Women,
736 F.2d at 744 & n.4; Petroleum Jobbers, 259 F.2d
at 925. They do not, however, stand for the position
that the Circuit’s rulings on such motions have no
precedential value or stare decisis impact. See Nat’l
Org. for Women, 736 F.2d at 744 & n.4; Petroleum
Jobbers, 259 F.2d at 925.
Indeed, the Circuit has clearly distinguished
between the doctrines of law of the case or
preclusion and stare decisis. In Mahoney v.
Babbitt, 113 F.3d 219 (D.C. Cir. 1997), the Circuit
declined to vacate its prior order issuing an
injunction pending the resolution of an appeal on
the grounds of mootness, see id. at 220. The Circuit
stated:

47a
While it is generally accepted that a mooted
judgment should not preclude the litigants in
future litigation, preclusion is not the same
thing as stare decisis, and it is not selfevident that the precedential effects of a
mooted judgment should be any less
persuasive than if the mooting events had
not occurred. Preclusion is normally based on
a decision as to the controversy between the
litigating parties. Precedent ordinarily is not.
Precedent, more often than not, is drawn
from cases not involving either of the parties
for or against whom the precedent is offered.
As one commentator has pointed out, there is
no particular reason to assume that a
decision, later mooted, is any less valid as
precedent than any other opinion of a court.
“So long as the court believed that it was
deciding a live controversy, its opinion was
forged and tested in the same crucible as all
opinions.”
Id. at 222 (emphasis added) (quoting 13A Wright &
Miller, Federal Practice & Procedure § 3533.10 (2d
ed. 1984)). Applying these principles to the case at
bar, although the Circuit’s ruling in Davis I
regarding Chevron deference did not preclude the
parties in that case from further litigating that
issue in subsequent proceedings, nor did it
preclude a subsequent panel from declining to
decide that issue upon review of the district court’s
decision on the merits, the Davis I ruling
regarding Chevron deference still has precedential
value.
Second, even if the Davis I opinion were not
binding on this Court, which obviously it is, the

48a
Court would still reach the same conclusion
regarding the standard of review applicable here as
the Circuit did in that case. The Circuit decided in
Davis I that Chevron deference is applicable to the
Corporation’s asset allocation determinations
undertaken as trustee because “the PBGC has
unique experience and ‘practical agency expertise’
in interpreting [the] ERISA. The PBGC is therefore
‘better equipped’ to interpret [the] ERISA than
courts, and it is for this reason [this Court will also]
defer to the PBGC’s authoritative and reasonable
interpretations of ambiguous provisions of [the]
ERISA.” 571 F.3d at 1293 (quoting LTV Corp., 496
U.S. at 651).9
The Court notes that even though a trustee that is not the
Corporation would not receive Chevron deference, that does
not necessarily mean that such a trustee’s conclusions would
be reviewed de novo. As the Circuit has explained,
9

[i]n Firestone Tire & Rubber Co. v. Bruch, 489 U.S.
101, 115 (1989), the Supreme Court held that “a
denial of benefits challenged under [29 U.S.C.] §
1132(a)(1)(B) is to be reviewed under a de novo
standard unless the benefit plan gives the
administrator or fiduciary discretionary authority to
determine eligibility for benefits or to construe the
terms of the plan.” In this latter category of cases, the
standard of review—variously described by the Court
as “arbitrary and capricious” and “abuse of discretion”
review—is plainly deferential.”
Wagener v. SBC Pension Benefit Plan—Non Bargained Prgm.,
407 F.3d 395, 402 (D.C. Cir. 2005). In other words, the level of
deference a plan trustee is afforded depends on the terms of the
plan, see id., and is not, as the plaintiffs argue, necessarily
always de novo, see Pls.’ Mem. at 12; see also Pls.’ Reply at 17
n.6. The plaintiffs do not raise any argument regarding the
level of discretion that the Plan affords a trustee in its briefing
before this Court, see generally Pls.’ Mem.; Pls.’ Reply, nor did
they do so in their appeal below, see generally AR 560–617, and

49a
The plaintiffs also argue that the fact that the
Corporation’s asset allocation determinations were
made in its capacity as trustee
is especially relevant here, as [the p]laintiffs
have plausibly alleged that, rather than in
the detached environment of a regulator, the
Corporation, in its capacity as trustee,
engaged in various conduct that resulted in
the
Corporation
earn[ing]
massive
investment returns off of assets that should
have been timely allocated to the plaintiffs.
Pls.’ Mem. at 13–14 (second alteration in original)
(internal quotation marks and citation omitted); see
also Pls.’ Reply at 14 (same). Although it may be true
that any assets that the Corporation retained
instead of allocating to the plaintiffs could yield a
return to the Corporation, that is true in every case
in which the Corporation is appointed as trustee. See
Piech v. PBGC, 744 F.2d 156, 161 (D.C. Cir. 1984)
(“The dual role of trustee and guarantor, a role that
Congress has specifically authorized for the PBGC,
undoubtedly has some built-in potential for a conflict
of interest.”). And because the plaintiffs do not
provide any specific evidence of self-interested bias
or misconduct that influenced the benefits
determinations about which they disagree, see Pls.’
Mem. at 13–14,10 the Court finds that the plaintiffs
have not plausibly alleged any misconduct by the
therefore, the Court need not consider this issue, see Nuclear
Energy Inst., Inc. v. EPA, 373 F.3d 1251, 1297 (D.C. Cir. 2004)
(“It is a hard and fast rule of administrative law, rooted in
simple fairness, that issues not raised before an agency are
waived and will not be considered by a court on review.”).
The plaintiffs’ challenges regarding the Administrative
Record are discussed infra.
10

50a
Corporation that would warrant the Court’s
departure from its conclusion that the Chevron
framework applies in this case.
iii. Whether the Appeals Board’s Decision
Is Too Informal for the Chevron
Framework to Apply
Third, the plaintiffs argue that “the informal
nature of the Appeals Board’s decision places it
outside of Chevron’s scope.” Id. at 14. According to
the plaintiffs, “the absence of formal procedures
‘weighs against the application of Chevron
deference,’” Pls.’ Reply at 9 (quoting Fogo de Chao,
769 F.3d at 1137), and therefore, the Court should
examine the factors that the Supreme Court set
forth in Barnhart v. Walton, 535 U.S. 212 (2002), in
assessing whether the Chevron framework applies,
specifically: “the interstitial nature of the legal
question, the related expertise of the [a]gency, the
importance of the question to administration of the
statute, the complexity of that administration, and
the careful consideration the [a]gency has given the
question over a long period of time,” Barnhart, 535
U.S. at 222.
In Fogo de Chao, the Circuit declined for the
following reasons to apply the Chevron framework to
a decision by the Department of Homeland Security’s
Administrative Appeals Office denying a L-1B visa
to one of the restaurant’s churrasqueiro chefs. See
769 F.3d at 1130, 1135–37. First, the Circuit
concluded that the agency’s regulation “largely
parrot[ed], rather than interpret[ed], the key
statutory language,” and thus merited no deference.
Id. at 1136. Second, the Department “openly
conceded at oral argument” that the Appeals Office’s
ruling was “non-precedential,” and that, as a result,

51a
its “interpretation of the statutory language” did not
merit Chevron deference. See id. Therefore, the
Circuit concluded that “the expressly nonprecedential nature of the Appeals Office’s decision
conclusively confirm[ed] that the Department was
not exercising through the Appeals Office any
authority it had to make rules carrying the force of
law.” Id. at 1137. Third, the decision “w[as] the
product of informal adjudication within the [United
States Citizenship and Immigration] Service[s],
rather than a formal adjudication or notice-andcomment rulemaking,” id. at 1136, nor was it
“marked by the qualities that might justify Chevron
deference in the absence of a formal adjudication or
notice-and-comment rulemaking,” id. at 1137.
The Court finds that Fogo de Chao does not
compel the conclusion that the Chevron framework
does not apply here because the three bases for the
Circuit’s conclusion in Fogo de Chao simply do not
apply to the circumstances in this case. First, the
plaintiffs do not argue that any Corporation
regulation merely parroted the ERISA statute, see
generally Pls.’ Mem.; Pls.’ Reply, and therefore, the
first basis for the ruling in Fogo de Chao is
inapposite, see 769 F.3d at 1136. Second, unlike the
Department in Fogo de Chao, see id., the
Corporation has not conceded here that its decision
is not precedential, see generally Def.’s Mem.; Def.’s
Reply, and therefore, would merit no Chevron
deference on that basis. Third, unlike the
Department’s decision in Fogo de Chao, the Court
concludes that the Appeals Board’s decision here,
although also an informal adjudication, was
“marked by the qualities that might justify Chevron
deference in the absence of a formal adjudication or

52a
notice-and-comment rulemaking.” See 769 F.3d at
1137 (citing Barnhart, 535 U.S. at 222).
Moreover, applying the Barnhart factors, the
Court is convinced that the Corporation’s decision
here merits Chevron deference. Again, in Barnhart,
the Supreme Court set forth five factors for courts to
consider in determining whether an agency’s action
merits Chevron deference: “the interstitial nature of
the legal question, the related expertise of the
[a]gency, the importance of the question to
administration of the statute, the complexity of that
administration, and the careful consideration the
[a]gency has given the question over a long period of
time.” 535 U.S. at 222. “There is no denying the
complexity of the statutory regime under which the
[Corporation]
operates,
the
[Corporation’s]
expertise[,] or the careful craft of the scheme it
devised to reconcile various statutory provisions.”
Mylan Labs., Inc. v. Thompson, 389 F.3d 1272, 1280
(D.C. Cir. 2004); see also Tilley, 490 U.S. at 726
(“For a court to attempt to answer these questions
without the views of the agenc[y] responsible for
enforcing [the] ERISA, would be to ‘embar[k] upon a
voyage without a compass.’” (second alteration in
original) (quoting Ford Motor Credit Co. v. Milhollin,
444 U.S. 555, 568 (1980))). And the administrative
record in this case makes clear that the Corporation
and its Appeals Board carefully considered several
complex questions regarding the administration of a
complex, 178-page Plan, see AR 114–292, in
accordance with both the statute and the
Corporation’s own regulations. The Appeals Board’s
decision is a seventy-nine-page, single-spaced
document, see AR 1–79, which resolved thirteen
discrete and complex issues raised in an appeal that
involved a record “consist[ing] of more than 2,000

53a
total pages,” AR 3. In short, the thorough nature of
the Appeals Board’s decision clearly supports the
position that the Chevron framework applies, and
indeed, courts have afforded the Corporation
Chevron deference for statutory interpretations far
less exhaustive. See, e.g., Quality Auto. Servs., LLC
v. PBGC, 960 F. Supp. 2d 211, 217, 221 (D.D.C.
2013) (concluding that the Corporation’s statutory
interpretation of the ERISA in its “two-page
determination” “represent[ed] a reasonable reading
of the statute”).
Lastly, the two cases that the plaintiffs cite as
support for their proposition that the Chevron
framework does not apply, see Pls.’ Mem. at 14
(first citing Sun Capital Partners III v. New
England Teamsters & Trucking Indus. Pension
Fund, 724 F.3d 129, 140 (1st Cir. 2013); then citing
GCIU–Emp’r Ret. Fund v. Quad/Graphics, Inc., 250
F. Supp. 3d 551, 566 (C.D. Cal. 2017)), are not only
not binding on this Court, but in any event are also
distinguishable.
In Sun Capital, the First Circuit considered
“important issues of first impression as to
withdrawal liability for the pro rata share of
unfunded vested benefits to a multiemployer pension
fund of a bankrupt company.” 724 F.3d at 132. The
plaintiffs, “two private equity funds, [ ] sought a
declaratory judgment against” the defendant, “a
struggling portfolio company,” “which brought into
the suit other entities related to the equity funds.”
Id. The Corporation was not a party to the litigation,
but filed an amicus brief in support of the defendant.
See id. at 133. The Corporation “ha[d] not adopted
regulations defining or explaining the meaning” of
the statutory terms at issue, and “[t]he only

54a
guidance [the First Circuit] ha[d] from the PBGC
[wa]s a 2007 appeals letter, defended in its amicus
brief.” Id. at 139. In its amicus brief, the Corporation
did “not assert that its 2007 letter [wa]s entitled to
deference under Chevron,” rather, it “claim[ed]
entitlement to deference under Auer v. Robbins, 519
U.S. 452 (1997).” Id. at 140. The First Circuit
disagreed that Auer deference was warranted
because, under Christopher v. SmithKline Beecham
Corp., “such deference is inappropriate where
significant monetary liability would be imposed on a
party for conduct that took place at a time when that
party lacked fair notice of the interpretation at
issue.” Id. (citing 567 U.S. 142, 156 (2012)). Further,
the First Circuit determined that “even if
Christopher was not an impediment to Auer
deference, the anti-parroting principle would be . . .
[, and t]he PBGC[’s] regulations ma[d]e no effort to
define” the statutory terms at issue. Id. at 141.
Therefore, because the First Circuit’s decision
concerned whether or not to apply Auer deference,
not Chevron deference, and the First Circuit
determined that Auer deference was inappropriate
for two circumstances not present here, the Court
concludes that Sun Capital is distinguishable.
In GCIU, the United States District Court for the
Central District of California reviewed an appeal of
an arbitration decision regarding “withdrawal
liability under . . . [the] ERISA . . . and the
Multiemployer Pension Plan Amendments Act of
1980.” 250 F. Supp. 3d at 554. The defendant, an
employer
that
“ceased
contributing
to
a
multiemployer pension plan,” id., “argue[d] that the
[c]ourt should defer to an opinion letter written by
the . . . Corporation [ ] that concluded that the
[twenty]-year payment cap should be applied before

55a
the partial withdrawal credit,” id. at 564. The court
concluded that the opinion letter did not merit
Chevron deference because “agency opinion letters
do not warrant [such] deference,” id. at 565 (citing
Christensen v. Harris Cty., 529 U.S. 576, 587
(2000)), and because “there is no ambiguity under
the [statute] as to whether the [twenty]-year
payment cap should be applied before the partial
withdrawal credit,” id. at 566; see also id. (“The
PBGC’s contrary conclusion cannot supersede
unambiguous statutory language.”). The district
court also “conclude[d] that the opinion letter
carrie[d] little or no added persuasive force under
Skidmore” because it “d[id] not address the myriad
arguments
that
cut
strongly
against
its
interpretation, and the PBGC d[id] not appear to
rely on any specialized knowledge or expertise in
reaching its conclusion.” Id.
The
Court
concludes
that
GCIU
is
distinguishable for two reasons. First, in that case,
the Corporation was not a party to the suit, nor was
either party seeking judicial review of a Corporation
decision. See id. at 554. Second, the Corporation
opinion letter in that case was a two-page letter,
written by the Acting Director of the Corporation’s
Legal Department more than thirty years before the
GCIU decision was issued, responding to a “request
for the PBGC’s opinion concerning [a provision] of
[the] ERISA.” See Arbitration Record at 626–27,
GCIU–Emp’r Ret. Fund v. Quad/Graphics, Inc., No.
16-3391 (C.D. Cal. Aug. 17, 2016), ECF No. 21-9.
Therefore, the Corporation’s “uncited, conclusory
assertions of law in a short, informal document that
does not purport to set policy for future
[Corporation] determinations,” see Fox v. Clinton,
684 F.3d 67, 78 (D.C. Cir. 2012), is unlike the

56a
Appeals Board’s decision in this case, which “was
offered in an ‘exhaustive [adjudicative] decision,’ in
which the agency . . . ‘was acting pursuant to an
express delegation from Congress’ . . . [and]
addressing ‘precisely the sort of complex, interstitial
questions that the [agency] deserves deference to
address,’” id. at 77–78 (first and final alterations in
original) (quoting Menkes v. DHS, 637 F.3d 319,
326, 331–32 (D.C. Cir. 2011)). Accordingly, the
Court concludes that the Appeals Board’s decision is
not too informal for the Chevron framework to
apply.11
The Court located a third case in which a court concluded
that the Chevron framework did not apply to the Corporation’s
actions, see In re UAL Corp. (Pilots’ Pension Plan
Termination), 468 F.3d 444 (7th Cir. 2006), but concludes that
it too is distinguishable from the circumstances here. In In re
UAL Corp., the Corporation filed an adversary complaint in the
United Airlines bankruptcy proceedings, see id. at 447–48,
pursuant to its authority under 29 U.S.C. § 1342, which
“requires the PBGC to initiate litigation,” id. at 450. The
Seventh Circuit determined that the Corporation did not merit
Chevron deference for its actions under § 1342, which “requires
the PBGC to initiate litigation,” because that section “gives the
resolution of” whether “the Letter Agreement between United
and the ALPA exposed the [PBGC’s] insurance fund to an
‘unjustified increase’ in liability” “to the judiciary; [thus,] the
PBGC participates as a litigant, not as the decision-maker.” Id.
at 450–51. Here, the Corporation is not seeking Chevron
deference for any action it took as a litigant under § 1342, but
rather for its benefit determinations, as affirmed by the
Appeals Board’s comprehensive decision. See Sara Lee Corp. v.
Am. Bakers Ass’n Ret. Plan, 512 F. Supp. 2d 32, 38 (D.D.C.
2007) (“The provision at issue in United Airlines, however,
actually interprets a different provision of [the] ERISA, 29
U.S.C. § 1342, which pertains to lawsuits initiated by [the]
PBGC, where [it] acts as an ordinary litigant, as opposed to
actions, such as this one, that challenge the agency’s
determinations pursuant to § 1303.”).
11

57a
iv. Whether the Administrative Record Is
Facially Flawed
Fourth, the plaintiffs argue that “the Appeals
Board’s decision is inconsistent with the qualities of
an agency determination deserving of Chevron
deference because it relies upon a facially flawed
administrative record.” Pls.’ Mem. at 14. According
to the plaintiffs, “by relying upon an outdated and
discredited evaluation of the Plan’s assets, the
Corporation’s action is not only due no deference, but
is, on its face, arbitrary and capricious.” Id. at 15. In
response, the Corporation rejects the factual
predicate of the plaintiffs’ argument, i.e., that the
administrative record is flawed. See Def.’s Mem. at
17 (“[The] PBGC did not, as the [plaintiffs] assert,
‘acknowledg[e] that its initial valuation efforts were
flawed.’” (first alteration in original) (quoting Pls.’
Mem. at 8 n.5)). Although the Corporation
acknowledges that it “initiated a reevaluation of the
Plan’s assets,” it asserts that “this was not because
of any known flaw in the initial valuation for this
Plan, but rather, in an abundance of caution due to
certain flaws identified in other cases in which the
initial valuation was performed by the same
contractor.” Id. According to the Corporation, it
issued its determination while the re-evaluation was
pending in order to “avoid[] delaying the [plaintiffs’]
benefit determinations, while preserving their right
to challenge any later adjustment to their benefits.”
Id. at 17–18. And the Corporation argues that even if
its determination “cannot be sustained on the
administrative record, the remedy [ ] is not to
eliminate the applicable deference,” but rather “to
remand to the agency for additional investigation or
explanation.” Id. at 18 (quoting Cty. of Los Angeles
v. Shalala, 192 F.3d 1005, 1023 (D.C. Cir. 1999).

58a
The Court is not persuaded that the Corporation’s
reliance on the initial evaluation of the Plan’s assets
would
render
the
Corporation’s
statutory
interpretations of [the] ERISA ineligible for Chevron
deference. To the extent that the plaintiffs argue that
the Corporation’s reliance on the initial evaluation
was arbitrary and capricious, the Court rejects that
argument because the plaintiffs have not suffered
any prejudice as a result of that reliance because the
re-evaluation has since been completed. See Olson v.
Clinton, 602 F. Supp. 2d 93, 103–04 (D.D.C. 2009)
(“When a plaintiff alleges that an agency’s decision
suffers from procedural flaws that render its decision
‘arbitrary and capricious,’ he must show that
procedural errors existed and that prejudice resulted
from these errors.” (citing Carstens v. Nuclear
Regulatory Comm’n, 742 F.2d 1546, 1558 (D.C. Cir.
1984))). The new “value of the [P]lan assets is about
one-half of 1% (0.5%) higher than in the initial
evaluation,” “6,000 of the 13,000 participants” will
receive a benefit increase, “[t]he average increase in
monthly benefits is less than four dollars, “95% of
[which will be] less than ten dollars per month,” and
“[p]articipants who receive a revised benefit
determination will be able to appeal the new
determination.” Delta Pilot Retirement Plan’s Asset
Re-evaluation Questions and Answers, Pension
Benefit
Guaranty
Corporation,
https://www.pbgc.gov/about/faq/delta-asset-re-eval-qa
(last visited Mar. 23, 2018).12 And the Court agrees
with the Corporation that it “may base its defense of
The Court takes judicial notice of the publicly available
information on the Corporation’s website. See, e.g., Seifert v.
Winter, 555 F. Supp. 2d 3, 11 n.5 (D.D.C. 2008) (Walton, J.)
(collecting cases that allow the taking of judicial notice of
information published on government websites).
12

59a
the [plaintiffs’] benefit determinations only on the
documents that the agency considered,” and
therefore, “[a]ny attempt to substitute the agency’s
later asset-re-evaluation would not demonstrate the
‘careful consideration’ . . . but rather, violate bedrock
precepts of administrative law.” Def.’s Reply at 10;
see also Fla. Power & Light Co. v. Lorion, 470 U.S.
729, 743–44 (1985) (“‘[T]he focal point for judicial
review should be the administrative record already
in existence, not some new record made initially in
the reviewing court.’ The task of the reviewing court
is to apply the appropriate APA standard of review, 5
U.S.C. § 706, to the agency decision based on the
record the agency presents to the reviewing court.”
(alteration in original) (first quoting Camp v. Pitts,
411 U.S. 138, 142 (1973); then citing Citizens to
Preserve Overton Park v. Volpe, 401 U.S. 402
(1971))). Accordingly, the Court concludes that the
Corporation’s decision to re-audit the Plan’s assets, a
decision which the plaintiffs themselves requested in
their appeal, see AR 1, and to issue new, appealable
benefit determinations based on the re-audit, does
not render the Chevron framework inapplicable to
this matter.13
In their reply, the plaintiffs assert a fifth reason why the
Corporation’s benefits determinations should not be afforded
Chevron deference: “The fact that Congress clearly did not
intend to provide the Corporation with deference when serving
in a trustee capacity allocating assets under 29 U.S.C. §
1344(a) is further evidenced by contrasting the language there
with that of § 1344(f).” Pls.’ Reply at 15. According to the
plaintiffs, the language in § 1344(f), which states that the
Corporation’s determinations of the value of certain recovery
payments “shall be binding unless shown by clear and
convincing evidence to be unreasonable,” id. (quoting 29 U.S.C.
§ 1344(f)(4)), “stands in stark contrast to that of § 1344(a),”
where Congress “declined to include the ‘clear and convincing’
13

60a
2. The Applicable Standards of Review
For all of the reasons stated above, the Court
concludes that the Chevron framework applies. With
respect to questions of statutory interpretation of the
ERISA, the Court will first consider “whether
Congress has directly spoken to the precise question
at issue,” and, if “the intent of Congress is clear”
from the statute’s language, “that is the end of the
matter; for the [C]ourt, as well as the agency, must
give effect to the unambiguously expressed intent of
Congress.” Chevron, 467 U.S. at 842–43. However, if
the statute is ambiguous, the Court shall defer to the
Corporation’s construction of the statute. See id.
Deference is due “not only because Congress has
delegated law-making authority to the [Corporation],
but also because that agency has the expertise to
produce a reasoned decision.” Vill. of Barrington, Ill.
standard later articulated in § 1344(f),” id. at 15–16. As an
initial matter, “[j]udges in this District have repeatedly held
that arguments may not be raised for the first time in a party’s
reply.” Nytes v. Trustify, Inc., 297 F. Supp. 3d 191, 202 (D.D.C.
2018) (Walton, J.) (collecting cases). In any event, Congress’s
decision to not add a “clear and convincing evidence” standard,
or any other standard, suggests that Congress intended courts
to apply the default “arbitrary and capricious” standard that is
typical of judicial review of agency actions. See, e.g., United
Steel, Paper & Forestry, Rubber, Mfg., Energy, Allied Indus. &
Serv. Workers Int’l Union, AFL–CIO–CLC, ex rel. Participants
& Beneficiaries of Thunderbird Mining Co. Pension Plan v.
PBGC, 707 F.3d 319, 323 (D.C. Cir. 2013) (“[The] ERISA
permits plan participants who are ‘adversely affected’ by an
action of the [Corporation] to bring suit against the agency in
district court, 29 U.S.C. § 1303(f), but the statute does not
specify the standard of judicial review. In such a case, a court
generally must apply the ‘arbitrary or capricious’ standard of
the Administrative Procedure Act, 5 U.S.C. § 706(2)(A).” (citing
Alaska Dep’t of Envtl. Conservation v. EPA, 540 U.S. 461, 496–
97, (2004))).

61a
v. Surface Transp. Bd., 636 F.3d 650, 660 (D.C. Cir.
2011). And the Court must accept the Corporation’s
interpretation of its own regulations unless plainly
erroneous or inconsistent with the regulation itself.
See Auer, 519 U.S. at 461; see also Boivin, 446 F.3d
at 154 (noting that courts “owe substantial
deference” to the Corporation’s “interpretation of its
own regulations”).
In regards to the standard of review for all other
actions of the Corporation challenged by the
plaintiffs, the Court concludes that Claims Two
through Four must be resolved under the arbitrary
and capricious standard of review14 because they are
brought pursuant to 29 U.S.C. § 1303(f), see Am.
Compl. ¶ 14, and “§ 1303(f) . . . does not specify the
[applicable] standard of judicial review. [And i]n
such a case, a court generally must apply the
‘arbitrary and capricious’ standard of the
Administrative Procedure Act, 5 U.S.C. § 706(2)(A),”
United Steel, Paper & Forestry, Rubber, Mfg.,
Energy, Allied Indus. & Serv. Workers Int’l Union,
AFL–CIO–CLC, ex rel. Participants & Beneficiaries
of Thunderbird Mining Co. Pension Plan v. PBGC,
707 F.3d 319, 323 (D.C. Cir. 2013); see also id. at 324
(“In the administrative context, we generally review
an agency’s application of an undisputed legal

The parties do not dispute, see Pls.’ Mem. at 35; see also
Def.’s Mem. at 39, that Congress has designated the standard
of review for Claim Five, which challenges the Corporation’s
calculations of benefits under § 1322(c): “Determinations under
this subsection shall be made by the [C]orporation[, . . . and]
shall be binding unless shown by clear and convincing evidence
to be unreasonable,” 29 U.S.C. § 1322(c)(4).
14

62a
standard to a particular set of facts under a
deferential standard.”).15
To determine whether the Corporation’s actions
were “arbitrary, capricious, an abuse of discretion,
or otherwise not in accordance with law,” 5 U.S.C. §
706(2)(A), the Court “is not to substitute its
judgment for that of the agency,” Motor Vehicle
Mfrs. Ass’n of U.S., Inc. v. State Farm Mut. Auto.
Ins. Co., 463 U.S. 29, 43 (1983). And, when an
agency action depends on a “high level of technical
expertise,” the Court must “defer to ‘the informed
discretion of the responsible federal agenc[y].”’
Marsh v. Or. Nat. Res. Council, 490 U.S. 360, 377
(1989) (quoting Kleppe v. Sierra Club, 427 U.S. 390,
412 (1976)). But, the Corporation must still
articulate a “factual basis” that permits the Court to
“conclude that the PBGC has reached its decision on
the basis of a reasonable accommodation of the
policies underlying [the] ERISA.” Rettig, 744 F.2d at
156.
To uphold the Corporation’s actions, the Court
must be satisfied that the Corporation “examine[d]
the relevant [issues] and articulate[d] a satisfactory
explanation for its action including a ‘rational
connection between the facts found and the choice
made.’” State Farm, 463 U.S. at 43 (quoting
Burlington Truck Lines v. United States, 371 U.S.
Other members of this Court have agreed that arbitrary and
capricious review applies to challenges to the Corporation’s
determinations brought pursuant to § 1303(f). See, e.g., Maher
v. PBGC, 271 F. Supp. 3d 296, 300, 302 (D.D.C. 2017),
reconsideration denied, No. 16-1646 (KBJ), 2017 WL 7689634
(D.D.C. Dec. 1, 2017), appeal docketed, No. 18-5036 (D.C. Cir.
Feb. 12, 2018); Burmeister v. PBGC, 943 F. Supp. 2d 83, 87–88
& n.4 (D.D.C. 2013); David v. PBGC, 864 F. Supp. 2d at 155;
Sara Lee Corp., 512 F. Supp. 2d at 37–38.
15

63a
156, 168 (1962)). Although the Court must conduct a
“searching and careful” review, Citizens to Preserve
Overton Park, 401 U.S. at 416, the Corporation’s
actions are “entitled to a presumption of regularity,”
id. at 415, and the Court “will not second guess an
agency decision or question whether the decision
made was the best one,” C & W Fish Co. v. Fox, 931
F.2d 1556, 1565 (D.C. Cir. 1991). Rather, the Court
must uphold the Corporation’s decision “so long as
[it] ‘engaged in reasoned decisionmaking and its
decision is adequately explained and supported by
the record.’” Clark Cty. v. FAA, 522 F.3d 437, 441
(D.C. Cir. 2008) (quoting N.Y. Cross Harbor R.R. v.
STB, 374 F.3d 1177, 1181 (D.C. Cir. 2004)).
B. Claim Two
In Claim Two, the plaintiffs argue that the
Corporation improperly valued the Plan’s liabilities
and allocated Plan assets by not taking into account
the ALPA Payments that the Active Pilots received
from Delta pursuant to Letter of Agreement #51. See
Am. Compl. ¶ 74; see also Pls.’ Mem. at 15 (“[The
p]laintiffs allege that the Corporation violated [the]
ERISA by performing § 1344 allocations for
unfunded Plan benefits without factoring in that the
Active Pilots had already been compensated for
those unfunded nonguaranteed pension benefits
through the Replacement Payments (i.e., the
payments deriving from the ALPA Notes and [the]
ALPA Claim).”). According to the plaintiffs, “[t]he
Corporation’s allocation decision means that the
Active Pilots will be compensated twice for the same
‘unfunded’ Plan benefits, at the [p]laintiffs’ expense
(because the funds that would otherwise go to [the
p]laintiffs’ benefits go [to] the Active Pilots, leaving
[the p]laintiffs’ benefits unfunded).” Pls.’ Mem. at 15.

64a
The plaintiffs set forth two reasons why the
Corporation should have taken the ALPA Payments
into account, which the Court will address in turn.
1. The Corporation’s Objections to Letter of
Agreement #51
First, the plaintiffs point out that the
Corporation took the same position in its opposition
to Letter of Agreement #51 in the Bankruptcy Court
that the plaintiffs take now; namely, “that the
Active
Pilots[’]
[u]nfunded
[n]onguaranteed
[b]enefits [w]ere [f]unded by the [ALPA] Payments.”
Id. at 16. According to the plaintiffs, because the
Bankruptcy Court declined to resolve the factual
issue as to whether the ALPA Payments were
intended to replace Plan benefits, the Bankruptcy
Court’s approval of Letter of Agreement #51 “did not
undermine the Corporation’s determination” on this
issue. See id. at 18–19.
The plaintiffs are correct that the Corporation
argued before the Bankruptcy Court that “Delta and
[the] ALPA intend[ed] to use the [ALPA Payments]
to replace unfunded benefits under the Pilots Plan
by using the proceeds to fund follow-on retirement
plans and other payments or distributions to pilots,”
AR 1049; see also AR 1053, 1064, 1069, and that the
Bankruptcy Court explicitly declined to make
findings of fact regarding the purpose of the ALPA
Payments, instead denying the Corporation’s
objection to Letter of Agreement #51 as a matter of
law, see AR 446–54. However, the Court agrees with
the Corporation, see Def.’s Mem. at 23 (stating that
the Corporation’s initial objection to the ALPA
Payments “has no effect on the allocation of the
Plan’s assets or the reasonableness of [the] PBGC’s
statutory construction”), that its opposition to the

65a
ALPA Payments in Bankruptcy Court is irrelevant
to the issue of whether the Corporation is required,
under the ERISA and the Corporation’s regulations,
to consider the ALPA Payments as part of its
valuation and allocation decisions. 16 Instead, to
resolve this question, the Court must look at the
statute and the regulations themselves.17
In fact, the Corporation’s position in Bankruptcy Court
actually suggests the opposite. In its opposition to Letter of
Agreement #51 filed with the Bankruptcy Court, the
Corporation argued that the Active Pilots would receive a
double recovery precisely because the Corporation would not be
able to take the ALPA Payments into account in its benefit
determinations. See AR 1064 (“Participants would recover
[u]nfunded [n]onguaranteed [b]enefits from both the employer
and [the] PBGC, and the bankruptcy estate would be paying
the same claim twice—once to participants and once to [the]
PBGC.”).
17 The plaintiffs also argue that the Appeals Board “concede[d]
that [the] ERISA does not prohibit [it] from taking the [ALPA]
Payments into account,” Pls.’ Mem. at 20, when it stated in its
decision that the “ERISA does not require [the] PBGC to
account for the ALPA Payments for purposes of allocating the
Pilots Plan’s assets and [the] PBGC’s recoveries,” AR 41.
According to the plaintiffs, the Appeals Board did not state
“that [the] ERISA prohibits such an accounting,” and thus, “the
legal issue turns on whether the Corporation’s construction of
the statute is consistent with [the] ERISA’s purposes.” Pls.’
Mem. at 20; see also id. at 20–21 (describing the ERISA’s
purposes as favoring retirees). The Corporation disputes that it
conceded
anything,
claiming
that
the
plaintiffs’
characterization of the Appeals Board’s statement that the
Corporation “is not required to take the ALPA Payments into
account” as a concession that the ERISA permits such an
accounting is “hair-splitting.” Def.’s Mem. at 24. The Court
agrees with the Corporation that it did not concede, at the
administrative level, that the ERISA permits the Corporation
to take the ALPA Payments into account in its determination of
benefits. In any event, even if that point had been conceded
below, the Court must still consider the legal issue on the
16

66a
2. PC5 Benefits
As noted earlier, supra at 5, PC5 benefits are “all
other nonforfeitable benefits under the plan,” 29
U.S.C. § 1344(a)(5), that are not guaranteed by the
Corporation, id. § 1344(a)(4)(A). The plaintiffs argue
that the ERISA’s definition of a nonguaranteed,
nonforfeitable benefit “does not address specifically
whether such entitlement can be extinguished when
the benefit is funded from a source outside the
plan,” Pls.’ Mem. at 20, and therefore, given the
ERISA’s purpose to protect employees’ retirement
income security, the Corporation should have
interpreted the statute liberally to allow it to factor
in the ALPA Payments paid to the Active Pilots, see
id. at 20–21; see also Pls.’ Reply at 22–23 (same).
The Corporation argues in response that it would
have been “inconsistent with the statute” for it to
factor in the ALPA Payments, which were “monies [
] not held by the Plan, not used by the Plan to pay
Plan benefits, and not recovered by [the] PBGC.”
Def.’s Mem. at 21; see also Def.’s Reply at 13–14
(same). The Court agrees with the Corporation.
The ERISA defines “nonforfeitable benefit,” “with
respect to a plan,” as
a benefit for which a participant has
satisfied the conditions for entitlement under
the plan or the requirements of this chapter
(other than submission of a formal
application, retirement, completion of a
required waiting period, or death in the case
of a benefit which returns all or a portion of a
merits. See Cohen v. Bd. of Trs. of Univ. of the Dist. of
Columbia, 819 F.3d 476, 483 (D.C. Cir. 2016) (noting the
“weighty preference in favor of deciding cases on their merits”).

67a
participant’s
accumulated
mandatory
employee
contributions
upon
the
participant’s death), whether or not the
benefit may subsequently be reduced or
suspended by a plan amendment, an
occurrence of any condition, or operation of
this chapter or Title 26.
29 U.S.C. § 1301(a)(8).
In the Court’s view, the statute is unambiguous
under Chevron step one, considering that it defines
a nonforfeitable benefit as a benefit “under a
pension plan or under ‘requirements of this chapter,’
that is, Chapter 18 of Title 29 [of the United States
Code]. Chapter 18, in turn, encompasses the
ERISA.” Deppenbrook v. PBGC, 950 F. Supp. 2d 68,
77 (D.D.C. 2013) (Walton, J.) (quoting 29 U.S.C. §
1301(a)(8)), aff’d, 788 F.3d 166 (D.C. Cir. 2015). In
other words, the statute explicitly limits
nonforfeitable benefits to those to which a
participant is entitled under a plan, “as opposed to
under other statutes or documents.” Id. Because the
ALPA Payments were never incorporated into the
Plan, but rather were part of a distinct agreement
made between Delta and the ALPA, see AR 932–72
(Letter of Agreement #51), the Court agrees with
the Corporation that it was not permitted, under
the statute, to factor the ALPA Payments into its §
1344 allocations, the purpose of the ERISA
notwithstanding. See Belland, 726 F.2d at 844
(noting that “the principle that remedial statutes
are to be liberally construed to effectuate their
purpose . . . ‘does not give the judiciary license, in
interpreting a provision, to disregard entirely the
plain meaning of the words used by Congress’”

68a
(quoting Symons v. Chrysler Corp. Loan Guarantee
Bd., 670 F.2d 238, 241 (D.C. Cir. 1981))).
Nor is the Court persuaded by the plaintiffs’
argument that the Corporation “take[s] account of
such non-plan funding in other contexts,” as
evidenced by its regulation concerning obligations
pursuant to an insurance contract. See Pls.’ Mem. at
20; see also Pls.’ Reply at 23 (same). That regulation
provides that “an irrevocable commitment by an
insurer to pay a benefit, which commitment is in
effect on the date of the asset allocation, is not
considered a plan asset, and a benefit payable under
such a commitment is excluded from the allocation
process.” 29 C.F.R. § 4044.3(a). According to the
plaintiffs, the fact that the Corporation takes into
account obligations pursuant to an insurance
contract demonstrates that “plainly the statute does
not forbid the[] consideration” of payments from
outside the plan, Pls.’ Reply at 23, and the
Corporation’s decision to not factor in the ALPA
Payments when it would factor in obligations
pursuant to an insurance contract “establishe[s] that
[the] agency[’s] action is arbitrary [because] the
agency offers insufficient reasons for treating similar
situations differently,” id. (quoting Shalala, 192 F.3d
at 1022).
The Court agrees with the Corporation that
the circumstances addressed in 29 C.F.R. §
4044.3(a) are distinguishable from the ALPA
Payments because in the case of insurance
payments, “the pension benefit becomes an
obligation of the insurance company when it issues
a contract; it is no longer an obligation of the plan,”
while in the case of the ALPA payments, “the Plan’s
obligations to pay benefits were never reduced by

69a
the ALPA payments.” Def.’s Mem. at 25; see also
Def.’s Reply at 15 (arguing that the plaintiffs’
“analogy to irrevocable insurance contracts, i.e.,
annuities bought by a plan that transfer payment
responsibility to an insurer, is inapposite . . .
[because t]he purchase of such a contract satisfies
the participant’s benefits under the plant. It does
not provide additional benefits” (citing Beck, 551
U.S. at 1096)). Rather, the ALPA Claim is a
“general non-priority unsecured claim under section
502 of the Bankruptcy Code . . . in the amount of
$2.1 billion,” which the ALPA Delta Master
Executive Council allocated among the pilots, see
AR at 966–67, while the ALPA Notes were issued by
Delta to the ALPA “[i]n the event that the . . . Plan
[ ] terminated,” AR 968, with the ALPA determining
“[d]istribution mechanics, eligibility, and allocation
among [ ] pilots,” AR 971. Therefore, because the
ALPA payments were never Plan assets, nor did
they extinguish any Plan obligations, the
Corporation properly declined to take these
payments into account in its § 1344 allocation.
C. Claim Three
In Claim Three, the plaintiffs challenge the
Corporation’s determination that the Plan provision
incorporating the increased compensation limit was
not “in effect” five years prior to the Plan’s
termination on September 2, 2006, and therefore,
did not apply to the Corporation’s calculations of the
plaintiffs’ PC3 benefits. See Am. Compl. ¶¶ 89–91.
As explained earlier, supra at 4–5, under the
ERISA, benefits only qualify for PC3 status if “the
provisions of the plan creating them were ‘in effect’
within the five-year period prior to plan
termination.” Davis II, 734 F.3d at 1165 (quoting 29

70a
U.S.C. § 1344(a)(3)(A)). The Corporation has
promulgated
a
regulation
interpreting
the
requirement that a benefit be “in effect” in order to
qualify for PC3 status to mean that the benefit must
be “the lowest annuity benefit payable under the
plan provisions at any time during the [five]–year
period ending on the termination date.” 29 C.F.R. §
4044.13(b)(3)(i).
In Davis II, the U.S. Airways pilots challenged
the Corporation’s determination that a certain
benefit increase was not included in PC3. See 734
F.3d at 1167. The plan provision there creating that
benefit increase “was adopted on December 4, 1997,
had an ‘effective date’ of January 1, 1998, and
allowed [certain U.S. Airways] pilots . . . to elect to
receive the benefit between March 1, 1998 and April
30, 1998. Those who elected to receive the benefit
could not receive it before May 1, 1998.” Id. The U.S.
Airways pilots’ plan terminated on March 31, 2003,
see id. at 1166, and therefore, to be included in PC3,
the benefit had to be “in effect” before March 31,
1998, five years prior to the plan’s termination, see
29 U.S.C. § 1344(a)(3). The pilots argued that the
benefit was “in effect” as of the “effective date” of
January 1, 1998, and because that date was more
than five years prior to the plan’s termination, the
benefit should have been included in PC3. See 734
F.3d at 1168. But, the Circuit deferred to the
Corporation’s interpretation of the statutory
language of “in effect” to mean “payable,” id. (citing
29 C.F.R. § 4044.13(b)(3)(i)), and concluded that
“because the earliest date the benefit could be paid
was [May 1, 1998,] one month after the beginning of
the five-year period preceding the date of [p]lan
termination, the [ ] benefit could not be included in
[PC3],” id. at 1167. With the Circuit’s holding as its

71a
guidepost, the Court reiterates
relevant dates in this case.

the

following

On June 7, 2001, Congress passed the EGTRRA,
which increased the compensation limit to $200,000
for plan years beginning after December 31, 2001.
See Pub. L. No. 107-16, § 611(c)(1), (i)(l), 115 Stat. at
97, 100. Therefore, the first Plan year to which the
increased compensation limit could apply is the Plan
year that began on July 1, 2002. See AR 129
(defining the Plan’s “plan year” as “[t]he [c]ompany’s
fiscal year ending each June 30”).
The PWA provides that any statutory increase to
the compensation limit “will be effective for the . . .
[Plan] as of the earliest date that the increased
[q]ualified [p]lan [l]imits could have become legally
effective for that Plan, had that Plan not been
collectively bargained,” AR 3697, and also states that
the
provision
incorporating
the
increased
compensation limit would be effective as of
September 1, 2001, AR 3695. The IRS notice setting
effective dates for the increased compensation limit
provides that
[i]n the case of a plan that uses annual
compensation for periods prior to the first
plan year beginning on or after January 1,
2002, to determine accruals or allocations for
a plan year beginning on or after January 1,
2002, the plan is permitted to provide that
the $200,000 compensation limit applies to
annual compensation for such prior periods
in determining such accruals or allocations.
I.R.S. Notice 2001-56, 2001-2 C.B. 277. The Fourth
Amendment, whose purpose is “to reflect certain
provisions of . . . [the] EGTRRA,” and “is intended

72a
as good faith compliance with the requirements of
[the] EGTRRA and is to be construed in
accordance with [the] EGTRRA and guidance
issued thereunder,” AR 244, states that its
provisions, including the increased compensation
limit, see AR 245, are “[e]ffective July 1, 2002, or
such other effective date as may be provided in a
provision below,” AR 244. The Fourth Amendment
also provides that
[t]he Earnings taken into account in
determining benefit accruals of an Employee
in any Plan Year beginning after June 30,
2002 shall not exceed $200,000 . . . . In
determining benefit accruals of [retired]
Employees . . . in Plan Years beginning after
June 30, 2002, the annual compensation
limit provided in this paragraph for Plan
Years beginning before July 1, 2002 shall be
$200,000, or, if greater, the annual
compensation limit in effect under Section
401(a)(17) of the Code for that Plan Year . . .
AR 245 (emphasis added).
The plaintiffs make much of the IRS notice, the
PWA, and the Fourth Amendment, arguing that
under the PWA, “the Plan was obligated to make
increases to the [c]ompensation [l]imit ‘effective’
‘as of the earliest date that the increased
[q]ualified [p]lan [l]imits could have been legally
effective for that plan,” and because the IRS notice
allowed the Plan to apply the increased
compensation limit to plan years prior to July 1,
2002, the increased compensation limit was
payable, and thus in effect, for five years prior to
the plan’s termination. See Pls.’ Mem. at 31; see
also Pls.’ Reply at 30 (arguing that under the

73a
PWA, “the Plan was obligated to make increases to
the [c]ompensation [l]imit ‘effective’ ‘as of the
earliest date that . . . [they] could have become
legally effective for that Plan”).
Upon review of the EGTRRA, the PWA, the IRS
notice, and the Fourth Amendment, the Court is not
persuaded that the Corporation’s determination that
the increased compensation limit was not in effect
five years prior to the Plan’s termination on
September 2, 2006, because it was not payable until
July 1, 2002, was arbitrary or capricious. The Court
agrees with the Corporation that although the IRS
notice allowed the Plan to apply the increased
compensation limit to annual compensation for plan
years prior to the July 1, 2002 plan year, it could do
so only for the purpose of “determin[ing] accruals or
allocations for [the July 1, 2002 plan year],” see
I.R.S. Notice 2001-56, 2001-2 C.B. 277 (emphasis
added), and the Fourth Amendment applied the
increased compensation limit to plan years prior to
July 1, 2002 “only for determining benefits payable
to [p]ilots who retired after July 1, 2002,” Def.’s
Mem. at 31. The Fourth Amendment states that (1)
“[t]he Earnings taken into account in determining
benefit accruals of an Employee in any Plan Year
beginning after June 30, 2002, shall not exceed
$200,000,” and (2) “[i]n determining benefit accruals
of [retired] Employees . . . in Plan Years beginning
after June 30, 2002, the annual compensation
limit . . . for Plan Years beginning before July 1,
2002 shall be $200,000.” AR 245 (emphases added).
If the Court interpreted the Fourth Amendment
language regarding retired employees to allow the
increased compensation limit to apply to Plan years
prior to July 1, 2002, as the plaintiffs argue, that
interpretation would not only negate the first clause,

74a
which provides that the increased compensation
limit applies only for Plan years beginning on and
after July 1, 2002, see id., but it would also
contradict the EGTRRA itself, which provides that
the increased compensation limit applies to plan
years beginning after December 31, 2001, see Pub. L.
No. 107-16, § 611(c)(1), (i)(l), 115 Stat. at 97, 100.
Certainly, neither the IRS notice nor the terms of
the Plan (either the PWA or the Fourth Amendment)
can be construed in contravention of the statute
itself. See AR 244 (stating that the Fourth
Amendment “is intended as good faith compliance
with the requirements of [the] EGTRRA and is to be
construed in accordance with [the] EGTRRA and
guidance issued thereunder”); see also Davis II, 734
F.3d at 1168 (rejecting the argument that the benefit
was “in effect” as of the plan’s stated effective date).
Accordingly, the Court concludes that the
Corporation’s determination that the increased
compensation limit went into effect, i.e., became
payable, on July 1, 2002, less than five years prior to
the Plan’s termination, and thus could not be
included in the Corporation’s calculations of the
plaintiffs’ PC3 benefits, was reasonable, and not
arbitrary and capricious.18

The plaintiffs claim that the Corporation conceded in an
internal memo that it “could apply [the] increased
[c]ompensation [l]imit to plan years prior to January 1, 2002,”
Pls.’ Mem. at 28, when it concluded that, “[i]n determining such
post-2001 accruals in the case of a plan that uses a final
average earnings formula, the plan may apply a $200,000 limit
to earnings from years prior to 2002,” id. (quoting AR 1235).
Again, the language in this memorandum is limited to
determinations of “post-2001 accruals,” see id. (emphasis
added), and therefore, the Corporation did not “concede” the
plaintiffs’ position.
18

75a
D.

Claim Four

In Claim Four, the plaintiffs challenge the
Corporation’s determination that the Plan provision
incorporating Congress’s increase to the qualified
benefit limit was in effect more than five years prior
to the Plan’s termination, and thus includable in the
Corporation’s calculations of PC3 benefits, only for
pilots who were active at the time the PWA was
signed, and not for pilots who retired before July 1,
2001. See Am. Compl. ¶¶ 114–20. The parties agree
that the PWA incorporating the increased qualified
benefit limit was in effect five years prior to the
Plan’s termination, but disagree as to whether that
provision covers all pilots or only pilots active when
the PWA was signed in 2001. See Pls.’ Mem. at 32–
33; Def.’s Mem. at 33. The plaintiffs argue that the
Corporation’s determination that the PWA provision
applied only to active, and not retired, pilots was
erroneous because the PWA “does not state that the
‘[q]ualified [p]lan [l]imits’ will be different for Plan
participants depending upon their retirement
status.” Pls.’ Mem. at 32; see also Pls.’ Reply at 32
(same).
The Corporation responds that the Fourth
Amendment provides that the qualified benefit limit
was increased for Active Pilots as of July 1, 2001,
while the increase did not go into effect for retired
pilots until July 1, 2002. See Def.’s Mem. at 34; see
also id. at 36. According to the Corporation, if the
PWA provision were read to cover pilots who were
retired when the PWA was adopted, such a reading
“would conflict with the Fourth Amendment, which
does not make the [qualified] benefit[]limit increase
effective until July 1, 2002, for this group.” Id. at 36.
Furthermore, the Corporation argues that the PWA

76a
provision only covered Active Pilots because (1) “the
PWA was an agreement between Delta and its
actively employed pilots,” id. at 35, and (2) “there is
no presumption that a collective bargaining agent
represents retirees in negotiations or that a
collective bargaining agreement covers them with
respect to retirement benefits,” id. at 36; see also
Def.’s Reply at 20–21. The Corporation notes that
the plaintiffs’ argument “that [the] ALPA
represented the retirees’ interests is especially odd
here, given the[ir] contention in Claim Two that
[the] ALPA represented the interests of [A]ctive
[P]ilots to the disadvantage of the [plaintiffs] when
negotiating [Letter of Agreement] #51.” Def.’s Mem.
at 36.
Upon review of both the PWA and the Fourth
Amendment, the Court concludes that the
Corporation’s interpretation is reasonable, and
therefore not arbitrary and capricious. The PWA
provision incorporating the increased qualified
benefit limit does not explicitly state whether it
applies only to Active Pilots. See AR 3697 (stating
that if the qualified benefit limit is increased, that
increase is effective as of the earliest date it could
have become legally effective in the absence of a
collective bargaining agreement). The Fourth
Amendment, on the other hand, explicitly
distinguishes between employees’ “annuity starting
dates,” i.e., their dates of retirement. See AR 248.
Specifically, the Fourth Amendment states that the
increased qualified benefit limit “shall be effective
beginning with the [plan] year starting on July 1,
2001[,] for those Employees whose Annuity Starting
Date is on or after July 1, 2001,” but “[w]ith respect
to Participants whose Annuity Starting Date was
before July 1, 2001, the increased [qualified benefit]

77a
limit . . . shall be effective for annuity payments
made on or after July 1, 2002.” AR 248. Because the
Corporation reviewed both provisions, and declined
to interpret the PWA provision as covering pilots
who retired before July 1, 2001, as doing so would
directly conflict with the Fourth Amendment, the
Court is satisfied that the agency “examine[d] the
relevant data and articulate[d] a satisfactory
explanation for its action including a ‘rational
connection between the facts found and the choice
made.’” State Farm, 463 U.S. at 43 (quoting
Burlington Truck Lines, 371 U.S. at 168). The Court
declines to entertain the plaintiffs’ argument that if
the PWA provision and the Fourth Amendment
conflict, the more employee-favorable document
should govern, see Pls.’ Reply at 33, because doing
so would require the Court to “question whether the
decision made was the best one,” which the Court is
not permitted to do, see C & W Fish Co., 931 F.2d at
1565. Accordingly, the Court concludes that the
Corporation’s determination that the increased
qualified benefit limit was in effect more than five
years prior to the Plan’s termination, and thus
includable in PC3, only for pilots who were active at
the time the PWA was signed, and not for pilots who
retired before July 1, 2001, was reasonable, and not
arbitrary and capricious.19
The plaintiffs also argue that the Corporation’s
determination that the PWA provision incorporating the
increased qualified benefit limit only applied to Active Pilots is
erroneous because other PWA provisions “explicitly note[]” that
they do apply to retirees. See Pls.’ Mem. at 33. The Corporation
argues in response that the plaintiffs failed to raise this
argument before the Appeals Board. See Def.’s Reply at 20.
This Court has previously noted that “[t]he District of
Columbia Circuit has consistently held that courts ‘are bound
19

78a
E. Claim Five
In Claim Five, the plaintiffs contend that the
Corporation erred “in allocating the funds it
recovered from Delta after the Plan’s termination . . .
[, which] unfairly reduced [the p]laintiffs’ share of
these funds.” Am. Compl. ¶ 130. Specifically, the
plaintiffs claim that the Corporation “added an
unlawful step to the formula set by Congress—by
reducing the amount of the recovery to the date of
Plan termination—that eliminated $55.5 million
dollars from the funds the PBGC should have put
toward pension benefits.” Id. ¶ 138; see also Pls.’
Mem. at 34 (“[T]he Corporation inappropriately
reduced the amount of funding available for PC5 by
improperly discounting the value of the recoveries
available to fund PC5 liabilities by roughly $55
million.”). They also claim that “the PBGC
to adhere to the hard and fast rule of administrative law,
rooted in simple fairness, that issues not raised before an
agency are waived and will not be considered by a court on
review,’” Veloxis Pharm. v. FDA, 109 F. Supp. 3d 104, 122
(D.D.C. 2015) (Walton, J.) (quoting Coburn v. McHugh, 679
F.3d 924, 929 (D.C. Cir. 2012)), “[a]nd the Circuit has clarified
that the standard for waiver in administrative law cases
focuses on whether the ‘specific argument’ put forth by the
plaintiff was raised before the agency . . . not merely the same
general legal issue,” id. at 123 (citing Koretoff v. Vilsack, 707
F.3d 394, 398 (D.C. Cir. 2013)). Upon review of the plaintiffs’
brief submitted to the Appeals Board, the Court agrees with
the Corporation that the plaintiffs did not raise their argument
that the PWA provision incorporating the qualified benefit
limit increase must apply to both active and retired pilots
because other subsections of the PWA explicitly apply to retired
pilots. See AR 581–84. Therefore, because the plaintiffs did not
give the Appeals Board an opportunity to consider the merits of
this specific argument at the administrative level, that
argument is waived. See Veloxis Pharm., 109 F. Supp. 3d at
123.

79a
erroneously excluded the 2001-06 increases to the
[c]ompensation [l]imit and the [q]ualified [b]enefit
[l]imit in allocating the recovered funds that were to
be distributed to the Plan’s participants and
beneficiaries under [PC5(a)].” Am. Compl. ¶ 142; see
also Pls.’ Mem. at 34 (“[T]he Corporation illegally
judged [the p]laintiffs’ unfunded non-guaranteed
benefits as being in PC5(b) (for which there is no
funding) instead of PC5(a), despite the fact that
these benefits were ‘in effect’ as of September 2,
2001.”).
As noted above, see supra at note 14, the
Corporation’s determinations of recovery benefits
“shall be binding unless shown by clear and
convincing evidence to be unreasonable,” 29 U.S.C. §
1322(c)(4). The Court will consider the plaintiff’s two
arguments in turn.
1. The Corporation’s
Recovery Benefits

Calculation

of

the

As explained above, supra at 6, the ERISA
statute designates how the trustee should calculate
the portion of the recovery funds available for
payment to participants and beneficiaries: it must
“multiply[]—(A) the outstanding amount of benefit
liabilities under the plan (including interest
calculated from the termination date), by (B) the
applicable recovery ratio,” 29 U.S.C. § 1322(c)(2). At
issue in Claim Five is how the Corporation
calculated the recovery ratio, which is prescribed by
statute as follows:
(i) the value of the recoveries of the
[C]orporation [for a single-employer plan
terminated under a distress termination]
to

80a
(ii) the amount of unfunded benefit liabilities
under such plan as of the termination
date.
Id. § 1322(c)(3)(C). The Corporation’s recovery
amount as of the valuation date was
$1,279,506,423. AR 42. “To reflect interest,
[the] PBGC discounted the value of [its]
recovery . . . by $50,501,683, resulting in a
[date of plan termination] (September 2, 2006)
recovery value of $1,229,004,740.” AR 43.
The plaintiffs argue that the Corporation’s
calculation
of
the
recovery
amount
was
unreasonable because it “employed [an] extrastatutory actuarial adjustment[] to the recovery
ratio” than actually provided by Congress. Pls.’
Mem. at 36. 20 Specifically, the plaintiffs contend
The plaintiffs also assert that the Corporation made an
additional “extra-statutory actuarial adjustment[],” Pls.’ Mem.
at 36, when it discounted the recovery value from
approximately $1.285 billion to $1.279 billion “in order to
actuarially adjust these recoveries to their value as of May 3,
2007[,] the date when the PBGC received its first recovery,” id.
at 35. The plaintiffs not only did not raise any argument
regarding the approximately $5.5 million adjustment in their
brief to the Appeals Board, see AR 593–98 (section of the brief
addressing the Corporation’s alleged errors regarding its
calculation and allocation of the recovery funds), but actually
argued that $1.279 billion was the proper recovery value, see
id. 595 (“In the case of the Delta Pilots Plan, ‘the total value of
the [PBGC’s] Recovery as of the May 3, 2007 Valuation Date is
$1,279,506,423.’ Thus, according to the unambiguous language
of the statute, for purposes of calculating the [ ] amount
[available for payment to participants and beneficiaries], the
recovery ratio should have utilized this recovery amount.” (first
alteration in original) (internal citations omitted)). Moreover,
the plaintiffs argue for the first time in their reply that the
Corporation’s “decision to impose an extra-statutory discount to
all recoveries is a ‘policy matter’ that stands to ‘have a
20

81a
that the Corporation’s decision to “reduce[] the
recovery amount by . . . $50 million (approximately)
to reflect its value on the date of Plan termination,”
id. at 35, was unreasonable because Congress
explicitly directed the Corporation to calculate the
ratio’s denominator as of the Plan’s termination
date, but Congress did not direct the Corporation to
factor that date into the numerator, see id. at 36; see
also Pls.’ Reply at 35. And therefore, according to
the plaintiffs, the “Corporation’s decision to discount
both parts of the ratio by the termination date
violated
th[e]
cardinal
rule
of
statutory
construction” that presumes that Congress
“intentionally and purposely” “include[d] particular
language in one section of a statute but omit[ted] it
in another section of the same Act.” Pls.’ Mem. at 36
(quoting Russello v. United States, 464 U.S. 16, 23
(1983)); see also Pls.’ Reply at 36 (same).
The Corporation argues in response that “[t]he
Appeals Board’s conclusion that, in determining
monies allocable to participants’ benefits, [the]
PBGC must discount its recoveries to the Plan’s
termination date is entirely reasonable, and easily
passes the ‘clear and convincing’ standard under the
significant impact’ on Title IV’s ‘stakeholders,’” Pls.’ Reply at 36
(quoting 29 C.F.R. § 4002.3(a)(3)(v)), and, according to the
Corporation’s own regulations, this determination “may only be
made by the Corporation’s Board of Directors, and cannot be
delegated or, if delegated, no deference adheres to the
Corporation’s decision under Page,” id. As previously explained,
see supra at note 19, because the plaintiffs did not give the
Appeals Board an opportunity to consider the merits of either
of these arguments, they are waived. See Veloxis Pharm., 109
F. Supp. 3d at 123; see also Nytes, 297 F. Supp. 3d at 202
(“Judges in this District have repeatedly held that arguments
may not be raised for the first time in a party’s reply.”
(collecting cases)).

82a
statute.” Def.’s Mem. at 39–40. From the
Corporation’s perspective, “to reflect interest, [it]
had to discount the value of its recovery to
September 2, 2006,” the date of the Plan’s
termination, because the ERISA defines the value of
its recoveries, which make up the numerator of the
recovery ratio, in terms of their value as of the
Plan’s termination date. See id. at 40.
Upon review of the statute, the Court concludes
that the Corporation’s decision to value its recoveries
as of the date of the Plan’s termination passes
muster under the clear and convincing standard. 29
U.S.C. § 1362, which establishes the liability of an
employer upon the termination of a single-employer
plan, has two categories of liability: liability to the
Corporation, see id. § 1362(b), and liability to the §
1342 trustee, see id. § 1362(c). The first category, the
liability to the Corporation, is described as “the total
amount of the unfunded benefit liabilities (as of the
termination date) to all participants and
beneficiaries under the plan, together with interest
(at a reasonable rate) calculated from the
termination date in accordance with regulations
prescribed by the [C]orporation.” Id. § 1362(b)(1)(A)
(emphasis added). The second category, the liability
to the § 1342 trustee, which in this case is also the
Corporation, is described, in relevant part, as
the sum of the shortfall amortization
charge . . . with respect to the plan (if any)
for the plan year in which the termination
date occurs, plus the aggregate total of
shortfall amortization installments (if any)
determined for succeeding plan years . . . and
[ ] the sum of the waiver amortization
charge . . . with respect to the plan (if any)

83a
for the plan year in which the termination
date occurs, plus the aggregate total of
waiver amortization installments (if any)
determined for succeeding plan years . . . ,
together with interest (at a reasonable rate)
calculated from the termination date in
accordance with regulations prescribed by
the [C]orporation.
Id. § 1362(c) (emphasis added). Returning to the
recovery ratio, the numerator is defined as “the
value of the recoveries of the [C]orporation under
section 1362, 1363, or 1364 of this title in connection
with such plan.” Id. § 1322(c)(3)(C)(i). Because the
“recoveries . . . under section 1362,” id., the section
relevant in this case, are both defined in terms of
their value as of the date of the Plan’s termination,
see id. § 1362(b)(1)(A), (c), the Court concludes that
the Corporation’s determination to adjust the
recovery value to reflect its value as of the date of
the Plan’s termination is reasonable. Although the
plaintiffs are correct that Congress did not explicitly
state that the numerator of the recovery ratio should
be valued as of the date of a plan’s termination, as it
did with the denominator, see Pls.’ Mem. at 36,
Congress did define the components of the
numerator of the recovery ratio in terms of their
value as of the date of a plan’s termination in other
provisions of the statute. Thus, the Corporation
reasonably construed these statutory provisions
together to determine that the numerator of the
recovery ratio must be calculated as of the date of a
plan’s termination. See Motion Picture Ass’n of Am.,
Inc. v. FCC, 309 F.3d 796, 801 (D.C. Cir. 2002)
(“Statutory provisions in pari materia are construed
together to discern their meaning.” (citing

84a
Erlenbaugh v. United States, 409 U.S. 239, 244
(1972))).
2. The Corporation’s
Recovered Funds

Allocation

of

the

Next, similar to their arguments in Claims Three
and Four, the plaintiffs argue that the Corporation
erred in not applying the increased compensation
and qualified benefit limits in its calculation of the
plaintiffs’ PC5(a) benefits, which include benefits “in
effect at the beginning of the [five]-year period
ending on the date of plan termination,” 29 U.S.C. §
1344(b)(4)(A), “because the statutory language [ ] ‘in
effect’ is even more favorable to [the p]laintiffs under
PC5(a) than under PC3,” Pls.’ Mem. at 37.
The ERISA provision regarding PC3 benefits
provides that “in the case of benefits payable as an
annuity, the plan administrator shall allocate the
assets of the plan (available to provide benefits)
among the participants and beneficiaries in the
following order”:
(A) in the case of the benefit of a participant
or beneficiary which was in pay status as
of the beginning of the [three]-year period
ending on the termination date of the
plan, to each such benefit, based on the
provisions of the plan (as in effect during
the [five]-year period ending on such
date) under which such benefit would be
the least, [and]
(B) in the case of a participant’s or
beneficiary’s benefit (other than a benefit
described in subparagraph (A)) which
would have been in pay status as of the
beginning of such [three]-year period if

85a
the participant had retired prior to the
beginning of the [three]-year period and if
his benefits had commenced (in the
normal form of annuity under the plan)
as of the beginning of such period, to each
such benefit based on the provisions of
the plan (as in effect during the [five]year period ending on such date) under
which such benefit would be the least.
For purposes of subparagraph (A), the lowest
benefit in pay status during a [three]-year
period shall be considered the benefit in pay
status for such period.
29 U.S.C. § 1344(a)(3) (emphasis added).
The ERISA provision regarding PC5 benefits
provides that the administrator shall allocate “all
other nonforfeitable benefits under the plan,” id. §
1344(a)(5), but then provides that, “if the assets
available for allocation under [PC5] are not
sufficient to satisfy in full the benefits of individuals
described in that paragraph,”
(A) . . . [E]xcept as provided in subparagraph
(B), the assets shall be allocated to the
benefits of individuals described in such
paragraph (5) on the basis of the benefits
of individuals which would have been
described in such paragraph (5) under the
plan as in effect at the beginning of the
[five]-year period ending on the date of
plan termination.
(B) If the assets available for allocation under
subparagraph (A) are sufficient to satisfy
in full the benefits described in such
subparagraph (without regard to this

86a
subparagraph), then for purposes of
subparagraph (A), benefits of individuals
described in such subparagraph shall be
determined on the basis of the plan as
amended by the most recent plan
amendment effective during such [five]year period under which the assets
available for allocation are sufficient to
satisfy in full the benefits of individuals
described in subparagraph (A) and any
assets remaining to be allocated under
such subparagraph shall be allocated
under subparagraph (A) on the basis of
the plan as amended by the next
succeeding plan amendment effective
during such period.
Id. § 1344(b)(4) (emphasis added). Therefore,
PC5(a) includes vested benefits as of five years
prior to the plan’s termination, see id. §
1344(b)(4)(A), while PC5(b) includes all other
vested benefits that went into effect on a later date,
which cannot be funded unless all benefits in
PC5(a) are funded, see id. § 1344(b)(4)(B).
The plaintiffs challenge “the Corporation’s
decision to apply [to] PC5(a) ‘the same rules
governing when a plan provision or amendment is in
effect for purposes of determining the PC3 benefit,’”
Pls.’ Mem. at 38 (quoting AR 51), because the
statutory language for PC3 and PC5(a) is “materially
different,” id. (comparing 29 U.S.C. § 1344(a)(3)
(focusing on the language “under which such benefit
would be the least”), with id. § 1344(b)(4)(A)
(focusing on when the plan provision went into
effect)); see also Pls.’ Reply at 38 (“The PC3 language
expressly incorporates language referencing when

87a
benefit amounts were in pay status, under which
such benefits would be the least, while the PC5(a)
statute focuses solely on when a plan provision is in
effect.”). The plaintiffs note that “while the
Corporation has promulgated rules relating to when
a benefit is ‘in effect’ under PC3, there is no PC5
regulation discussing when a benefit is in effect to
guide the Court’s inquiry.” Pls.’ Mem. at 38. In the
plaintiffs’ view, the differences in the statutory
language “are significant because the emphasis [for
PC5(a)] is placed entirely on the effectiveness of the
plan provision, eliminating any reference to whether
the benefit was in pay status during the five year
period, or the amount of such benefit.” Pls.’ Reply at
39. They further argue that their interpretation is
more consistent with the “ERISA’s asset allocation
scheme[, which] favors the benefits of a plan’s
retirees before those of its active participants.” Pls.’
Mem. at 40.
The Corporation responds that “[t]he Appeals
Board reasonably concluded that the same rules
governing when a plan provision . . . is ‘in effect’ for
purposes of determining the PC3 benefit . . . should
be applied to the PC5[a] subcategor[y],” and noted
that the Appeals “Board cited similar language in
these statutory provisions.” Def.’s Mem. at 42. The
Corporation notes that the Appeals Board
determined that the fact “that the PC5[(a)] provision
does not include the phrase ‘under which such
benefit would be the least,’ as does the PC3
provision,” was irrelevant because “PC5 covers the
portion of a participant’s nonforfeitable benefit that
is not already assigned to the higher priority
categories.” Id. And, the Corporation argues that the
statutory differences between PC3 and PC5(a) “do
not eliminate the requirement that a benefit

88a
increase be ‘in effect’ five years before the
termination date.” Def.’s Reply at 23. In response to
the plaintiffs’ argument that the policy underlying
the ERISA is to prioritize retirees over active
participants, the Corporation agrees that “[t]his is
certainly true for PC3, and is the reason why it
comes before PC4. But[, the Corporation argues
that] nothing in the statute suggests that within
other priority categories, the benefits of retirees
have a higher status than those of active
participants.” Def.’s Mem. at 43.
In Davis II, the Circuit concluded that “[t]he
statutory phrase ‘in effect’ in § 1344(a)(3)(A) is
ambiguous.” 734 F.3d at 1168. Therefore, the issue
the Court must resolve here is whether, under
Chevron step two, the Corporation’s decision to
interpret the phrase “in effect” for PC5(a) the same
way it interprets the phrase “in effect” for PC3 is
reasonable. The Court concludes that it is.
As the Appeals Board noted, it chose to interpret
the words “in effect” in the PC5(a) provision the
same way it interprets the words “in effect” in the
PC3 provision given the “ERISA’s statutory
structure regarding the benefits that [the] PBGC
pays.” AR 51. It noted that the statute that
“establishes the PC5 subcategories[] is similar to
[the] ERISA’s PC3 and phase-in limit provisions
because the provisions each contain a [five]-year
look-back period based upon when a plan provision
or amendment is ‘effective’ or ‘in effect.” AR 51.
Although the plaintiffs are correct that the statutory
provisions in § 1344(a)(3) and § 1344(b)(4)(A) are not
identical, it still remains that Congress chose not to
define the words “in effect” under either provision,
and it used the same five-year period under both

89a
provisions. See 29 U.S.C. § 1344(a)(3), (b)(4)(A). So,
even assuming the plaintiffs’ interpretation is
plausible, the Corporation’s decision to apply the
same definition of the words “in effect” to both the
PC3 and PC5(a) provisions is entirely reasonable.
See PBGC v. Asahi Tec Corp., 979 F. Supp. 2d 46, 72
(D.D.C. 2013) (“In sum, both parties have made
reasonable and compelling arguments regarding the
proper interpretation of [an ERISA provision] . . . .
They have pointed to various sections of [the]
ERISA . . . to support their positions. The Court has
wrestled with the question and has been unable to
distill a clear answer from the text of the statute.
Under those circumstances, the law requires the
Court to defer to the agency’s interpretation.”); see
also Am. Council on Educ. v. FCC, 451 F.3d 226, 234
(D.C. Cir. 2006) (“We cannot set aside the [agency’s]
reasonable interpretation of the Act in favor of an
alternatively plausible (or even better) one.”
(collecting cases)). Therefore, the plaintiffs have
failed to demonstrate “by clear and convincing
evidence” that the Corporation’s determinations
regarding the plaintiffs’ recovery benefits were
unreasonable. See 29 U.S.C. § 1322(c)(4).21
The plaintiffs also challenge the Corporation’s definition of
the words “in effect,” arguing that the Corporation’s allegation
that its interpretation is “consistent with the ‘ordinary
meaning of the term effective’ as being synonymous with the
term ‘operative.’” See Pls.’ Mem. at 38–39 (quoting AR 302).
Because the plaintiffs cite the Corporation’s interpretation of
the words “in effect” to mean “payable,” as explained in the
Appeals Board decision in the U.S. Airways case, see AR 302,
which was ultimately upheld as reasonable by the Circuit in
Davis II, see 734 F.3d at 1167–68, the Court need not further
consider how the Corporation has chosen to define the term “in
effect.” The plaintiffs also argue that the Corporation’s
interpretation of the words “in effect” is unreasonable because
21

90a
III. CONCLUSION
For the foregoing reasons, the Court concludes
that the Chevron framework applies in this matter,
and that the arbitrary and capricious standard of
review applies to Claims Two through Four of the
plaintiffs’ First Amended Complaint. The Court
finds that the plaintiffs have failed to establish any
arbitrary, capricious, or unlawful agency action
based on the administrative record that was properly
before the Corporation at the time it rendered its
decision, and thus it must enter summary judgment
in favor of the Corporation on Claims Two through
Four. The Court must also enter summary judgment
in favor of the Corporation on Claim Five because
the plaintiffs have failed to show by clear and
convincing
evidence
that
the
Corporation’s
determinations regarding the plaintiffs’ recovery
benefits were unreasonable. Finally, the Court must
dismiss Claim Six, the plaintiffs’ APA claim, because
it is duplicative of the plaintiffs’ claims brought
pursuant to the ERISA. Accordingly, the Court will
deny the plaintiffs’ motion for summary judgment
and grant the Corporation’s motion for summary
judgment.

“the benefits of the Active Pilots that the Corporation placed
ahead of [the p]laintiffs’ benefits do not satisfy the
Corporation’s ‘operative’ definition of ‘in effect.’” Pls.’ Reply at
40 (citing Pls.’ Mem. at 39). Once again, because the plaintiffs
failed to raise this argument before the Appeals Board, see AR
597–98 (arguing in their administrative brief that the
Corporation “erroneously applied [compensation and qualified
benefit] limits when allocating recovered funds” solely on the
basis of the differences in the statutory provisions for PC3 and
PC5(a)), the Court need not consider it, see Veloxis Pharm., 109
F. Supp. 3d at 123.

91a
SO ORDERED this 11th day of June, 2018.22
REGGIE B. WALTON
United States District Judge

The Court will contemporaneously issue an Order consistent
with this Memorandum Opinion.
22

92a
APPENDIX C
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
K. WENDELL LEWIS,
et al.,
Plaintiffs,
v.
PENSION BENEFIT
GUARANTY
CORPORATION
Defendant.

)
)
)
)
)
)
)
)
)
)
)

Civil Action No. 15-1328
(RBW)
[FILED June 11, 2018]

ORDER
In accordance with the Memorandum Opinion
issued on this same day, it is hereby
ORDERED that the Plaintiffs’ Motion for
Summary Judgment, ECF No. 99, is DENIED. It is
further
ORDERED that Pension Benefit Guaranty
Corporation’s Cross-Motion for Summary Judgment
and Opposition to the Plaintiffs’ Motion for
Summary Judgment, ECF No. 101, is GRANTED. It
is further
ORDERED that summary judgment is entered
in favor of Pension Benefit Guaranty Corporation on
Counts Two through Five of the plaintiffs’ First
Amended Complaint. It is further

93a
ORDERED that Count Six of the First Amended
Complaint is DISMISSED.
SO ORDERED this 11th day of June, 2018.
REGGIE B. WALTON
United States District Judge

94a
APPENDIX D
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
K. WENDELL LEWIS,
et al.,
Plaintiffs,
v.
PENSION BENEFIT
GUARANTY
CORPORATION
Defendant.

)
)
)
)
)
)
)
)
)
)
)

Civil Action No. 15-1328
(RBW)
[FILED Aug. 29, 2019]

ORDER
Upon consideration of the Consented Motion by
Plaintiffs to Dismiss Claim One and for Entry of
Final Judgment, ECF No. 114, and in light of the
United States Supreme Court’s denial of the
plaintiff’s petition for a writ of certiorari on June 17,
2019, see Plaintiffs’ Status Report at 1 (June 24,
2019), ECF No. 113, it is hereby
ORDERED that the stay imposed by this Court
on February 4, 2019, pending resolution of the
plaintiffs’ petition for a writ of certiorari, see Order
at 1 (Feb. 4, 2019), ECF No. 110, is LIFTED. It is
further
ORDERED that the Consented Motion by
Plaintiffs to Dismiss Claim One and for Entry of
Final Judgment, ECF No. 114, is GRANTED. It is
further

95a
ORDERED that Count One of the plaintiffs’
First Amended Complaint is DISMISSED WITH
PREJUDICE. It is further
ORDERED that this Order, in combination with
the Court’s previous Order granting summary
judgment in favor of the defendant on Counts Two
through Five of the plaintiffs’ First Amended
Complaint and dismissing Count Six of the plaintiffs’
First Amended Complaint, see Order at 1 (June 11,
2018), ECF No. 106, constitutes the Court’s final
judgment in this case. It is further
ORDERED that this case is CLOSED.
SO ORDERED this 29th day of August, 2019.
REGGIE B. WALTON
United States District Judge

96a
APPENDIX E
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
No. 19-5261

September Term, 2020
1:15-CV-01328-RBW

FILED ON: FEBRUARY 4,
2021
K. Wendell Lewis, et al.,
Appellants
v.
Pension Benefit Guaranty Corporation,
Appellee
BEFORE: Srinivasan, Chief Judge; Henderson,
Rogers, Tatel, Garland*, Millett, Pillard,
Wilkins, Katsas, Rao, and Walker,
Circuit Judges; and Ginsburg, Senior
Circuit Judge
ORDER
Upon consideration of appellants’ petition for
rehearing en banc, and the absence of a request by
any member of the court for a vote, it is
ORDERED that the petition be denied.
Per Curiam

97a
FOR THE COURT:
Mark J. Langer, Clerk
BY:

/s/
Kathryn D. Lovett
Deputy Clerk

*Circuit Judge Garland did not participate in this
matter.

98a
APPENDIX F
29 U.S.C. §1002. Definitions

*

*

*

(16)(A) The term “administrator” means-(i) the person specifically so designated by the
terms of the instrument under which the plan is
operated;
(ii) if an administrator is not so designated, the
plan sponsor; or
(iii) in the case of a plan for which an
administrator is not designated and a plan
sponsor cannot be identified, such other person as
the Secretary may by regulation prescribe.
(B) The term “plan sponsor” means (i) the employer
in the case of an employee benefit plan established
or maintained by a single employer, (ii) the employee
organization in the case of a plan established or
maintained by an employee organization, (iii) in the
case of a plan established or maintained by two or
more employers or jointly by one or more employers
and one or more employee organizations, the
association, committee, joint board of trustees, or
other similar group of representatives of the parties
who establish or maintain the plan, or (iv) in the
case of a pooled employer plan, the pooled plan
provider.
*

*

*

99a
29 U.S.C. §1104. Fiduciary duties
*

*

*

(a) Prudent man standard of care
(1) Subject to sections 1103(c) and (d), 1342,
and 1344 of this title, a fiduciary shall discharge
his duties with respect to a plan solely in the
interest of the participants and beneficiaries and(A) for the exclusive purpose of:
(i) providing benefits to participants and
their beneficiaries; and
(ii) defraying reasonable
administering the plan;

expenses

of

(B) with the care, skill, prudence, and
diligence under the circumstances then
prevailing that a prudent man acting in a like
capacity and familiar with such matters would
use in the conduct of an enterprise of a like
character and with like aims;
(C) by diversifying the investments of the
plan so as to minimize the risk of large losses,
unless under the circumstances it is clearly
prudent not to do so; and
(D) in accordance with the documents and
instruments governing the plan insofar as
such documents and instruments are
consistent with the provisions of this
subchapter and subchapter III.
(2) In the case of an eligible individual account
plan (as defined in section 1107(d)(3) of this title),
the diversification requirement of paragraph
(1)(C) and the prudence requirement (only to the
extent that it requires diversification) of

100a
paragraph (1)(B) is not violated by acquisition or
holding of qualifying employer real property or
qualifying employer securities (as defined
in section 1107(d)(4) and (5) of this title).
*

*

*

101a
29 U.S.C. §1303. Operation of corporation
*

*

*

(f) Civil
actions
against
corporation;
appropriate court; award of costs and
expenses; limitation on actions; jurisdiction;
removal of actions
(1) Except with respect to withdrawal liability
disputes under part 1 of subtitle E, any person
who is a plan sponsor, fiduciary, employer,
contributing sponsor, member of a contributing
sponsor's controlled group, participant, or
beneficiary, and is adversely affected by any
action of the corporation with respect to a plan in
which such person has an interest, or who is an
employee organization representing such a
participant or beneficiary so adversely affected
for purposes of collective bargaining with respect
to such plan, may bring an action against the
corporation for appropriate equitable relief in the
appropriate court.
(2) For purposes of this subsection, the term
“appropriate court” means-(A) the United States district court before
which
proceedings
under section
1341 or 1342 of this title are being conducted,
(B) if no such proceedings are being
conducted, the United States district court for
the judicial district in which the plan has its
principal office, or
(C) the United States District Court for the
District of Columbia.
(3) In any action brought under this subsection,
the court may award all or a portion of the costs

102a
and expenses incurred in connection with such
action to any party who prevails or substantially
prevails in such action.
(4) This subsection shall be the exclusive means
for bringing actions against the corporation under
this subchapter, including actions against the
corporation in its capacity as a trustee
under section 1342 or 1349 of this title.
(5)(A) Except as provided in subparagraph (C),
an action under this subsection may not be
brought after the later of-(i) 6 years after the date on which the
cause of action arose, or
(ii) 3 years after the applicable date
specified in subparagraph (B).
(B)(i) Except as provided in clause (ii), the
applicable date specified in this subparagraph
is the earliest date on which the plaintiff
acquired or should have acquired actual
knowledge of the existence of such cause of
action.
(ii) In the case of a plaintiff who is a
fiduciary bringing the action in the
exercise of fiduciary duties, the applicable
date specified in this subparagraph is the
date on which the plaintiff became a
fiduciary with respect to the plan if such
date is later than the date specified in
clause (i).
(C) In the case of fraud or concealment, the
period described in subparagraph (A)(ii) shall
be extended to 6 years after the applicable
date specified in subparagraph (B).

103a
(6) The district courts of the United States have
jurisdiction of actions brought under this
subsection without regard to the amount in
controversy.
(7) In any suit, action, or proceeding in which the
corporation
is
a
party,
or
intervenes
under section 1451 of this title, in any State
court, the corporation may, without bond or
security, remove such suit, action, or proceeding
from the State court to the United States district
court for the district or division in which such
suit, action, or proceeding is pending by following
any procedure for removal now or hereafter in
effect.

104a
29 U.S.C. §1342. Institution of termination
proceedings by the corporation
(a) Authority to
terminate a plan

institute

proceedings

to

The corporation may institute proceedings under
this section to terminate a plan whenever it
determines that-(1) the plan has not met the minimum funding
standard required under section 412 of Title 26,
or has been notified by the Secretary of the
Treasury that a notice of deficiency under section
6212 of Title 26 has been mailed with respect to
the tax imposed under section 4971(a) of Title 26,
(2) the plan will be unable to pay benefits when
due,
(3) the reportable event described in section
1343(c)(7) of this title has occurred, or
(4) the possible long-run loss of the corporation
with respect to the plan may reasonably be
expected to increase unreasonably if the plan is
not terminated.
The corporation shall as soon as practicable institute
proceedings under this section to terminate a singleemployer plan whenever the corporation determines
that the plan does not have assets available to pay
benefits which are currently due under the terms of
the plan. The corporation may prescribe a simplified
procedure to follow in terminating small plans as
long as that procedure includes substantial
safeguards for the rights of the participants and
beneficiaries under the plans, and for the employers
who maintain such plans (including the requirement
for a court decree under subsection (c)).

105a
Notwithstanding any other provision of this
subchapter, the corporation is authorized to pool
assets of terminated plans for purposes of
administration, investment, payment of liabilities of
all such terminated plans, and such other purposes
as it determines to be appropriate in the
administration of this subchapter.
(b) Appointment of trustee
(1) Whenever
the
corporation
makes
a
determination under subsection (a) with respect
to a plan or is required under subsection (a) to
institute proceedings under this section, it may,
upon notice to the plan, apply to the appropriate
United States district court for the appointment
of a trustee to administer the plan with respect to
which the determination is made pending the
issuance of a decree under subsection (c) ordering
the termination of the plan. If within 3 business
days after the filing of an application under this
subsection, or such other period as the court may
order, the administrator of the plan consents to
the appointment of a trustee, or fails to show why
a trustee should not be appointed, the court may
grant the application and appoint a trustee to
administer the plan in accordance with its terms
until the corporation determines that the plan
should be terminated or that termination is
unnecessary. The corporation may request that it
be appointed as trustee of a plan in any case.
(2) Notwithstanding any other provision of this
subchapter-(A) upon the petition of a plan administrator
or the corporation, the appropriate United
States district court may appoint a trustee in

106a
accordance with the provisions of this section
if the interests of the plan participants would
be better served by the appointment of the
trustee, and
(B) upon the petition of the corporation, the
appropriate United States district court shall
appoint a trustee proposed by the corporation
for a multiemployer plan which is in
reorganization or to which section 1341a(d) of
this title applies, unless such appointment
would be adverse to the interests of the plan
participants and beneficiaries in the
aggregate.
(3) The corporation and plan administrator may
agree to the appointment of a trustee without
proceeding in accordance with the requirements
of paragraphs (1) and (2).
(c) Adjudication that plan must be terminated
(1) If the corporation is required under
subsection (a) of this section to commence
proceedings under this section with respect to a
plan or, after issuing a notice under this section
to a plan administrator, has determined that the
plan should be terminated, it may, upon notice to
the plan administrator, apply to the appropriate
United States district court for a decree
adjudicating that the plan must be terminated in
order to protect the interests of the participants
or to avoid any unreasonable deterioration of the
financial condition of the plan or any
unreasonable increase in the liability of the fund.
If the trustee appointed under subsection (b)
disagrees with the determination of the
corporation under the preceding sentence he may

107a
intervene in the proceeding relating to the
application for the decree, or make application for
such decree himself. Upon granting a decree for
which the corporation or trustee has applied
under this subsection the court shall authorize
the trustee appointed under subsection (b) (or
appoint a trustee if one has not been appointed
under such subsection and authorize him) to
terminate the plan in accordance with the
provisions of this subtitle. If the corporation and
the plan administrator agree that a plan should
be terminated and agree to the appointment of a
trustee without proceeding in accordance with
the requirements of this subsection (other than
this sentence) the trustee shall have the power
described in subsection (d)(1) and, in addition to
any other duties imposed on the trustee under
law or by agreement between the corporation and
the plan administrator, the trustee is subject to
the duties described in subsection (d)(3).
Whenever a trustee appointed under this
subchapter is operating a plan with discretion as
to the date upon which final distribution of the
assets is to be commenced, the trustee shall
notify the corporation at least 10 days before the
date on which he proposes to commence such
distribution.
(2) In the case of a proceeding initiated under
this section, the plan administrator shall provide
the corporation, upon the request of the
corporation, the information described in clauses
(ii), (iii), and (iv) of section 1341(c)(2)(A) of this
title.

108a
(3) Disclosure of termination information
(A) In general
(i) Information from plan sponsor or
administrator
A plan sponsor or plan administrator of a
single-employer plan that has received a
notice from the corporation of a
determination that the plan should be
terminated under this section shall provide
to an affected party any information
provided to the corporation in connection
with the plan termination.
(ii) Information from corporation
The corporation shall provide a copy of the
administrative record, including the
trusteeship
decision
record
of
a
termination of a plan described under
clause (i).
(B) Timing of disclosure
The plan sponsor, plan administrator, or the
corporation, as applicable, shall provide the
information described in subparagraph (A) not
later than 15 days after-(i) receipt of a request from an affected
party for such information; or
(ii) in the case of information described
under subparagraph (A)(i), the provision of
any new information to the corporation
relating to a previous request by an
affected party.

109a
(C) Confidentiality
(i) In general
The plan administrator, the plan sponsor,
or the corporation shall not provide
information under subparagraph (A) in a
form which includes any information that
may directly or indirectly be associated
with, or otherwise identify, an individual
participant or beneficiary.
(ii) Limitation
A court may limit disclosure under this
paragraph of confidential information
described in section 552(b) of Title 5 to
authorized representatives (within the
meaning of section 1341(c)(2)(D)(iv) of this
title) of the participants or beneficiaries
that agree to ensure the confidentiality of
such information.
(D) Form and manner of information;
charges
(i) Form and manner
The corporation may prescribe the form
and manner of the provision of information
under this paragraph, which shall include
delivery in written, electronic, or other
appropriate form to the extent that such
form is reasonably accessible to individuals
to whom the information is required to be
provided.

110a
(ii) Reasonable charges
A plan sponsor may charge a reasonable
fee for any information provided under this
paragraph in other than electronic form.
(d) Powers of trustee
(1)(A) A trustee appointed under subsection (b)
shall have the power-(i) to do any act authorized by the plan or
this subchapter to be done by the plan
administrator or any trustee of the plan;
(ii) to require the transfer of all (or any
part) of the assets and records of the plan
to himself as trustee;
(iii) to invest any assets of the plan which
he holds in accordance with the provisions
of the plan, regulations of the corporation,
and applicable rules of law;
(iv) to limit payment of benefits under the
plan to basic benefits or to continue
payment of some or all of the benefits
which were being paid prior to his
appointment;
(v) in the case of a multiemployer plan, to
reduce benefits or suspend benefit
payments under the plan, give appropriate
notices, amend the plan, and perform other
acts required or authorized by subtitle (E)
to be performed by the plan sponsor or
administrator;
(vi) to do such other acts as he deems
necessary to continue operation of the plan
without increasing the potential liability of

111a
the corporation, if such acts may be done
under the provisions of the plan; and
(vii) to require the plan sponsor, the plan
administrator,
any
contributing
or
withdrawn employer, and any employee
organization
representing
plan
participants to furnish any information
with respect to the plan which the trustee
may reasonably need in order to
administer the plan.
If the court to which application is made
under subsection (c) dismisses the application
with prejudice, or if the corporation fails to
apply for a decree under subsection (c), within
30 days after the date on which the trustee is
appointed under subsection (b), the trustee
shall transfer all assets and records of the
plan held by him to the plan administrator
within 3 business days after such dismissal or
the expiration of such 30-day period, and shall
not be liable to the plan or any other person
for his acts as trustee except for willful
misconduct, or for conduct in violation of the
provisions of part 4 of subtitle B of subchapter
I of this chapter (except as provided in
subsection (d)(1)(A)(v)). The 30-day period
referred to in this subparagraph may be
extended as provided by agreement between
the plan administrator and the corporation or
by court order obtained by the corporation.
(B) If the court to which an application is
made under subsection (c) issues the decree
requested in such application, in addition to
the powers described in subparagraph (A), the
trustee shall have the power--

112a
(i) to pay benefits under the plan in
accordance with the requirements of this
subchapter;
(ii) to collect for the plan any amounts due
the plan, including but not limited to the
power to collect from the persons obligated
to meet the requirements of section 1082 of
this title or the terms of the plan;
(iii) to receive any payment made by the
corporation to the plan under this
subchapter;
(iv) to commence, prosecute, or defend on
behalf of the plan any suit or proceeding
involving the plan;
(v) to issue, publish, or file such notices,
statements, and reports as may be
required by the corporation or any order of
the court;
(vi) to liquidate the plan assets;
(vii) to recover payments under section
1345(a) of this title; and
(viii) to do such other acts as may be
necessary to comply with this subchapter
or any order of the court and to protect the
interests of plan participants and
beneficiaries.
(2) As soon as practicable after his appointment,
the trustee shall give notice to interested parties
of the institution of proceedings under this
subchapter to determine whether the plan should
be terminated or to terminate the plan,
whichever is applicable. For purposes of this
paragraph, the term “interested party” means--

113a
(A) the plan administrator,
(B) each participant in the plan and each
beneficiary of a deceased participant,
(C) each employer who may be subject to
liability under section 1362, 1363, or 1364 of
this title,
(D) each employer who is or may be liable to
the plan under section1 part 1 of subtitle E,
(E) each employer who has an obligation to
contribute, within the meaning of section
1392(a) of this title, under a multiemployer
plan, and
(F) each employee organization which, for
purposes of collective bargaining, represents
plan participants employed by an employer
described in subparagraph (C), (D), or (E).
(3) Except to the extent inconsistent with the
provisions of this chapter, or as may be otherwise
ordered by the court, a trustee appointed under
this section shall be subject to the same duties as
those of a trustee under section 704 of Title 11,
and shall be, with respect to the plan, a fiduciary
within the meaning of paragraph (21) of section
1002 of this title and under section 4975(e) of
Title 26 (except to the extent that the provisions
of this subchapter are inconsistent with the
requirements applicable under part 4 of subtitle
B of subchapter I of this chapter and of such
section 4975).
(e) Filing of application notwithstanding
pendency of other proceedings
An application by the corporation under this section
may be filed notwithstanding the pendency in the

114a
same or any other court of any bankruptcy, mortgage
foreclosure, or equity receivership proceeding, or any
proceeding to reorganize, conserve, or liquidate such
plan or its property, or any proceeding to enforce a
lien against property of the plan.
(f) Exclusive
proceedings

jurisdiction;

stay

of

other

Upon the filing of an application for the appointment
of a trustee or the issuance of a decree under this
section, the court to which an application is made
shall have exclusive jurisdiction of the plan involved
and its property wherever located with the powers,
to the extent consistent with the purposes of this
section, of a court of the United States having
jurisdiction over cases under chapter 11 of Title 11.
Pending an adjudication under subsection (c) such
court shall stay, and upon appointment by it of a
trustee, as provided in this section such court shall
continue the stay of, any pending mortgage
foreclosure, equity receivership, or other proceeding
to reorganize, conserve, or liquidate the plan or its
property and any other suit against any receiver,
conservator, or trustee of the plan or its
property. Pending such adjudication and upon the
appointment by it of such trustee, the court may stay
any proceeding to enforce a lien against property of
the plan or any other suit against the plan.
(g) Venue
An action under this subsection may be brought in
the judicial district where the plan administrator
resides or does business or where any asset of the
plan is situated. A district court in which such action
is brought may issue process with respect to such
action in any other judicial district.

115a
(h) Compensation of trustee and professional
service personnel appointed or retained by
trustee
(1) The amount of compensation paid to each
trustee appointed under the provisions of this
subchapter shall require the prior approval of the
corporation, and, in the case of a trustee
appointed by a court, the consent of that court.
(2) Trustees
shall
appoint,
retain,
and
compensate accountants, actuaries, and other
professional service personnel in accordance with
regulations prescribed by the corporation.

116a
29 U.S.C. §1344. Allocation of assets
(a) Order of
beneficiaries

priority

of

participants

and

In the case of the termination of a single-employer
plan, the plan administrator shall allocate the assets
of the plan (available to provide benefits) among the
participants and beneficiaries of the plan in the
following order:
(1) First, to that portion of each individual's
accrued benefit which is derived from the
participant's contributions to the plan which were
not mandatory contributions.
(2) Second, to that portion of each individual's
accrued benefit which is derived from the
participant's mandatory contributions.
(3) Third, in the case of benefits payable as an
annuity-(A) in the case of the benefit of a participant
or beneficiary which was in pay status as of
the beginning of the 3-year period ending on
the termination date of the plan, to each such
benefit, based on the provisions of the plan (as
in effect during the 5-year period ending on
such date) under which such benefit would be
the least,
(B) in the case of a participant's or
beneficiary's benefit (other than a benefit
described in subparagraph (A)) which would
have been in pay status as of the beginning of
such 3-year period if the participant had
retired prior to the beginning of the 3-year
period and if his benefits had commenced (in
the normal form of annuity under the plan) as

117a
of the beginning of such period, to each such
benefit based on the provisions of the plan (as
in effect during the 5-year period ending on
such date) under which such benefit would be
the least.
For purposes of subparagraph (A), the lowest
benefit in pay status during a 3-year period shall
be considered the benefit in pay status for such
period.
(4) Fourth-(A) to all other benefits (if any) of individuals
under the plan guaranteed under this
subchapter (determined without regard
to section 1322b(a) of this title), and
(B) to the additional benefits (if any) which
would be determined under subparagraph (A)
if section 1322(b)(5)(B) of this title did not
apply.
For purposes of this paragraph, section 1321 of
this title shall be applied without regard to
subsection (c) thereof.
(5) Fifth, to all other nonforfeitable benefits
under the plan.
(6) Sixth, to all other benefits under the plan.
*

*

*

118a
29 C.F.R. §4002.1. Board of Directors, Chair,
and Representatives of Board Members.
(a) Composition and responsibilities of the Board of
Directors—
(1) Board.
Section
4002(d)(1)
of
ERISA
establishes the Board membership as the
Secretaries of Labor (Chair), the Treasury, and
Commerce. A person who, at the time of a
meeting of the Board of Directors, is serving in an
acting capacity as, or performing the duties of, a
Member of the Board of Directors will serve as a
Member of the Board of Directors with the same
authority and effect as the designated Secretary.
(2) Chair of the Board. As Chair of the Board, the
Secretary of Labor will preside over all Board
meetings. As a direct report to the Board under
section 4002(d)(4) of ERISA, the Inspector
General of the Corporation reports to the Board
through the Chair. The Participant and Plan
Sponsor Advocate also reports to the Board
through the Chair.
(3) Board responsibilities. Except as provided in
paragraph (b) of this section, the Board may not
delegate any of the following responsibilities—
(i) Voting on an amendment to these bylaws.
(ii) Approval of the Annual Report, which
includes the Annual Management Report
(AMR) (and its components the financial
statements, management's discussion and
analysis, annual performance report and
independent auditor's report), the Chair's
message, and other documentation in
conformance with guidance issued by the
Office of Management and Budget (OMB).

119a
(iii) Approval of the Corporation's Investment
Policy Statement.
(iv) Approval
of
all
reports
or
recommendations to the Congress required by
Title IV of ERISA.
(v) Approval of any policy matter (other than
administrative policies) that would have a
significant impact on the pension insurance
program.
(vi) Review of reports from the Corporation's
Inspector General that the Inspector General
deems appropriate to deliver to the Board.
(4) Investment Policy Statement review. The
Board must review the Corporation's Investment
Policy Statement at least every two years and
approve the Investment Policy Statement at least
every four years.
*

*

*

120a
APPENDIX G
List of Parties to the Proceedings
Abby, Darrell L.
Abernathy, Jr., Jack Lenford
Acker, Charles F.
Acquavella, Frank Angelo
Adam, Robert E.
Adams, Erich H.
Adams, Randall R.
Adams, Robert A. (Estate of)
Adams, Walter A.
Addington, James T.
Adlington, Paul R.
Agnew, James D.
Ahern, Frank L.
Aigner, Steven A.
Albang, Martin D.
Albrecht, Kurt
Alderman, John P.
Allen, Donald J.
Allen, James R.
Allen, Robert T.
Allen, Ronald E.
Allen, Ronald J.
Allen, Jr., Robert Raegan
Alvarez, Richard E.
Amabile, Nicholas L. (Estate of)
Ames, Donald L.

121a
Anderson, Alan James
Anderson, Andrew J.
Anderson, Clyde A.
Anderson, J. Eric
Anderson, John C.
Anderson, John M.
Anderson, Peter D.
Andrews, Harry W.
Anglin, Francis C.
Anich, Louis P.
Archer, Gregg B.
Argo, Jr., John T.
Armstrong, James L.
Arndt, Roger F.
Arnold, William E.
Arnold, II, James F.
Asay, Donald E.
Ascher, David P.
Ash, Vernon G.
Ashworth, David B.
Askins, Robert D. (Estate of)
Aucin, Lawrence F.
Auer, Bernard J.
Austin, David S.
Avant, Thomas W.
Averett, Gregg H.
Averett, James H. (Estate of)
Aversman, James R.
Avirett, William U.

122a
Avramovich, Jim L.
Babler, Myron J.
Bachman, Leroy R.
Baggett, Linwood M. (Estate of)
Bailey, David Wayne
Baird Jr., James Garitty
Baker, Carson V.
Baker, Larry W.
Baker, Marvin C. (Estate of)
Baker, Samuel W.
Bales, III, Arthur W.
Ball, John D.
Ballance, Jr., Harry G.
Barber, Gregory W.
Barber, Raymond E.
Barefoot, Thomas R.
Barlow, Jr., George D.
Baron, Doug E.
Barr, George
Barrett, Benjamin B.
Barrett, Jr., Paul H.
Bartenfeld, Chelsea LeVone
Bartlett, Jerry N.
Barton, Jon H.
Bates, Leslie E. (Estate of)
Bauer, Gerald H.
Bauer, Russell C.
Beardsley, Frederick J. (Estate of)
Beaubien, III, James William

123a
Beavers, Bruce M.
Beck, Richard A
Beck, Thomas V.
Becker, George L.
Beckman, Robert W.
Beede, William Patrick
Behrens, Earl H.
Bell, Raymond L.
Belline, Louis A.
Bellury, Timothy W.
Benham, Robert B.
Bennett, Sterling N.
Benson, Charles A.
Bentley, Tommy R.
Bentson, Roy B.
Berg, George E. (Estate of)
Berk, Dean H.
Berman, Steven D.
Berry, Damon R.
Berry, Ronald James
Best, Douglas E.
Bethel, Charles E.
Bettcher, James R.
Bezdek, Leo D.
Bible, Jr., Charles L.
Biles, Jr., George L.
Bilotta, Jr., Joseph P.
Biniasz, Albert C.
Birchall, Jack L. (Estate of)

124a
Birge, John H.
Birmingham, Michael
Bissell, Joseph H. F.
Black, Christopher S.
Black, Reuben
Blackmon, Johnny Hopper (Estate of)
Blackwell, Byron R.
Blackwood, Steven L.
Blanton, Robert A.
Blaskovich, Michael S.
Blaz, Claudia Ann for the Estate of Delbert Schwab
Blaz, Jack G. (Estate of)
Bloink, Robert J.
Blomgren, Roy
Bloom, Wade D.
Blosser, George E.
Blubaugh, David E.
Bluhm, Robert H.
Boatwright, Ralph N.
Bober, Michael John
Bodine, Jr., William R.
Bodmer, John A.
Bodnar, James J.
Bogle, Kenneth J
Bolier, Michael R
Bolin, Duane A.
Boltz, Ronald O.
Bomar, III, James S.
Bommer, William P.

125a
Bonaccorso, Robert F.
Bonny, Jr, Ross F.
Boone, Jr., Frederick O.
Boone, Lloyd D.
Borchert, Frederick C.
Borland, Bruce F.
Bos, Leland R.
Boston, Douglas M.
Bottoms, Sr., Frank M.
Boustead, Barry C.
Bowen, Michael M.
Bowlin, Connie J.
Bowlin, Ed M. (Estate of)
Boyce, Allen W.
Boyd, Jan (Jake) K.
Boyd, John Earl
Boyd, Jr., Dan Lionel (Estate of)
Boyle Jr, William E.
Bradford, Donald O.
Bradley, Richard
Bramsen, Bryce L.
Brandon, Robert A. (Estate of)
Brant, William C.
Brasher, James C.
Braswell, Oscar D.
Braswell, III, Ralph M.
Bratton, Charles M.
Bray III, Charles B.
Brekke, James A.

126a
Brennison, Thomas A.
Bridges, W. Charles
Bridges, Jr., Daniel W. (Estate of)
Brindell, William F. (Estate of)
Brintnall Sr., William E.
Bristow, Larry W.
Brito, Harold S.
Brock, Penny for the Estate of William L. Brock
Brockway, Charles Lloyd
Broderick, Ralph S.
Bronson, William E.
Brooks, Jimmie L.
Brooks, William C.
Bross, Stephen P.
Brown, Andrew P. (Estate of)
Brown, Charles Edmond
Brown, David A. (Estate of)
Brown, Fred M.
Brown, Kurt H. (Estate of)
Brown, Mark J.
Brown, Melvin L.
Brown, Michael W.
Brown, Randall H.
Brown, Robert Craig
Brown, Robert G.
Brubaker, Robert K.
Bruce, David W.
Brunasso, Leonard C.
Brundridge, Ronald Gene (Estate of)

127a
Brushwyler, Robert W. (Estate of)
Bryant Sr., Robert M.
Bucklin, William G.
Buczek, Henry T. (Estate of)
Budd, Thomas C.
Buergey, William C.
Buettner, Carl
Bukaty, Andrew L.
Bulger, John F.
Bumgarner, Charles R.
Bundrick, Myrl W.
Buntin, William Russell
Burch, Clarence Milton
Burge, James L.
Burgess, Jerald
Burgy, Larry J.
Burke, Edward Devin
Burke, Jr., Patrick J.
Burkhardt, Winston D.
Burkhead, Ferree R.
Burnett, Gerald R.
Burnett, Raymond (R.C.) C. (Estate of)
Burnfield, Charles D.
Burns, John Forrest
Burns, Robert M. (Estate of)
Burns, Robert D.
Burton, Dennis E.
Burton, Geren E.
Bushey, Donald J.

128a
Butler, Ronald
Butler, III, Samuel B.
Butt, Thomas P.
Byde, Thomas E.
Bye, Raymond
Byrd, James
Byrd, Lester M.
Byrne, John C. (Estate of)
Byrnes, Phillip J.
Cagle, James V.
Cahill, Michael J.
Caiazza, Albert W.
Cain, John B.
Caldwell, John G. (Estate of)
Callahan, Clarence W.
Callanan, Dana A. (Estate of)
Callaway, William Edward
Calvanelli, Thomas J.
Camp, Donald L.
Camp, Jr., Benjamin M.
Campbell, Alan
Campbell, Arthur L.
Campbell, Robert K.
Campbell, Jr., Therman L. (Estate of)
Candelario, Buddy W.
Cann, David J.
Cannon, Charles M.
Cardinale, Patrick A.
Carlon, Charles A.

129a
Carman, Timothy L.
Carmical, Jr., Robert Louis
Carmichael, Walter C.
Carpenter, Craig W.
Carpenter, James D.
Carr, Jack E.
Carrington, Henry Gary
Carson, Robert A.
Carter, James Larry
Carter, John R.
Carter, Timothy J.
Caruso, Francis (Frank) T.
Casada, Laurence L.
Casale, Lawrence C.
Caster, Robert J.
Castle, Clayton N. (Estate of)
Catchings, John P.
Catoni, Frederic N.
Caughman, III, John S.
Cauldwell, Malcolm D.
Causey, Olin H.
Cavanagh, Michael B.
Cavato, Marty J.
Caylor, Edward N.
Cerak, John P.
Ceraso, Charles David
Chabot, Richard Charles
Chaffin, Mark S.
Chambless, Edward L.

130a
Champa, David A.
Champley, Thomas A.
Chauvin, Charles E.
Cheatham, III, Robert Tracy
Chen, Ely
Chirhart, Kenneth G.
Christensen, Noble C.
Church, Jerry A. (Estate of)
Churchel, Gene E. (Estate of)
Cianci, James J.
Cinibulk, Robert
Cintron, Eric L.
Clancy, Dion
Clark, Bryan R.
Clark, David J.
Clark, Forrest
Clark, George B.
Clark, Richard L.
Clausen, Christian M.
Clay, Stuart M.
Cleveland, Craig D. (Estate of)
Click, Alan R.
Clifford, David W. (Estate of)
Clifford, Timothy C.
Cloes, Glenn D.
Closson, Spencer W.
Closson, Jr., Luke E.
Cloudt, James D.
Cloutier, Maurice B. (Estate of)

131a
Cochran, James C.
Cochran, Mac H.
Cody, Edward Emmett
Coe, Richard Eric
Coffin, John E.
Colby, James S.
Colby, Richard Emory (Estate of)
Cole, Jr., Clifford I.
Colegrove, William D.
Coleman, Craig S.
Coley, George S.
Collins, Sr., Donald B. (Estate of)
Collins, Stan N.
Coloney, Eric M.
Colston, Phil E.
Compton, James D.
Compton, Raymond D.
Conaboy, Michael J.
Conrad, Edwin L.
Content, Dale M.
Cook, Darwin F.
Cooley, John Eugene
Cooper, Ronald T.
Cooper, William A. (Estate of)
Cooper, Jr., John B.
Copeland, David Joe
Coppola, Henry N.
Corder, Robert D.
Cordero, Denise Brown

132a
Costa, Pat A.
Costas, John N.
Costilow, Bobby W .
Coughlin, Joseph A. (Estate of)
Courtney, Daniel H. (Estate of)
Cousar, Harold W.
Cox, Michael L.
Crabtree, Michael C.
Craft, Robert D. (Estate of)
Craig, James R.
Craine, Richard Phillip
Crawford, Stephen M.
Crawford, Stephen R.
Crawford, Jr., Dohrman G.
Crispe, Ronald E.
Croasdale, Thomas K.
Crockett, Kenton W.
Crofton, John D.
Cronin, Edward C.
Crookston, James A.
Crotty, John W.
Crow, Charles W.
Crow, Richard D.
Crow, Jr., Samuel W.
Cuddeback, Robert L.
Cullen, Bruce J.
Cullings, Mark S.
Culpepper, David G.
Cunningham, William S.

133a
Cunningham, William Tolliver
Curry, Walter R.
Curtis, Gary L.
Curtis, Richard Lee (Estate of)
Curtiss, Clark A.
Cusick, Terry L.
Daley, John M.
Dambrie, Fred J.
Daniel, Ray A.
Dantzler, Bruce E.
Daugherty, II, Frank William
Davis, David McCall
Davis, Guy W.
Davis, Jr., James W.
Davis, Robert W.
Davis, Ronald S. (Estate of)
Davis, Thompson Henry
Davis, III, George Trent
Dawson, Charles P.
Day, Thomas
Deane, Andrew M.
Dearden, Rex L.
Dearie, John R.
DeAugustinis, William C.
Decker, Robert G.
Degnan, James Edward
DeGuire, Dennis A.
DeLine, William R.
DeLuca, James R. (Estate of)

134a
DeMarino, Michael E.
Dement, Bruce H.
deMoss, Bruce T.
Dempsey, David D.
Derr, Robert J.
Derrick, John A.
Deschner, Patrick L.
Destefano, Jr., Thomas M.
Detwiler, Mark J.
Detwiler, Wesley R.
Develis, Joseph A.
Dicke, Gary D.
Dickson, Jr, Lewis H.
Disosway, John F.
Dixon, Charles A. (Estate of)
Doherty, Francis A.
Dolan, Richard M.
Dolan, Sr., Dennis J.
Donato, Aurelio O.
Donckers, Ron L.
Doonan, Jr., William W.
Doubler, Bernard J.
Draffin, James P.
Drake, Roger E.
Dreiling, Gerard F.
Dresser, Paul F.
Dressler, David C.
Drover, Sr., Glenn F. (Estate of)
Dubick, George Francis

135a
Duclos, Roger A.
Duerson, Stuart T.
Duggin, Michael D.
Dunlap, James V.
Dunn, Bowman A.
DuRant, Cecil J.
Dvoracek, Albin B.
Dvorak, William C.
Dwyer, Robert J.
Dye, James W.
Eadie, Donald J.
Earley, Jr., John G.
Easley, Richard J.
Easterlin, William M.
Eastis, David W.
Eaton, Brian J.
Eberhardt, Dennis M.
Eccard, Larry
Eckert, John E.
Edmondson, Joseph F.
Edson, Robert A.
Edstrom, Eric A.
Ehmer, James S.
Eisenburg, Marcy M.
Eison, III, Claude B.
Elder, Joseph M.
Eldridge, William F.
Ellis, Joseph C.
Ellis, Paul C.

136a
Elmore, Jimmy D.
Engelbrecht, Donald J.
English, Lewis W.
Engren, Douglas G.
Entrekin, Jr, Herbert L.
Erckmann, Francis P.
Erickson, Wayne P.
Ervin, III, Charles E.
Esselman, George D.
Etherington, Wiliam W.
Etter, George W.
Eulenfeld, Sr., Benjamin R.
Eveland, Roy R.
Evens, Thomas G.
Everill, Peter D.
Everson, Jr., Kendall W.
Every, Emmet R.
Fagundes, Joseph M.
Falconer, William J .
Fallon, Jr., Peter J .
Farinas, George G.
Farnsworth, Gary M.
Farquhar, Jerry L.
Farrell, Donald
Fatuzzo, Jr, Joseph A.
Faunce, III, John H.
Feierabend, Carl W.
Feldman, Willilam M.
Fenton, Larry W.

137a
Ferguson, James T.
Fernandez, Ralph J.
Fichter, Gary L.
Fields, James H. (Estate of)
Fife, Thomas C.
Fink, James O.
Finken, Stephen C.
Finley, John W.
Fisher, Charles S.
Fisher, Douglas F.
Fisher, Thomas M.
Fitzgerald, James Timothy
FitzGibbons, Robert J.
Fitzpatrick, John J.
Fleming, David E.
Fletcher, Claude F.
Flocco, James Lee
Floyd, John W.
Floyd, Michael R.
Fogarty, Gerald M.
Fogwell, George C.
Foley, Michael J. (Estate of)
Fonde, Richard I.
Fontaine, Richard C. (Estate of)
Foote, John H.
Ford, Frederick C.
Ford, Jr., John T.
Formby, Ronnie R. (Estate of)
Foster, Bobby R.

138a
Foster, Travis H.
Fougner, Cyd L.
Fow, John C.
Frayser, III, Walter E.
Frazer, Stuart A.
Freeding Jr., Richard A.
Friedman, Steven M.
Fritz, Gene S.
Frontczak, Jr., Arthur T.
Fryman, Kathleen for the Estate of Donn L. Fryman
Fuller, George C.
Fuller, Jr., Roger D.
Fulleton, Allen J.
Fulmer, Bobby M. for the Estate of Richard L. Fulmer
Gaasch, Roland C.
Gaillard, William Bradley
Gaines, Alan L.
Gallagher, Frederick G.
Gallagher, Jr., William R.
Galvin, Timothy J.
Gandre, George P.
Gannon, Thomas H.
Gantt, Jr., Thomas E.
Gardner, James B.
Gardner, Richard D.
Garner, James L.
Garrison, Jesse R.
Garver, Philip L.
Gay, Jr., Charles Bateman

139a
Geerlings, Jon L. (Estate of)
Geisler, Shelia for the Estate of Michael M. Geisler
Genellie, Jr., Gerard F.
Gentile, Nicholas A.
Geoghegan, John C.
George, James G.
Gianforte, John R.
Gibbons, Thomas D. (Estate of)
Gibson, George L.
Gilmer, Thomas J.
Gilmore, Charles P.
Glantz, Richard E.
Glazier, Patrick M.
Glittenberg, Donald R.
Godsey, Jan M. (Estate of)
Goduti, Frederick Lawton
Goeken, William (Estate of)
Goff, Jr., William G. (Estate of)
Goltry, Wallace H. (Estate of)
Gooch, Richard A.
Goode III, James J.
Goodman, Robert A.
Goodman, Thomas B.
Goodrich, Jr., Lawrence Frank
Gordon, Fred G.
Gorman, Jr., Edward J.
Gottschang, John C.
Goulding, Jerry C.
Grandia, Dwight E.

140a
Graves, Edward P.
Gray, James H.
Gray, Stephen R.
Green, Jerome F.
Greene, Jr., Otis Jarield
Gregg, Charles N.
Gregg, Wayne D.
Gresham, Jr, Tyler R.
Grice, Stephen T.
Grieser, Gerald G.
Griesinger, Robert D.
Griffin, Lloyd H.
Griffith, William A.
Griffiths, Lee E.
Grippo, Lawrence A.
Groff, Douglas
Gross, Kenneth R.
Gross, Jr., Kenneth E.
Grove, Thomas W.
Grubb, Ronald E.
Gruebnau, Paul J.
Grynkewich, Nicholas E.
Gum, Michael E.
Gunn, Stephen M.
Haase, Alexander M. (Estate of)
Hagle, Carol W. (Estate of) for the Estate of Conrad
H. Hagle
Haglund, Robin Jeffrey
Hair, Charles A.

141a
Halcomb, Jr., Robert D.
Hale, Ronald
Haley, Joseph R.
Hall, Creston D.
Hall, Frederick S.
Hall, Jeffrey F.
Hall, Micheal H.
Hall, Robert F. (Estate of)
Hall, Steven D.
Hallam, II, Thomas W.
Halsor, Mark D.
Hambleton, III, Bertram Leslie
Hamme, Curtis S.
Hammon Jr., Milton E.
Hamrick, Jr., Wendell H. (Estate of)
Hand, Ernest L.
Hansen, David E.
Hansen, Donald L. (Estate of)
Hanson, Gregg O.
Hardy, Philip J.
Harmon, Hobart M.
Harper, James S.
Harper, John Edwin
Harper, Malcolm L. (Estate of)
Harper, Wayne D.
Harris, Frederick B.
Harris, Richard C.
Harris, Robert D. (Estate of)
Harrison, Albert V.

142a
Harrison, John C.
Harrover, John S.
Hart, William M.
Harter, Jr., Nile L.
Hartle, Christopher R.
Harvey, Larry E. (Estate of)
Harvison, Deborah for the Estate of Dennis W.
Harvinson
Hassey, Thomas E.
Hauf, James G.
Hawkins, William "Bud" A.
Hay, William M. (Estate of)
Hayden, Harvey Lloyd
Hayes, Kenneth M.
Hayes, Richard R.
Haynes, Jimmy R.
Hazen, David R. (Estate of)
Hearnsberger, Eric
Heath, John P.
Hedges, David M.
Hedlund, Joel R.
Heidt, William S.
Heimer, Ralph E.
Heins, Peter S.
Heinz, Carl
Hendren, Carl M.
Hendrickson, Richard N.
Hendrickson, Warren B.
Henry, Jr, Donald F.

143a
Hensler, John Dee
Hernes, Burnett A.
Herriott, Robert P.
Hersha, Scott C.
Hertz, Gustav S.
Herzog, Richard E.
Hess, Fred G. (Estate of)
Heuchling, Robert K.
Heusinkveld, Daryl L.
Hibbard, Edward L.
Hichak, Michael Joseph
Hickey, Michael G.
Hickox, David G.
Higgins, Ernest W.
Higginson, Carl R.
Hilbig, Peter L.
Hill, Herbert D.
Hill, Robert M.
Hillegas, Robert A. (Estate of)
Hindle, Edward J. (Estate of)
Hindman, Marion D.
Hinds, Rodney S.
Hines, Edward A.
Hines, Johnny H.
Hines, Jr., William C.
Hinkle, Jr., Elmer E. (Estate of)
Hirsch, Richard R.
Hissem, Richard D.
Hobbs, Robert W.

144a
Hobert, Donald L.
Hodge, Fred P.
Hodges, Warren J. (Estate of)
Hoffman, Ross M.
Hogan, John V. (Estate of)
Hohlowski, Richard
Holahan, Peter M.
Holdiness, Philip C.
Hollister, Jack D.
Holloway, Daniel E.
Holmes, Richard N.
Holmes, Stephen G.
Holmes, Jr., Judson W.
Holt, Thomas D.
Honsinger, John H.
Hoogerwerf, James J.
Hooper, Richard W.
Hooper, Victor J
Hope, Harry
Hopkins, 3rd, Stephen V.
Hornfeck, Jeffrey N.
Horrell, Roger T.
Horton, III, Charles W. (Estate of)
Hourin, James J.
Houseman, William B. (Estate of)
Hovey, Julian R.
Hovrud, David L.
Howson, Jr., Robert C.
Hudson, Gurves R.

145a
Hudson, Paul J.
Huffmaster, Donald A
Hughes, Jerry Milam
Hughes, Joe H.
Hull, George G. (Estate of)
Hull, Herbert D. (Estate of)
Hulsey, Joe Foy
Hunter, Tommy M.
Husemann, Arnold Wm.
Hutson, III, James Leroy
Hyde, Donald F.
Hyjek, Michael L.
Ice, Allen M.
Igoe, Jr., James J.
Illies, Curtis A. (Estate of)
Ilyin, Kathleen for the Estate of Michael Ilyin
Ingham, James A.
Ingram, John M.
Ippolito, William L.
Irving, Delmont S.
Jackson, Timothy H.
Jacobus, Thomas J. (Estate of)
James, Kenneth C. (Estate of)
Jameson, Robert Q.
Jenkins, David H.
Jensen, Russell H.
Jensen, William L.
Jetton, George
Jewett, Robert W.

146a
Johanson, Alan J.
Johnson, Christopher W.
Johnson, Clinton B.
Johnson, Dennis A.
Johnson, James Allen
Johnson, James B.
Johnson, Jeffrey B. (Estate of)
Johnson, Lance J.
Johnson, Robert L.
Johnson, Sheldon P.
Johnson, Stephen E.
Jolly, III, Hoyt A.
Jones, Dennis B. (Estate of)
Jones, Edmund R.
Jones, James Austin
Jones, James Lofton
Jones, James R.
Jones, Larry E. (Estate of)
Jones, Leon M. (Estate of)
Jones, Richard Dean
Jones, Richard L.
Jones, Robert H.
Jones, Roger N.
Jones, Ronald C.
Jones, Scott R. (Estate of)
Jones, Thomas L.
Jones, William Pickens
Jones, Wilton R.
Jones, Jr, William D.

147a
Jordan, Patric
Jorgensen, Samuel C.
Jorgensen, Stanley A.
Jump, William G. (Estate of)
Just, Peter G. (Estate of)
Justinic, Raymond F.
Kadetz, David H.
Kailing, Gerald R.
Kaiser, Arthur H.
Kalember, Duane D.
Kamback, Alan Clinton
Kammerer, George G.
Kanaley, Jr., Thomas F.
Kane, Robert
Kapp, William
Kapsaroff, John C.
Karantz, Robert Lee
Karlovich, John M.
Kaseman, Jeffrey M.
Kasemeier, Douglas G.
Kasold, Edward Frederick (Estate of)
Katka, Doran W.
Kattula, William J.
Kauffmann, Jr., Richard X.
Keating, R. Ford
Keibler, Stephen Irons
Kelley, Phillip J. (Estate of)
Kellner, William Weitzel (Estate of)
Kellum, Billy H.

148a
Kelly, Bernard L.
Kelly, Jack S. (Estate of)
Kelly, Michael R.
Keltner, Richard E.
Kendall, Barry G.
Kenna, Thomas C.
Kennedy, John A.
Kenney, Lawrence J.
Kerr, David T. (Estate of)
Kerr, Jr., Herb Field (Estate of)
Kerschner, William F.
Kesler, Robert Walter
Ketelsen, Lee H.
Kettenring, Jr., Alfred W.
Key, Eugene W.
Kilgore, Kim B.
Kinder, Thomas D.
King, John C.
King, Mark L.
Kingsbury, Robert W.
Kinnebrew, III, Lee
Kirijan, Fred Joel
Kirk, Alfred E.
Klauer, Robert F.
Klein, Kirby J.
Klindt, Michael J.
Klock, Randolph Lee
Klock, Ruth M.
Klumpp, William F.

149a
Knapp, Gerald A.
Knehr, George H.
Knox, William E. (Estate of)
Knudson, Charles M.
Kobernik, Ronald K.
Kocisko, Lawrence Michael
Koerner, Jr., Daniel E. (Estate of)
Kolb, Ronald (Estate of)
Kontor, Attila
Kopack, Daniel A.
Koppie, Chad N.
Korcheck, Stephen M
Kornegay, Linwood Cecil
Korthals, Ronald L.
Kouba, Lambert (Bert) L.
Kozimer, Kenneth G.
Kraby, Arnold W.
Kraft, Richard L.
Kraker, Lawrence L.
Kramer, David W.
Krayniak, George L
Krone, Robert E.
Kruger, Paul M.
Krygiel, Joseph J
Kukier, Jesse V.
Kull, Frederick J.
Kupresin, Sam H.
Kutner, Michael B.
LaBerge, Phillip R. (Estate of)

150a
Ladd, Jr, Chester R.
Lake, David C.
LaLiberte, Wayne Richard
Lambe, Ronald J.
Lamkin, Craig Smith
Lammers, Ross and Paula L.
Lamons, Timothy O.
Lance, Robert P.
Lane, Douglas A. (Estate of)
Lane, Margaret A. for the Estate of Richard G. Lane
Langas, Carl D.
Langer, Rodney E.
Langworthy, Ted F.
Lanz, Enrique J.
LaPointe, Arthur L.
Larsen, Tryggve F.
Larson, Allen L.
Larson, Charles D.
LaRue Jr., Wayne B.
Lawrence, Robert N. (Estate of)
Lawson, Robert Edward
Layman, Timothy K.
Leadingham, Joseph B.
Leatherbee, William E.
Leatherbury, George W.
LeBoutillier, Jr., Thomas (Estate of)
Lee, Robert H.
Lehman, Brian L.
Leineke, Alan L. (Estate of)

151a
Leistikow, Alfred W.
Lemma, Dominic Christian
Lenard, Jr., Charles P.
Lenny, Peter J.
Lesher, Jr., John H.
Lester, Benjamin N.
Letkeman, Michael B. (Estate of)
Lewis, Donald W. (Estate of)
Lewis, Kenneth Wendell
Lewis, Roger Allan
Lindberg, Paul R.
Linder, Jr, John I.
Lindley, Robert F. (Estate of)
Lindsey, Magness A.
Lindstrom, John D. (Estate of)
Link, David L.
Linkroum, III, William H.
Linteris, Richard L.
Linton, Sidney E.
Lloyd, Michael F.
Loeber, Alexander W.
Lomba, Jr., Robert S.
Lord, William R.
Lovas, Andre E.
Loveless, Billy R.
Lovell, William A.
Lowe, Larry L.
Lowry, Charles F.
Lowry, Jr., Carl

152a
Lucas, Charles L.
Lucas, David N.
Ludwig, Herbert D.
Lumley, William B.
Luplow, Kenneth
Lutz, Stephen Donald
Lynch, John Lawrence
Lynch, Jr., James D.
Lyster, James
Machovina, William M.
Mackey, Robert J. (Estate of)
Mackintosh, III, Donald
Macko, Ronald R.
Macomber, Mark B.
Madden, Edward
Madigan, Edwin F.
Magaro, Ray F.
Maglio, Anthony G.
Maguire, John P.
Mairose, Donald F.
Malone, Dan P. (Estate of)
Mangham, James M. (Estate of)
Manke, Joseph W.
Manstrom, John C.
Mantei, Ronald H.
Marr, Larry W.
Martella, Michael B.
Martin, Daryl T. (Estate of)
Martin, Earl J.

153a
Martin, Hall A. (Estate of)
Martin, Kenneth E.
Martin, Richard J.
Martin, Roger
Martin, Thomas S.
Martin, Jr., George T.
Martin, Jr., Solomon G.
Marzolino, Phillip S.
Mason, David T.
Mason, David W.
Mason, Manfred
Mason, Nathan L.
Massey, Walter M. (Estate of)
Mastronardi, John A. (Estate of)
Matherne, Mark H.
Mathews, Arthur B.
Matthews, James R.
Matthews, Kenneth R.
Matthews, William T.
Mattingly, David L.
Maxwell, Jr., Ernest R. (Estate of)
May, Robert M.
Mayer, John S.
McAbee, Jr., Louis H. (Estate of)
McAfee, Jr., Frank M.
McBride, Walter G.
McBride, William B.
McBride, William F.
McBrier, Timothy A.

154a
McCann, James H.
McCarter, Truman M.
McCarthy, Mark S.
McCarthy, Richard M.
McCauley, Keith Charles
McCloskey, James L.
McCormick, Jackie P.
McCormick, Thomas D.
McCrary, Reginald J. (Estate of)
McCue, Daniel M.
McCurdy, John A.
McElroy, Daniel J.
McElroy, Peter A.
McEncroe, Jr., Jack R.
McEvoy, Robert E.
McEwan, Llewellyn P.
McGaw, Steven B. (Estate of)
McGibney, Michael David
McGirl, Patrick (Estate of)
McGrath, Michael P.
McGreevy, Stephen R.
McHargue, Gary R.
McHenry, David T.
McIntosh, James
McKelvey, David
McKibben, Thomas J.
McLain, John Mark
McMahon, Daniel B.
McMillan, Jon V.

155a
McNeill, David R.
McNeill, George V.
McPherson, Alan M.
Measles, Bobby G.
Mecom, Jim H.
Meloy, Thomas A.
Mercer, Gene G.
Meredith, Jack L.
Merena, David B.
Merkley, Thomas R.
Merrell, Robert H.
Merrill, Alma Brent
Merrill, Wayne R.
Messier, Philip A.
Messmore, Michael Henry
Metlick, Wesley R.
Mewhirter, James R.
Meyer, Thomas A.
Miller, Dave A.
Miller, Gary L.
Miller, John (Estate of)
Miller, Robert A. (Estate of)
Miller, Thomas J.
Milligan, Jr., William F.
Milliken, John L.
Miltenberger, Michael Jeffrey
Mitchell, Robert E.
Mobley, Harold R.
Moll, George A.

156a
Monahan, Sr., Timothy P.
Monesmith, Glenn A.
Mongold, Joseph W.
Montague, Harry J.
Montgomery, Kenneth
Montoya, Ronald R.
Moody, Victor R. (Estate of)
Moore, Larry A.
Moore, Paul L.
Moore, Robert Lowery
Moore, Roger O.
Moran, John D.
Morey, Edward L.
Morgan, Gregory C.
Morgan, Howard B.
Morgan, John
Morgan, Robert M.
Morgan, Jr., Walter T.
Morgan. Jr., John B.
Morris, Gregory L.
Morris, Jerry L.
Morris, Thomas H.
Morrison, Robert J.
Moser, Robert D.
Motley, Paul B.
Motschman, Jerye
Moyer, Gordon S.
Moyer, Jr., Gilbert H.
Mullan, Brian Francis

157a
Mullaney, Michael J.
Mullen III, John T.
Mullin, Michael J.
Mumme, David E.
Murdoch Jr., John G.
Murphy, Hugh R.
Murphy, Roger W.
Murphy, Terance P.
Murphy, Jr., H. Stetser
Murray, Samuel J.
Murray, Scott B.
Musser Jr., Kenneth Daryl
Nagy, Steve B. (Estate of)
Nahas, Rafik E.
Najarian, Harold M.
Nance, Jr., John A.
Nardecchia, Philip M.
Natho, Jr., Paul
Neagle, Paul F.
Neider, Robert J.
Neidlinger, Darryl M.
Nelan, James J. (Estate of)
Nelson, William D. (Estate of)
Nelson, Robert A.
Nelson, William A. (Estate of)
Nesz, Richard H.
Nevins, Christopher F.
Newbold, John S.
Newkirk, Kenneth A.

158a
Newlin, Robert C.
Nichols, Greg
Nichols, Stephen E.
Nichols, Jr., Forrest Rhea
Nicotri, Robert A. (Estate of)
Niven, Charles P.
Norred, Curtis R.
Norris, Vernon R. (Estate of)
Nowicki, Steve W.
Nutt, James H.
OBrien, David F.
O'Brien, Robert M.
O'Connor, Kevin J.
Odom, Clinton M.
Olbright, Lawrence D. (Estate of)
Olson, Darrell V.
Olson, Gerald R.
ONeal, Robert J.
O'Neill, Kenneth John
Opbroek, Michael G.
O'Rourke, Edwin L. (Estate of)
Orrie, Ralph R.
Ortman, James W.
Osborn, Charles W. (Estate of)
Otten, Raymond E.
Owens, Dennis E.
Owens, Sr., John D.
Ozment, Charles M.
Pace, Martin

159a
Paciolla, Anthony F.
Padgett, Douglas M.
Palmer, Daniel C.
Palmer, Donald A.
Palmer, Stetson G.
Pancharian, James J.
Pankey, III, William Allen
Pannell, Alvin F. (Estate of)
Pantesco, William J.
Papandrea, Anthony R.
Papera, Richard P.
Papineau, Harry C.
Parham, Elbie A.
Parham, Robert A.
Parker, David A.
Parker, James Philip
Parkinson, Thomas P.
Parr, Kenneth M. (Estate of)
Parsons, John E. (Estate of)
Parsons, Robert M.
Pascal, James B. (Estate of)
Pate, James R. (Estate of)
Patton, Tommy V. (Estate of)
Payne, Frederick B.
Payne, James M.
Payne, Jeffrey C.
Peace, III, Samuel T. (Estate of)
Pearce, Sr., Kay Braxton (Estate of)
Pearce, Marc E.

160a
Pearson, Marce
Peart, Martha M.
Peart, Jr., John Albert R. (Estate of)
Peele, Willis M.
Pell, John K.
Pepper, Richard E.
Perry, George L.
Perry, Jr., John S.
Peters, Kenneth J.
Peters, Thomas H.
Petersen, Alan K.
Petersen, II, George W.
Peterson, Larry Willard
Peterson, Robert L.
Petritz, George L.
Phelps, Kenneth W.
Piacentino, Anthony P.
Pickell Jr, Donald L.
Pieczko, James Michael
Pierce, Albert L. (Estate of)
Pierce, Harvey A.
Pierson, Jr., Carl V.
Pike, Dennis LaBarre
Pike, Jr., Robert Prescott
Piltz, Donald W.
Pinkston, Charles M.
Pisano, Jr., John Alexander
Pitts, William E. (Estate of)
Plain, John R.

161a
Platts, Richard P. (Estate of)
Plewes, David S.
Plummer, David A.
Poe, Joseph C.
Pohl, Richard T.
Pohlmeyer, Jack M.
Pohoski, James
Poplet, Keith R. (Estate of)
Porter, Pat K. (Estate of)
Poteet, William T.
Poust, Charles E.
Powell, Jr., Prince S.
Pratt, Michael A.
Pressler, Gary N. (Estate of)
Preston, Michael J.
Price, Alan W.
Price, Michael J.
Primich, Charles G.
Prox, Ron (Estate of)
Prucha, James T. (Estate of)
Pupich, George S. (Estate of)
Purtell, Theodore F.
Quale, Richard B.
Quarles, James T.
Quilter, II, Charles J.
Rabe, Louis Frederick
Ralston, David D.
Rambo, Robert P.
Randolph, David Robert

162a
Raphael, Stephen T.
Rasch, Anthony A.
Rathbun, Charles D.
Ratliff, Jr., James G.
Ray, Jr., Clarence E
Raymond, Carl W. (Estate of)
Raymond, Terry Alan.
Reagor, Mary K.
Reaume, Ronald R.
Reed, Gary Lee.
Reed, Jerry K.
Reel, Harry J
Reese, James W.
Rehnstrom, Edward E.
Reidinger, Francis Carl (Estate of)
Reinhard, David J.
Reinhart, Ronald A. (Estate of)
Remley, David M. (Estate of)
Remont, David R.
Repp, Paul F.
Rezeau, Gary L.
Rhoades, Corlin-Ann Brooks
Rhyne, Gregory L.
Rhyne, Jr., Plato S.
Richards, George K.
Richards, Thomas M.
Richardson, James B.
Rickley, George
Riddick III, James T.

163a
Rieder, Christopher R.
Riese, Carl H.
Riffey, Jr., Douglas G.
Rifkin, Bennett L.
Riggins, Noel L.
Riley, Michael F.
Riley, Victor A.
Rinderknecht, Ronald Paul
Rineman, Jon R.
Rioux, Robert R. (Estate of)
Ritter, Gary W.
Rivers, Jere W.
Roach, Sr., Dale A. (Estate of)
Roan, Thomas P.
Robb, Patrick
Roberts, David L.
Roberts, James R.
Roberts, William P.
Roberts, III, Eugene A.
Robertson, Dan W. (Estate of)
Robertson, Irene C. for the Estate of James F.
Robertson
Robertson, Max A.
Robertson, Neil A.
Robertson, Scott
Robertson, William G.
Robnett, Dean E. (Estate of)
Rodammer, Larry L.
Rodgers, Knox

164a
Rodnon, Steven R.
Rodway, William J. (Estate of)
Rogers, George M.
Roland, Ronald W.
Rollow, Lawrence D.
Romero, Laurence M.
Rosen, James M.
Ross, Roger D.
Rounds, Douglas T. (Estate of)
Rowland, Mitchell L. (Estate of)
Roy, Allan H.
Royall, Robert T. (Estate of)
Ruble, Steven Monroe (Estate of)
Rudy, Jr., Robert C.
Rue, Harry F. (Estate of)
Rumple, Jr., Thomas P.
Runnels, Richard L.
Rupp, Clarence J.
Rush, James M.
Rushton, David G.
Russell, Bobby L.
Russell, James Laing (Estate of)
Russell, Rodney O.
Russell, Thomas H. (Estate of)
Rutledge, William D. (Estate of)
Ryan, Donald J. (Estate of)
Ryf, Steven R.
Sachs, Stephen Lee
Sain, Phillip L.

165a
Salkeld, Warren R.
Salzmann, James D.
Sanches, III, Joseph A
Sander, Keith D.
Sanders, Charles R.
Sargent, Charles D. (Estate of)
Saux, Jack E. (Estate of)
Sawtelle, Jr., Raymond F.
Scaggs, Billy R. (Estate of)
Schalon, Lee E.
Scheidt, Colin C.
Schepman, Dennis W.
Schlough, James E.
Schmoker, Paul L.
Schneider, Martin A. (Estate of)
Schollmeyer, Bruce W.
Schulze, Norman E.
Schumy, Erik T.
Scibona, Paul G.
Sciurba, Carl R.
Scofield, Stephen D.
Scoggin Jr., Lockwood B.
Scott, Karl J.
Scott, Philip M
Scott, Robert E
Scott, Jr., Roland B.
Screws, Donald R
Seals, Jr., John A. (Estate of)
Sedgwick, Robert H. (Estate of)

166a
Seever, Thomas R.
Selberg, Richard I.
Sellen, Peter Alexander
Sellmer, John R. (Estate of)
Senior, Michael W.
Shandor, Richard A.
Sharp, James T.
Sharp, John M.
Shaughnessey, III, Kerin L.
Sheehy, Thomas W.
Shelton, Robert D.
Shepherd, Robert C.
Shepherd, William S.
Sherman, Craig A.
Sherman, Jr., Charles Arthur
Sherrill, Daniel L. (Estate of)
Shettle, Jr., Melvin L.
Shields, Dennis J.
Shinn, Jack W. (Estate of)
Shipley, Edward R.
Shirkey, Jack M. (Estate of)
Short, Michael N.
Shutack, Richard A.
Sibley, James A.
Sidenstricker, Charles R. (Estate of)
Sievers, Richard B.
Sigler, Robert W.
Siler III, Maynard D.
Simons, Charles Wetherill

167a
Simpson, Gerald G.
Singletary, Joe H.
Sisson, ONeal L.
Skjerven, David W.
Skoog, David Robert
Skowronski, Steven A.
Slater, Mitchell J.
Smail, Jr., Richard F.
Small, Ronald M.
Smart, Harold Joseph
Smith, David M.
Smith, Edward P. (Estate of)
Smith, Gerald Buell
Smith, Glenn H.
Smith, Gregor D.
Smith, Michael A.
Smith, Jr., Morgan C.
Smith, Paul K.
Smith, Reuben U.
Smith, Robert C.
Smith, Ronald V.
Smith, Stephen L.
Smith, II, Jerome G.
Smith, Jr., Frederick B.
Snead, William H.
Snelling, Robert J.
Snider, Jr., Charles Robert
Sniffin, Edward M.
Snipes, Thomas F.

168a
Snodgrass, Guy B.
Snyder, Jeffrey W.
Sonnenberg, William T.
Soodsma, Thomas N.
Sorenson, Lynn D.
Sorrelle, Lane S.
Spangler, Taylor L.
Speaks, William R.
Spires, James A.
Spivey, Don P.
Springer, Carroll V.
Stamps, Jerry L.
Starkey, James P.
Stauter, Jr., John A.
Stearns, Richard D.
Stedfield, William C.
Steele, Michael J.
Steele, Jr., Bert L.
Steiner, Barry H.
Stephens, Robert L.
Stevens, Donald F. (Estate of)
Stevens, William L.
Stevens, Jr., John C.
Stevenson, David M. (Estate of)
Stewart, George Alan
Stewart, Ronald Edwin
Stewart, William J.
Stienecker, Craig A.
Stites, Thomas S.

169a
Stitt, William D.
Stockton, Darryl L.
Stockton, Herbert H.
Stokes, III, Edward S.
Stone, James R.
Stone, Thomas J.
Stong, Stephen M.
Stothart, Robert A.
Stovall, Jr., Jack
Stovall, Warren S.
Stover, Keith A.
Stowe, James R.
Stricker, Gary F.
Strickland, Charles L.
Strickland, Dale R.
Struble, James D.
Stuart, Bruce
Stubsten, Dennis M.
Stukas, Daniel R.
Stump, Kern V.
Sturniolo, Larry R.
Suckow, James H.
Sullivan, Paul J.
Sullivan, Richard L.
Sullivan, Steven B. (Estate of)
Summers, Herbert (Estate of)
Summers, Joel L.
Sundberg, Roger R.
Sutkus, Carl J.

170a
Suttler, George L.
Sutton, Larry K.
Sutton, Michael R.
Svoboda, Steven J.
Swain, Frederick G. (Estate of)
Sweetay, William Paul (Estate of)
Swettman Jr, William P.
Swift, Jon N.
Swofford, John C.
Sword, Charles E.
Sykes, Donald B.
Szatkowski, Jr., Donald K. (Estate of)
Sztanyo, Mark J.
Taft, Jr., Walter Lars (Estate of)
Talton, Tom C. (Estate of)
Tate, Jerry L.
Tawes, Jr., John Paul
Tax, Cal W. (Estate of)
Taylor, Creigh W. (Estate of)
Taylor, Howard R.
Taylor, James R.
Taylor, Mark J.
Taylor, Roger Williams
Taylor, Terry J.
Taylor Jr., David N.
Taylor, Jr., Lee O.
Teal, Philip Russell
Tedrow, Richard C.
Teeple, Donald J. (Estate of)

171a
Terwilliger, George
Thelen, Antoni A.
Thelen, Peter W.
Thome, Robert W.
Thompson, III, Andrew J
Thompson, David J.
Thompson, Don D.
Thompson, Donald W.
Thompson, John A.
Thompson, Stewart W.
Thompson, Thomas G.
Thompson, Jr., Vernon Carl
Thompson, Sr., John S.
Thorne, Robert Harden
Thurman, III, John B.
Thykeson, Clinton
Tibbs, Don F.
Till, David R.
Tillman, Jr., James C. (Estate of)
Tinsley, III, Calvin W. (Estate of)
Todd, Samuel John
Todd, William S.
Tommasello, Charles S.
Tourtellott, Richard B. (Estate of)
Townsend, George J. (Estate of)
Tregre, Jr., George W.
Trent, William O.
Trevathan, Robert B.
Triolo, Frank C. (Estate of)

172a
Trogdon, Jr., Robert B.
Trucksess, David Paul
Truesdale, Alva B. (Estate of)
Tschurwald, Robert
Tullier, John D.
Tully, Sr., Charles T.
Turner, William F.
Tushek, Gordon M.
Twaddle, Robert R.
Tweet, Theodore A.
Tyler, Stephen R.
Tysinger, Richard L.
Ueckermann, Frederick
Ulrich, Jr., V. Kenneth
Unverzagt, John G.
Urban, James E.
Urban, John L.
Urban, Kenneth P.
Uselmann, Edwin D. (Estate of)
Uskovich, John
Vadakin, Jeffrey J.
Van Bebber, Jr., John G.
Van Oss, Leland B.
Van Vliet, Bruce Edward
Vance, Henry John
Vance, Kenson R.
Vance, William
Vandenberg, George E.
Vanderhorst, Thomas J.

173a
VanDeWalle, Henry J.
Vantwout, William A.
Varvil, Donald E.
Vehige, Henry F.
Velazquez, Edward G.
Verner, Ronald J.
Verrengia, Thomas James
Virtue, Patrick M.
Voigt, William F.
Vorderbruggen, William
Vowell, Kenneth L.
Wade, James A.
Waggener, Christopher N.
Wagner, Christopher F.
Wait, Dwight R.
Wakefield, Anthony L.
Wakeman, Ernest G.
Waldrop, David B.
Walker, Don C.
Walker, Joy Suzanne
Wall, David H.
Wallace, Harold Boyette
Wallace, Scott L.
Walsh, Alan H.
Walsh, William D.
Walters, Charles D.
Walters, Thomas D. (Estate of)
Walton, Michael J.
Warburton, James W.

174a
Ward, Gerald P.
Ward, Michael D.
Ward, Richard Eugene
Ward, Terry K.
Ware, Wayne E.
Warner, Richard M.
Warren, Robert E.
Warren, Rogers Patton
Watkins Jr, Paul P.
Watson, Michael D.
Watt, Douglas J.
Wayne, Jr., Robert
Weast, Don R.
Weaver, Jr., Robert O.
Weber, Philip J.
Webster, James W.
Webster, Larry E.
Weeber, Jr, Christian G.
Wegesser, Walter J.
Weigel, William Robert
Weiler, Maurice David
Welch, Lee K.
Wells, James R.
Wells, Michael James
Wells, Rodney L.
Wendelbo, Lee R.
Wenger, Evan K.
Wenske, Paul W.
Werner, Jr., Paul A.

175a
West, John George
West, Stuart L.
Westbrook, Charles R.
Westman, John E.
Wetherell, Jr., Charles Elton (Estate of)
Weymouth, Jack J.
Weyrick, Max T.
Whitcomb, Darrel D.
White, Allan C.
White, Donald R.
White, James Louis
White, Steven J.
Whitesell, Wilbur Larry
Whitford, Jeffrey B.
Whitley, David L. (Estate of)
Whorley, William W.
Wick, Pete A.
Wiese, Jr., Herbert K.
Wiggins, William Michael
Wigley, Denis
Wilkening, Walter L.
Willetts, Peter J
Williams, Charles M.
Williams, Jr., David M.
Williams, Donald R.
Williams, James L.
Williams, Jerry C.
Williams, Lonnie R.
Williams, Perry E.

176a
Williams, R. Douglass
Williams, Robert Mark
Williams, Robert W.
Williams, William W.
Williams Jr., Arthur J.
Williams, Jr., William F.
Williamson, Bruce A.
Willis, Roger Joseph
Willoughby, Jerry D.
Wilmarth, Lance A. (Estate of)
Wilson, Charles P.
Wilson III, Jefferson D.
Wirth, William J.
Wirtzfeld, Thomas F.
Wisecup, Ronald E.
Witt, Gary Lon
Witt, Prentice
Wittig, Robert H.
Wittmeyer, John R
Wittrig, William H.
Wohlford, Gerald D.
Wolcott, Keith
Wolff, Douglas M.
Wolken, Ralph E.
Wong, Peter
Wonsettler, James L.
Wood, Gary Harris
Wood, Winfield W.
Wood, Jr, George A.

177a
Wood, Jr., James E.
Woodall, Larry N.
Woodruff, III, Berryman E.
Woods, Charles R.
Wortmann, John R.
Wycoff, Earl N. (Estate of)
Yanish, Ronald L.
Yarborough, Harry Candler (Estate of)
Yates, Farris F.
Yeates, Richard M.
Yockey, Donald R.
Young, Alan H.
Yunes, Barry P.
Zajic, Haldane M.
Zickrick, Karl F.
Ziegler, Gordon D. (Estate of)
Ziegler, Jr., Robert W.
Zimmer, Edward T.
Zimmerman, John A.
Zipse, William P.
Zody, Don A.
Zollweg, Dennis C.

